<html>
<title> - THE CYBERSECURITY PARTNERSHIP BETWEEN THE PRIVATE SECTOR AND OUR GOVERNMENT: PROTECTING OUR NATIONAL AND ECONOMIC SECURITY</title>
<body><pre>[Senate Hearing 113-295]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-295
 
                     THE CYBERSECURITY PARTNERSHIP 
                       BETWEEN THE PRIVATE SECTOR 
                   AND OUR GOVERNMENT: PROTECTING OUR 
                     NATIONAL AND ECONOMIC SECURITY 

=======================================================================

                             JOINT HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION

                                and the

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 7, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

88-180 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
FRANK R. LAUTENBERG, New Jersey      MARCO RUBIO, Florida
MARK PRYOR, Arkansas                 KELLY AYOTTE, New Hampshire
CLAIRE McCASKILL, Missouri           DEAN HELLER, Nevada
AMY KLOBUCHAR, Minnesota             DAN COATS, Indiana
MARK WARNER, Virginia                TIM SCOTT, South Carolina
MARK BEGICH, Alaska                  TED CRUZ, Texas
RICHARD BLUMENTHAL, Connecticut      DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii                 RON JOHNSON, Wisconsin
WILLIAM COWAN, Massachusetts
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator

                 SENATE COMMITTEE ON HOMELAND SECURITY 
                        AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware, Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma, Ranking
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota
                   Richard J. Kessler, Staff Director
               John P. Kilvington, Deputy Staff Director
                    Beth M. Grossman, Chief Counsel
              Keith B. Ashdown, Republican Staff Director
        Christopher J. Barkley, Republican Deputy Staff Director
                    Andrew C. Dockham, Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 7, 2013....................................     1
Statement of Senator Rockefeller.................................     1
    Prepared statement...........................................     3
Statement of Senator Carper......................................     4
    Prepared statement...........................................     6
Statement of Senator Thune.......................................     8
Statement of Senator Coburn......................................     9
    Prepared statement...........................................    10
Statement of Senator Warner......................................    30
Statement of Senator Cowan.......................................    35
Statement of Senator Johnson.....................................    36
Statement of Senator Baldwin.....................................    38
Statement of Senator Pryor.......................................    40
Statement of Senator Ayotte......................................    76

                               Witnesses

Hon. Janet Napolitano, Secretary, U.S. Department of Homeland 
  Security.......................................................    11
    Prepared statement...........................................    13
Hon. Patrick D. Gallagher, Ph.D., Under Secretary of Commerce for 
  Standards and Technology, U.S. Department of Commerce..........    19
    Prepared statement...........................................    21
David E. Kepler, Chief Sustainability Officer, Chief Information 
  Officer, Business Services and Executive Vice President, The 
  Dow Chemical Company...........................................    42
    Prepared statement...........................................    44
Gregory C. Wilshusen, Director, Information Security Issues, U.S. 
  Government Accountability Office...............................    48
    Prepared statement...........................................    50

                                Appendix

American Gas Association, prepared statement.....................    83
Response to written questions submitted to Hon. Janet Napolitano 
  by:
    Hon. Amy Klobuchar...........................................    88
    Hon. Kelly Ayotte............................................    89
    Hon. Dan Coats...............................................    92
    Hon. Ron Johnson.............................................    98
Response to written questions submitted to Hon. Patrick D. 
  Gallagher by:
    Hon. Kelly Ayotte............................................   101
    Hon. Dan Coats...............................................   102
    Hon. Ron Johnson.............................................   102
Response to written questions submitted to David E. Kepler by:
    Hon. Amy Klobuchar...........................................   103
    Hon. Dan Coats...............................................   104
    Hon. Marco Rubio.............................................   105
    Hon. Ron Johnson.............................................   106
Response to written questions submitted by Hon. Ron Johnson to 
  Gregory C. Wilshusen...........................................   106


                     THE CYBERSECURITY PARTNERSHIP

                       BETWEEN THE PRIVATE SECTOR

   AND OUR GOVERNMENT: PROTECTING OUR NATIONAL AND ECONOMIC SECURITY

                              ----------                              


                        THURSDAY, MARCH 7, 2013

                               U.S. Senate,
        Committee on Commerce, Science, and Transportation,
   Committee on Homeland Security and Governmental Affairs,
                                                    Washington, DC.
    The Committees met, pursuant to notice, at 2:30 p.m., in 
room SD-G50, Dirksen Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Commerce Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Chairman Rockefeller. Ladies and gentlemen, this hearing 
will come to order.
    I have one quick announcement to make--and that is, I was 
just told that we may have a vote on John Brennan, for the CIA, 
coming up within a relatively short period of time, so we need 
to be as efficient as possible. But, on the other hand, we can 
come back from that.
    So, let me make my opening statement. And I know that Tom 
is coming.
    Long ago, we made the decision in this country that private 
companies would build, and that they would own, our key 
transportation, communications, and energy networks. That was, 
and still is, a good decision. Given the opportunity to earn a 
reasonable profit on their investment, private companies build 
our railroads, our wireline telephone network, our aviation 
system, our pipelines, and so many other physical assets that 
we have. They were built by private corporations, private 
money, and are owned by them.
    But, this isn't just our past, it's our future, too. With 
the encouragement and support of Federal, State, and local 
governments, private companies are hard at work today building 
the broadband network that will be the key to our country's 
success in the 21st century. What we have always asked these 
companies for in return is that they serve, not just the 
interests of their shareholders, but also the broader general 
interests of the country, however one wants to define that.
    As those of us who serve on the Commerce Committee know 
well, getting big things done in this country, and in this 
body, is slow. It's very slow. And it always takes, on really 
big stuff, the private sector and the public sector, working 
together. It just has to be that way. That's the kind of 
partnership we will need to address the grave new threat that 
our country faces today, which are cyber attacks, which, 4 
years ago, were treated lightly, and today are still treated 
too lightly, in my judgment, but is the number one national 
security threat that the country faces.
    Back in 2009, when I started working on this issue with 
Senator Olympia Snowe, cybersecurity was just an exotic idea. 
To some, it still is just that, or it's an idea to push aside 
and take up later. But, it is not. Almost every day, we read 
about another company, another Government agency that's been 
electronically attacked by adversaries trying to cause economic 
damage or searching for sensitive information, and getting it. 
It's not a threat that we can address through a traditional 
military response, of course, and it's not a threat that 
individual companies can handle through their normal risk 
mitigation practices. It's a threat that challenges our 
traditional notion of the public and private spheres. That's 
what makes it interesting.
    A cyber attack against a government agency or a defense 
contractor is an attack against our nation. An attack against a 
private company dealing with--say, a water company--is an 
attack against our nation. So is it with an attack on a private 
company that provides power or clean water to millions of 
Americans; an attack against any of these pieces, even though 
they might be privately operated, is an attack against our 
nation's critical infrastructure and, therefore, against us, as 
a nation.
    Since I've been working on this issue, I've had a lot of 
good and productive sessions with the private sector. But, you 
know what? We also have wasted an awful lot of time by turning 
an urgent national security issue into a partisan political 
fight. How one does that on the number one national security 
threat, I don't know, but somehow we've managed to do it.
    Back in 2010, we passed, in the Commerce Committee, a cyber 
bill. We did it unanimously. And we did that because we didn't 
have any vote, everybody just agreed, and it zipped right 
through. However, we couldn't get enough votes, in 2012, to 
start debate, even, on this issue on the Senate floor even 
though the whole military and intelligence establishment was 
going crazy at our lack of movement.
    The Obama administration got tired of waiting for us. I 
can't blame them. This is a problem that's growing worse every 
day. So, on February 12 of this year, the President released an 
Executive order that takes some very important steps--not 
enough, because he can't create the law that's necessary for 
some things, but they worked very hard to make this Executive 
order a welcoming invitation to the private sector to work 
together on this problem. It seeks to formalize and to 
strengthen the working relationships many companies already 
have with our cybersecurity experts in the Federal Government.
    The Executive order starts a process with NIST--can NIST be 
helpful? I think this can be helpful. Some others don't think 
so, because it's called a ``government agency.'' We're going to 
hear more about the Executive orders from our witnesses. The 
Senators sitting in this dais today understand what an urgent 
issue this is. We all want to do something. We want to come 
together. We want to be ruled by our common sense, not by other 
interests. So, we have our work cut out.
    [The prepared statement of Chairman Rockefeller follows:]

 Prepared Statement of Hon. John D. Rockefeller IV, U.S. Senator from 
West Virginia and Chairman, U.S. Senate Committee on Commerce, Science, 
                           and Transportation
    Long ago we made the decision that in this country, private 
companies would build and own our key transportation, communications, 
and energy networks. That was and still is a good decision. Given the 
opportunity to earn a reasonable profit on their investment, private 
companies built our railroads, our wireline telephone network, our 
aviation system, our pipelines, and many other physical assets that 
have fueled our country's phenomenal economic success. This isn't just 
our past. It's our future too. With the encouragement and support of 
federal, state, and local governments, private companies are hard at 
work today building the broadband network that will be key to our 
country's success in the 21st century.
    What we have always asked these companies for in return is that 
they serve not just the narrow interests of their shareholders, but 
also the broader, general interests of this country. As those of us who 
serve on the Commerce Committee know very well, getting big things done 
in this country always requires a partnership between the public and 
private sectors. That's the kind of partnership we will need to address 
the grave new threat our country faces today--the threat of cyber 
attacks.
    Back in 2009, when I started working on this issue with Senator 
Snowe, cybersecurity was an exotic idea. Today, four years later, it is 
a household word. Almost every day, we read about another company, or 
another government agency, that has been electronically attacked by 
adversaries trying to cause economic damage or searching for sensitive 
information.
    It's not a threat we can address through a traditional military 
response, and it's not a threat that individual companies can handle 
through their normal risk mitigation practices. It's a threat that 
challenges our traditional notion of the public and private spheres. A 
cyber attack against a government agency or a defense contractor is an 
attack against our nation. But so is an attack on a private company 
that provides power or clean water to millions of Americans. An attack 
against a privately owned and operated piece of our nation's critical 
infrastructure is an attack on all of us.
    Since I have been working on this issue, I've had a lot of good, 
productive discussions with leaders in our business community, our 
military, and in other government agencies who understand this threat 
and have good ideas about how we can tackle it. But we've also wasted a 
lot of time, by turning an urgent national security issue into a 
partisan political fight. Back in 2010, we passed a cyber bill out of 
the Commerce Committee unanimously, without a vote. By the fall of 
2012, we couldn't even get enough votes to close debate on the Senate 
floor, even though our country's top national security leaders were 
urging us to act.
    The Obama Administration got tired of waiting for us. I can't blame 
them. This is a problem that is growing worse every day. On February 
12, 2013, President Obama released an Executive order that takes some 
very important steps to start dealing with our cybersecurity problems. 
The order marshals the resources and the expertise we have in many 
different Federal agencies to start strengthening our country's ability 
to defend ourselves from cyber attacks.
    The Obama Administration worked very hard to make this Executive 
order a welcoming invitation to the private sector to work together on 
this problem. It seeks to formalize and strengthen the working 
relationships many companies already have with our cybersecurity 
experts in the Federal Government. One of the most important 
initiatives in the Executive order is to start a process at the 
National Institute of Standards and Technology (NIST) that will develop 
cybersecurity standards and best practices with U.S. companies.
    We are going to hear more about the Executive order from our 
witnesses today, and we are going hear a lot more about cybersecurity 
in the 113th Congress. The Senators sitting at this dais today--and 
many more who are not sitting up here--understand what an urgent issue 
this is. We understand that some of steps we need to take to defend our 
people and our critical infrastructure cannot be accomplished by a 
presidential order. We have to work with each other. We have to trust 
each other. We have to move forward.

    And I turn to my distinguished Chairman.
    And the only--I regret to say this, but this is--since it's 
not a public meeting, it doesn't hurt me anymore--the only West 
Virginian--no----
    Senator Carper. One of two.
    Chairman Rockefeller.--one of two in the United States 
Senate. The one who isn't is the one who's just finished 
talking.

              STATEMENT OF HON. THOMAS R. CARPER, 
                   U.S. SENATOR FROM DELAWARE

    Chairman Carper. And the one who is wishes he had his 
money.
    [Laughter.]
    Chairman Carper. Nothing like being born in a log cabin, 
I'll tell you.
    I'm thrilled to be here with Senator Rockefeller, our 
Chair--co-Chair--and Senator Thune and my wingman, here, Tom 
Coburn, with whom I've worked on a lot of things.
    I'm delighted with our witnesses.
    And, Secretary, Pat, we're happy that you could join us 
today.
    I'm told that our committees have not held a joint hearing 
for over 35 years; I guess, since 1975, to be exact. We need to 
be able to work together; this is a shared responsibility, and 
not just between government and private sector; this is a 
shared responsibility here on Capitol Hill: executive branch, 
legislative branch, and different committees, and different 
parties. So, this is a great way to get started. I'm happy that 
we're doing this.
    But, we're having this hearing today because, as Chairman 
Rockefeller has said, America's economy and our national 
security are under attack. This is not the kind of war that 
some of us served in earlier in our lives or read about in the 
history books or have watched on television. The war that's 
occurring today is a war that's occurring in cyberspace, it's 
occurring in realtime, because, literally as I speak, 
sophisticated cyber thieves are stealing our ideas, our 
intellectual property, the very innovation, or the seed corn, 
if you will, that fuels our economy in years to come.
    Recent report by Mandiant, an American cybersecurity firm, 
points the finger for much--not all, but much of the cyber 
threat thievery that's going on, to a military unit in China. 
Even more alarming are the reports that hackers are constantly 
probing the companies that run our nation's critical 
infrastructure--our electric grid, our gas lines, our 
waterworks, the banking systems, among others.
    Since this past summer, for example, websites for a number 
of major U.S. banks have become the target of repeated cyber 
attacks that have caused a disruption and service delays. We 
read about that every week, almost every day. But, once inside 
a company network, these hackers can do a lot more than steal 
information or create a temporary nuisance. Among other things, 
they can shut down our electric grid or release dangerous 
chemicals into our water supply or into our air. We only have 
to think about the cyber attack that reportedly destroyed more 
than 30,000 computers at oil giant Saudi Aramco to know that 
the threat is real and it is serious.
    Several of our colleagues, including Senator Rockefeller, 
Senators Feinstein and Collins, and former Chair of the 
Committee that I'm now privileged to chair, Joe Lieberman, 
worked diligently with others to move cybersecurity legislation 
that Senator Rockefeller has mentioned. Unfortunately, we 
couldn't come together to pass this vital piece of bipartisan 
legislation. But, given the growing cyber threats that America 
faces, we're now more determined than ever to put in place a 
thoughtful, comprehensive cyber policy to protect our nation, 
its people, its critical infrastructures, and its economy.
    Because of Congress's failure to act last year, and the 
serious nature of the threat, the President has issued, as we 
know, an Executive order, last month, to better protect our 
nation's cyber networks. Instead of drafting the order behind 
closed doors, the White House was very open with the process, 
conducting numerous listening sessions with companies and trade 
groups so that the good ideas could be freely shared and 
adopted, and bad ideas could be rejected.
    Final product is an order that takes a number of critical 
steps to improve the security of our critical infrastructure.
    One of these steps enhances the way we share cyber threat 
information between the Federal Government and the private 
sector. For instance, in response to the concerns of many in 
industry, the order looks to increase the volume, the 
timeliness, and the quantity of cyber threat information shared 
with the private sector. The order also relies on public-
private partnerships to strengthen the digital backbone of our 
most sensitive systems. In fact, the order calls on the private 
sector to lead the development of new security framework, in 
coordination with NIST, National Institution--National 
Institute of Standards and Technology.
    Companies may voluntarily adopt the new cybersecurity 
framework or work with their current regulations on their 
solutions. To encourage the adoption of any new framework, 
though, the order calls for using carrots instead of sticks. 
For example, the order requires the Department of Homeland 
Security and other Federal agencies to establish a set of 
incentives to promote participation in the program. It also 
requires Homeland Security to expedite the granting of security 
clearances to the people who run our critical infrastructure, 
so that industry can better understand the threats that they 
face.
    Privacy and civil liberties protections are also a key 
consideration throughout the order. In fact, agencies are 
required to incorporate privacy safeguards in all their 
activities under the order. And, while I commend the President 
for issuing this important order, there's only so much that he, 
or any President, could do, using the authorities granted to a 
President under existing law. Those authorities are simply not 
enough to get the job done. That's where we come in.
    Now is the time to begin the process of gathering input 
from the administration and the broad array of stakeholders in 
order to ascertain what Congress needs to do, what we need to 
do, to build on, or fill in the gaps, if you will, around this 
Executive order so that--that the President has promulgated.
    For example, we know that what--that more needs to be done 
on information sharing so that companies can more freely share 
their best practices and threat information with each other and 
with our government. We should also consider how we can further 
improve the protection of our nation's critical infrastructure, 
including offering incentives, such as liability protection, in 
certain instances.
    In addition, we need to be modernize the dated process we 
have in place to ensure that the security of our Federal 
network, something that we call FISMA, an area that Senator 
Coburn and I have worked on for quite some time, along with 
Senator Collins.
    It's also important for us to clarify the roles and 
responsibilities of Federal agencies involved in cybersecurity 
so that we know who should be held accountable for our 
successes or failures in tackling this growing threat.
    And finally, we must also continue to develop the next 
generation of cyber professionals, grow our own, and better 
coordinate our cyber research-and-development efforts. A lot of 
people in this country of ours question, today, whether we're 
still able to set aside partisan differences or other 
differences--the stakes are high--and summon the political will 
to do what's best for America. The stakes are high. And it's 
important--as the Chairman has said, here--important that we 
should set aside our difference, whether political or 
otherwise, and do what's right for our country. And I'm 
confident, I'm encouraged, that, with the cooperation of the 
folks that are on these committees and our colleagues with whom 
we serve, that we're up to the task, and we're going to seize 
this opportunity.
    Thank you, Mr. Chairman.
    [The prepared statement of Chairman Carper follows:]

Prepared Statement of Hon. Thomas R. Carper, U.S. Senator from Delaware
    I am very pleased to be here today with our colleagues from the 
Senate Commerce Committee hosting a joint hearing on cybersecurity, an 
incredibly important topic for our country. I would like to thank 
Chairman Rockefeller, Ranking Member Thune, and my Ranking Member, Dr. 
Coburn--along with our staff members--for all their work on this 
hearing. I would also like to thank our witnesses for being here today 
and for their valuable service to our country.
    I am told that our Committees have not held a joint hearing for 
over 35 years--since 1975 to be exact. It is fitting that we have come 
together again to address this issue because we definitely need a true 
partnership to pass comprehensive cybersecurity legislation in this 
Congress--a partnership between Democrats and Republicans, the House 
and the Senate, Congress and the Administration; and, as the title of 
this hearing indicates, between government and industry.
    We are having this hearing today because America's economy and our 
national security are under attack. This is not the kind of war that 
some of us served in earlier in our lives, or read about in history 
books, or watched on TV. This war is occurring in cyberspace and in 
real time. Literally as I speak, sophisticated cyber thieves are 
stealing American ideas and intellectual property--the very innovation 
that fuels our economy.
    A recent report by Mandiant, an American cybersecurity firm, points 
the finger for much of this cyber theft to a military unit in China. 
Even more alarming are the reports that hackers are constantly probing 
the companies that run our Nation's critical infrastructure--our 
electrical power grid, gas lines, waterworks, and banking system, among 
others.
    Since this past summer, for example, websites for a number of major 
U.S. banks have become the target of repeated cyber attacks that have 
caused disruption and service delays. But once inside a company 
network, these hackers can do a lot more than steal information or 
create a temporary nuisance. Among other things, they can shut down our 
electric grid or release dangerous chemicals into our water supply.
    We only have to think about the cyber attack that reportedly 
destroyed more than 30,000 computers at oil giant Saudi Aramco to know 
this threat is real--and serious. Several of our colleagues, including 
Senators Rockefeller, Feinstein, and Collins, and the former Chairman 
of the Committee I now chair, Joe Lieberman, worked diligently to move 
cyber legislation last year. Unfortunately, the Senate could not come 
together to pass this vital piece of bipartisan legislation. But given 
the growing cyber threats that America faces, we are now more 
determined than ever to put in place a comprehensive cyber policy to 
protect our nation, its people, its critical infrastructure, and its 
economy.
    Because of Congress' failure to act last year and the serious 
nature of the threat, the President issued an Executive Order last 
month to better protect our Nation's cyber networks. Instead of 
drafting the Order behind closed doors, the White House was very open 
with the process, conducting numerous ``listening sessions,'' with 
companies and trade groups so that good ideas could be freely shared 
and adopted. The final product is an Order that takes a number of 
critical steps to improve the security of our critical infrastructure.
    One of these steps enhances the way we share cyber threat 
information between the Federal Government and the private sector. For 
instance, in response to the concerns of many in industry, the Order 
looks to increase the volume, timeliness, and quality of cyber threat 
information shared with the private sector.
    The Order also relies on a public-private partnership to strengthen 
the digital backbone of our most sensitive systems. In fact, the Order 
calls on the private sector to lead the development of new security 
frameworks in coordination with the National Institute of Standards and 
Technology.
    Companies may voluntarily adopt the new cybersecurity framework or 
work with their current regulators on other solutions. To encourage the 
adoption of any new framework, the Order calls for using carrots 
instead of sticks. For example, the Order requires the Department of 
Homeland Security and other Federal agencies to establish a set of 
incentives to promote participation in the program.
    It also requires Homeland Security to expedite the granting of 
security clearances to the people who run our critical infrastructure, 
so that industry can better understand the threats they face. Privacy 
and civil liberties protections are also a key consideration throughout 
the Order. In fact, agencies are required to incorporate privacy 
safeguards in all their activities under the Order.
    While I commend the President for issuing this very important 
Order, there was only so much he could do using the authorities granted 
to him under existing law. Those authorities are simply not enough to 
get the job done. Now is the time to begin the process of gathering 
input from the Administration and a broad array of stakeholders in 
order to ascertain what Congress needs to do to build on the Executive 
order that the President has promulgated.
    For example, we know that more needs to be done on information 
sharing so that companies can more freely share best practices and 
threat information with each other, and with the Federal Government. We 
should also consider how we can further improve the protection of our 
Nation's critical infrastructure, including offering incentives such as 
liability protection in certain instances. In addition, we need to 
modernize the dated process we have in place to ensure the security of 
our Federal networks. This is an area that I have worked on for years.
    It is also important for us to clarify the roles and 
responsibilities of Federal agencies involved in cybersecurity so that 
we know who should be held accountable for our success or failure in 
tackling this growing threat. Finally, we must also continue to develop 
the next generation of cyber professionals and better coordinate our 
cyber research and development efforts.
    A lot of people in this country of ours question today whether 
we're still able to set aside our partisan differences when the stakes 
are high and summon the political will to do what's best for America. I 
believe this joint hearing is a good step in showing the American 
people we can. I look forward to working with our colleagues, as well 
as with the Administration, industry, and other stakeholders, to pass 
critically needed cyber legislation.

    Chairman Rockefeller. The distinguished Ranking Member of 
the Commerce Committee, Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman and Chairman Carper. 
I look forward, along with you and with Senator Coburn and 
members of both of our committees, to examining the need for a 
greater cybersecurity partnership between the private sector 
and the Federal Government.
    No one can deny the serious threat that we're confronting 
in cyberspace. Almost daily, we learn of new cyber threats and 
attacks targeting our government agencies and companies that 
drive our economy. In these perilous economic times, it's 
especially troubling that the intellectual capital that fuels 
our prosperity is being siphoned off by cyber criminals and 
even nation--states.
    The National Counterintelligence Executive, the country's 
chief counterintelligence official, summed it up this way in 
2011, and I quote, ``Trade secrets developed over thousands of 
working hours by our brightest minds are stolen in a split 
second and transferred to our competitors.'' This large-scale 
theft cannot be allowed to continue unchecked. We must find 
solutions that leverage the innovation and know-how of the 
private sector, as well as the expertise and information held 
by the Federal Government. And, given the escalating nature of 
the threat, we should look for solutions that will have an 
immediate impact.
    As today's hearing title suggests, one thing we must do is 
strengthen the partnership between the government and the 
private sector. As one of our witnesses, David Kepler, of The 
Dow Chemical Company, observed in his testimony, timely 
information sharing between government and industry, and among 
industry peers, is key to this collaboration.
    The Chair of the House Intelligence Committee has said 
that, according to intelligence officials, allowing the 
government to share classified information with private 
companies could stop up to 90 percent of cyber attacks on U.S. 
networks. Even if the figure was only 60 to 70 percent, the 
return would be well worth the effort.
    Improving research and development is another area where 
our focus could yield new tools to secure the cyber domain. We 
should not underestimate the value of R&D. I'm proud to know 
that South Dakota's own Dakota State University is one of only 
four schools in the nation designated by the National Security 
Agency as a National Center of Academic Excellence in Cyber 
Operations.
    It's no secret that, during the last Congress, the Senate 
reached an impasse on cybersecurity legislation. It is my 
hope--and I suspect that it's our shared hope--that we can 
avoid another stalemate in this Congress. Today's hearing 
represents a good start.
    As we all recognize, this issue crosses the jurisdictional 
boundaries of many committees, so it is appropriate, if 
somewhat challenging, that we've joined with our colleagues on 
the Homeland Security and Governmental Affairs Committee today. 
Of course, given the importance of this topic and the value of 
hearing from multiple stakeholders, I look forward to 
additional sessions in the Commerce Committee as we seek 
consensus on this vital matter.
    Our hearing today takes place against the backdrop of the 
President's recently released Executive order on cybersecurity 
and related Presidential policy directive. Even though I, like 
many of my colleagues, was skeptical about executive action, 
the order's release may provide an opportunity for Congress to 
find common ground on other steps that will improve our 
cybersecurity. Of course, we must also conduct meaningful 
oversight of the Executive order's implementation.
    I look forward to hearing from Secretary Napolitano and 
Under Secretary Gallagher today regarding the steps the 
Department of Homeland Security and the National Institute of 
Standards and Technology are taking to ensure that the 
Executive order's promise of improved partnership and 
collaboration with the private sector is realized in practice. 
I'm particularly interested in hearing about how the Executive 
order builds upon or enhances existing mechanism for public-
private collaboration. And I'll be interested in the views of 
our GAO witness, Greg Wilshusen, as to whether the Federal 
Government is up to the task envisioned by the Executive order, 
given persistent shortcomings in its own cybersecurity efforts 
identified by the watchdog agency.
    Again, Mr. Chairman, I thank you, and I thank all of the 
witnesses for being here today, and I look forward to hearing 
their testimony.
    Chairman Rockefeller. Distinguished Senator from Oklahoma, 
Tom Coburn.

                 STATEMENT OF HON. TOM COBURN, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Coburn. Thank you, Mr. Chairman.
    Welcome, to all the witnesses. I appreciate you being here.
    Senator Carper and I had a little demonstration or 
presentation on the Executive order yesterday, and I have to 
say I was impressed with the thoroughness and the presentation 
of it.
    I'm highly disappointed that OMB didn't release the FISMA 
report. And there's no reason for it, other than it's--shows 
significant criticism of our ability to manage critical 
information within the Federal Government. And I will apologize 
to them vociferously if, in fact--my assessment of that report. 
But, to not put it out before this hearing is absolutely 
ridiculous, because we all know--and the GAO's going to testify 
today what we all know--is the status within our own government 
on how well we're doing. And so, it's unfortunate that we've 
chosen not to have a critical piece of information that 
analyzes a report card on us for this hearing.
    The--I am appreciative of the leadership of the President 
and his staff in doing this Executive order. I think it was 
timely and it was appropriate. And I'll speak to the issue that 
nobody wants to directly speak to, is--the reason the bill 
didn't go through the Senate is because there's a--there is a 
disagreement on the liability protections for business and 
industry, when they share their information, to protect them 
against frivolous lawsuits. And in the hearings that Senator 
Carper and I have had that have been classified thus far, there 
hasn't been one person who's testified--all administrative 
witnesses, all administration--who don't agree that those 
protections are going to have to be there for us to accomplish 
what we need to do for our country. And so, what we have to do 
is, we have to get past that one issue, and we have to address 
the real issues in front of us.
    The other thing that I would like to emphasize is the 
fact--and Senator Thune spoke about it, and I know Senator 
Rockefeller and Senator Carper care immensely about it--and 
that's the intellectual property loss that this country loses 
every year. And General Alexander, head of the NSA, has said 
it's around $400 billion a year. And if we do not create a 
workable situation, what we're doing is taking the investment 
that we spend every year, that we want to spend, in terms of RD 
in this country, and giving it away.
    So, we have to find a way to solve this problem, in the 
Senate, and we have to work across the aisle and across the 
special interest groups that don't want certain things because 
it might create a lack of a supreme benefit for their cause. 
What we have to do is what's in the best interests of the 
nation. And I think the President has shown real leadership 
with this Executive order, and now we need to come behind it 
and firm it up.
    And I appreciate, also, Senator Rockefeller, his 
cooperation on the witnesses for this. I want to thank you 
publicly for that. Having a hearing on cybersecurity and not 
listening to the expert at GAO would be inappropriate. And Mr. 
Wilshusen is here, and he's knowledgeable, and I look forward 
to his testimony, on the second panel.
    Thank you.
    [The prepared statement of Ranking Member Coburn follows:]

  Prepared Statement of Hon. Tom Coburn, U.S. Senator from Oklahoma, 
    Ranking Member, U.S. Senate Committee on Homeland Security and 
                          Governmental Affairs
    Thank you, Mr. Chairman. Welcome to all the witnesses. I appreciate 
you being here. Senator Carper and I had a little demonstration or 
presentation on the executive order yesterday. And I have to say I was 
impressed with the thoroughness and the presentation of it.
    I am highly disappointed that OMB didn't release the FISMA report. 
There is no reason for it other than it shows significant criticism of 
our ability to manage critical information within the Federal 
Government. I will apologize to them vociferously if, in fact, my 
assessment of that report--but to not put it out before this hearing is 
absolutely ridiculous, because we all know, and the GAO's going to 
testify today what we all know, is the status within our own government 
on how well we're doing, and so it's unfortunate that we have chosen 
not to have a critical piece of information that analyzes a report card 
on us for this hearing.
    I am appreciative of the leadership of the President and his staff 
in doing this Executive order. I think it was timely and appropriate. 
I'll speak to the issue that nobody wants directly to speak to, is the 
reason the bill didn't go through the Senate is because there is a 
disagreement on the liability protections for business and industry 
when they share their information to protect them against frivolous 
lawsuits. In the hearings that Senator Carper and I have had, that have 
been classified thus far, there hadn't been one person who has 
testified, all the administrative witnesses--all of administration--who 
do not agree that those protections are going to have to be there for 
us to accomplish what we need to do for our country. We have to get 
past that one issue, and we have to address the issues in front of us.
    The other thing that I would like to emphasize is the intellectual 
property loss that this country loses every year. General Alexander, 
head of the NSA, has said it's around $400 billion a year, and if we do 
not create a workable situation, what we are doing is taking the 
investment that we spend every year that we want to spend in terms of 
R&D in this country, and giving it away.
    We have to find a way to solve this problem in the Senate, and we 
have to work across the aisle and across the special interest groups 
that don't want certain things, because it might create a lack of a 
supreme benefit for their cause. What we have to do is what's in the 
best interest of the nation, and I think the President has shown real 
leadership with this Executive order, and now we need to come behind 
and firm it up.
    I appreciate--also, Senator Rockefeller, his cooperation on the 
witnesses for this. I want to thank you publicly for that. Having a 
hearing on cybersecurity and not listening to the expert at GAO would 
be inappropriate, and Mr. Wilshusen is here, and he's knowledgeable, 
and I look forward to his testimony in the second panel.
    Thank you.

    Chairman Rockefeller. Thank you, Senator Coburn.
    And we now go to our first two witnesses. We're glad 
they're here.
    The Honorable Janet Napolitano, who's Secretary, U.S. 
Department of Homeland Security.
    I see you at more hearings, on more television, than 
anybody else within a 10-mile radius of Washington, D.C. But, 
fortunately, you're here today for us. Please proceed.

        STATEMENT OF HON. JANET NAPOLITANO, SECRETARY, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Secretary Napolitano. Well, thank you. Thank you, Chairman 
Rockefeller and Ranking Member Thune and Chairman Carper, 
Ranking Member Coburn, members of the Committee. I appreciate 
the opportunity to testify regarding our cybersecurity efforts 
at the Department of Homeland Security. And I also want to 
thank Under Secretary Gallagher for our partnership with NIST 
with the Department of Commerce.
    This is, as you all have acknowledged, an urgent and 
important topic. As you know, DHS is responsible for securing 
unclassified Federal civilian government networks and working 
with owners and operators of critical infrastructure to help 
them secure their own networks. We also coordinate the national 
response to significant cyber incidents, and create and 
maintain a common operational picture for cyberspace across the 
government.
    This is critical, time-sensitive work, because we confront 
a dangerous combination of known and unknown cyber 
vulnerabilities and adversaries with strong and rapidly 
expanding capabilities. Threats range from denial-of-service 
attacks to theft of valuable intellectual property to 
intrusions against government networks and systems that control 
our nation's critical infrastructure. These attacks come from 
every part of the globe. They come every minute of every day. 
They are continually increasing in seriousness and 
sophistication.
    To protect Federal networks, DHS is deploying technology to 
detect and to block cyber intrusions, and we are developing 
continuous diagnostic capabilities while providing guidance on 
what agencies need to do to protect themselves. We also work 
closely and regularly with owners and operators of critical 
infrastructure to strengthen their facilities through onsite 
risk assessment, mitigation, and incident response, and by 
sharing risk and threat information. For example, we provided 
classified cyber threat briefings and technical assistance to 
help banks improve their defensive capabilities following the 
recent spate of DDOS attacks.
    DHS is home to the National Cybersecurity and 
Communications Integration Center, the NCCIC. The NCCIC is an 
around-the-clock cyber situational awareness and incident-
response center, which, over the past 4 years--and that's as 
old as it is--has responded to nearly a half a million incident 
reports and released more than 26,000 actionable cybersecurity 
alerts to public-and private-sector partners. Last year, the 
Computer Emergency Readiness Team, US-CERT, resolved 
approximately 190,000 cyber incidents and issued more than 
7,450 alerts--in and of itself, a 68 percent increase from the 
year before--and our Industrial Control System Cyber Emergency 
Response Team responded to 177 incidents while completing 89 
site visits, deploying 15 teams to respond to significant 
private-sector cyber incidents involving control systems.
    Since 2009, DHS components have prevented $10 billion in 
potential losses through cyber crime investigations. We have 
arrested more than 5,000 individuals in connection with cyber 
crime. And we partner closely with the Departments of Justice 
and Defense to ensure that a call to one is a call to all. So, 
while each agency operates within the parameters of its 
authorities, our overall Federal response to cyber incidents of 
consequence is coordinated among the three agencies. Where 
agency authorities overlap, as in law enforcement protection 
and response, we also directly coordinate with and support each 
other.
    This synchronization--a call to one is a call to all--
ensures that all of our capabilities are brought to bear 
against cyber threats, enhances our ability to share timely and 
actionable information with a variety of partners.
    But, while our accomplishments are significant and 
cybersecurity remains a priority for the administration, in 
order to be able to best meet this growing threat, we need 
Congress to enact a suite of comprehensive cybersecurity 
legislation. I appreciate the efforts made in the last Congress 
to pass bipartisan legislation, but the inability to get this 
done has, indeed, required the President to take executive 
action.
    The EO [Executive order] on Improving Critical 
Infrastructure Cybersecurity supports more efficient sharing of 
realtime cyber threat information with the private sector. It 
directs DHS to develop a voluntary program to promote the 
adoption of a new cybersecurity framework, and assists the 
private sector in its implementation. The accompanying 
Presidential Policy Directive on Critical Infrastructure, 
Security, and Resilience also directs the executive branch to 
strengthen our capability to understand and share information 
about how well critical infrastructure systems are functioning, 
and the consequence of potential failure. And it calls for a 
comprehensive research-and-development plan to guide the 
government's effort to enhance market-based innovation.
    These two documents, the EO and the PPD, reflect input from 
stakeholders of all viewpoints across government, industry, and 
the advocacy community. Their ideas and lessons were 
incorporated, as were rigorous protections for individual 
privacy and civil liberties. Importantly, the EO calls us to 
work within current authorities and increase voluntary 
cooperation with the private sector. It does not grant any new 
regulatory authority or establish additional incentives for 
participation in a voluntary program.
    Nonetheless, we continue to believe that a comprehensive 
suite of legislation is necessary to build stronger, more 
effective public/private partnerships in the realm of cyber. 
Specifically, Congress should enact legislation to incorporate 
privacy and civil liberty safeguards into all aspects of 
cybersecurity, further increase information sharing, and 
establish and promote the adoption of standards for critical 
infrastructure, give law enforcement additional tools to fight 
crime in the Digital Age, create a national data-breach 
reporting requirement; and, finally, give DHS hiring authority 
equivalent to that of the NSA.
    We also know that threats to cyberspace, and the need to 
address them, do not diminish because of budget cuts. Even in 
the current fiscal climate, we do not have the luxury of making 
significant reductions to our capabilities without having 
significant impacts. Sequester reductions will require us to 
scale back the development of critical capabilities for the 
defense of Federal cyber networks. It will disrupt long-term 
efforts to grow our cybersecurity workforce, and delay the 
implementation of E3A by approximately 1 year. In addition, 
sequester has resulted in canceling major cybersecurity 
exercises by which, involving international, Federal, State, 
local, private-sector partners, we actually work through the 
various problem sets and scenarios we confront.
    The American people expect us to secure the country from a 
growing cyber threat and to ensure that critical infrastructure 
is protected. Further action is needed by Congress, including 
immediate action to address the sequester, if we are to meet 
our responsibilities. We must act now, not years from now.
    So, I look forward to working with both committees to make 
sure we continue to do everything possible to keep the nation 
safe.
    I thank you for your continued guidance and support, and 
for the opportunity to be with you this afternoon.
    [The prepared statement of Secretary Napolitano follows:]

        Prepared Statement of Hon. Janet Napolitano, Secretary, 
                  U.S. Department of Homeland Security
    Chairmen Rockefeller and Carper, Ranking Members Thune and Coburn, 
and Members of the Committees:

    I am pleased to join you today, and I thank the Committee for your 
strong support for the Department of Homeland Security (DHS) over the 
past four years and, indeed, since the Department's founding ten years 
ago.
    I can think of no more urgent and important topic in today's 
interconnected world than cybersecurity, and I appreciate the 
opportunity to explain the Department's mission in this space and how 
we continue to improve cybersecurity for the American people as well as 
work to safeguard the nation's critical infrastructure and protect the 
Federal Government's networks.
Current Threat Landscape
    Cyberspace is woven into the fabric of our daily lives. According 
to recent estimates, this global network of networks encompasses more 
than two billion people with at least 12 billion computers and devices, 
including global positioning systems, mobile phones, satellites, data 
routers, ordinary desktop computers, and industrial control computers 
that run power plants, water systems, and more.
    While this increased connectivity has led to significant 
transformations and advances across our country--and around the world--
it also has increased the importance and complexity of our shared risk. 
Our daily life, economic vitality, and national security depend on 
cyberspace. A vast array of interdependent IT networks, systems, 
services, and resources are critical to communication, travel, powering 
our homes, running our economy, and obtaining government services. No 
country, industry, community or individual is immune to cyber risks. 
The word ``cybersecurity'' itself encompasses protection against a 
broad range of malicious activity, from denial of service attacks, to 
theft of valuable trade secrets, to intrusions against government 
networks and systems that control our critical infrastructure.
    The United States confronts a dangerous combination of known and 
unknown vulnerabilities in cyberspace and strong and rapidly expanding 
adversary capabilities. Cyber crime has also increased significantly 
over the last decade. Sensitive information is routinely stolen from 
both government and private sector networks, undermining the integrity 
of the data contained within these systems. We currently see malicious 
cyber activity from foreign nations engaged in espionage and 
information warfare, terrorists, organized crime, and insiders. Their 
methods range from distributed denial of service (DDoS) attacks and 
social engineering to viruses and other malware introduced through 
thumb drives, supply chain exploitation, and leveraging trusted 
insiders' access.
    We have seen motivations for attacks vary from espionage by foreign 
intelligence services to criminals seeking financial gain and hackers 
who may seek bragging rights in the hacker community. Industrial 
control systems are also targeted by a variety of malicious actors who 
are usually intent on damaging equipment and facilities or stealing 
data. Foreign actors are also targeting intellectual property with the 
goal of stealing trade secrets or other sensitive corporate data from 
U.S. companies in order to gain an unfair competitive advantage in the 
global market.
    Cyber attacks and intrusions can have very real consequences in the 
physical world. Last year, DHS identified a campaign of cyber 
intrusions targeting natural gas and pipeline companies that was highly 
targeted, tightly focused and well crafted. Stolen information could 
provide an attacker with sensitive knowledge about industrial control 
systems, including information that could allow for unauthorized 
operation of the systems. As the President has said, we know that our 
adversaries are seeking to sabotage our power grid, our financial 
institutions, and our air traffic control systems. These intrusions and 
attacks are coming all the time and they are coming from different 
sources and take different forms, all the while increasing in 
seriousness and sophistication.
    The U.S. Government has worked closely with the private sector 
during the recent series of denial-of-service incidents. We have 
provided classified cyber threat briefings and technical assistance to 
help banks improve their defensive capabilities and we have increased 
sharing and coordination among the various government elements in this 
area. These developments reinforce the need for government, industry, 
and individuals to reduce the ability for malicious actors to establish 
and maintain capabilities to carry out such efforts.
    In addition to these sophisticated attacks and intrusions, we also 
face a range of traditional crimes that are now perpetrated through 
cyber networks. These include child pornography and exploitation, as 
well as banking and financial fraud, all of which pose severe economic 
and human consequences. For example, in March 2012, the U.S. Secret 
Service (USSS) worked with U.S. Immigration and Customs Enforcement 
(ICE) to arrest nearly 20 individuals in its ``Operation Open Market,'' 
which seeks to combat transnational organized crime, including the 
buying and selling of stolen personal and financial information through 
online forums. As Americans become more reliant on modern technology, 
we also become more vulnerable to cyber exploits such as corporate 
security breaches, social media fraud, and spear phishing, which 
targets employees through e-mails that appear to be from colleagues 
within their own organizations, allowing cyber criminals to steal 
information.
    Cybersecurity is a shared responsibility, and each of us has a role 
to play. Emerging cyber threats require the engagement of our entire 
society--from government and law enforcement to the private sector and, 
most importantly, members of the public. The key question, then, is how 
do we address this problem? This is not an easy question because 
cybersecurity requires a layered approach. The success of our efforts 
to reduce cybersecurity risks depends on effective identification of 
cyber threats and vulnerabilities, analysis, and enhanced information 
sharing between departments and agencies from all levels of government, 
the private sector, international entities, and the American public.
Roles, Responsibilities, Activities
    DHS is committed to ensuring cyberspace is supported by a secure 
and resilient infrastructure that enables open communication, 
innovation, and prosperity while protecting privacy, confidentiality, 
and civil rights and civil liberties by design.
Securing Federal Civilian Government Networks
    DHS has operational responsibilities for securing unclassified 
Federal civilian government networks and working with owners and 
operators of critical infrastructure to secure their networks through 
cyber threat analysis, risk assessment, mitigation, and incident 
response capabilities. We also are responsible for coordinating the 
national response to significant cyber incidents and for creating and 
maintaining a common operational picture for cyberspace across the 
government.
    DHS directly supports Federal civilian departments and agencies in 
developing capabilities that will improve their cybersecurity posture 
in accordance with the Federal Information Security Management Act 
(FISMA). To protect Federal civilian agency networks, our National 
Protection and Programs Directorate (NPPD) is deploying technology to 
detect and block intrusions through the National Cybersecurity 
Protection System and its EINSTEIN protective capabilities, while 
providing guidance on what agencies need to do to protect themselves 
and measuring implementation of those efforts.
    NPPD is also developing a Continuous Monitoring as a Service 
capability, which will result in an array of sensors that feed data 
about an agency's cybersecurity risk and present those risks in an 
automated and continuously-updated dashboard visible to technical 
workers and managers to enhance agencies' ability to see and counteract 
day-to-day cyber threats. This capability will support compliance with 
Administration policy, be consistent with guidelines set forth by the 
National Institute of Standards and Technology (NIST), and enable 
Federal agencies to move from compliance-driven risk management to 
data-driven risk management. These activities will provide 
organizations with information necessary to support risk response 
decisions, security status information, and ongoing insight into 
effectiveness of security controls.
Protecting Critical Infrastructure
    Critical infrastructure is the backbone of our country's national 
and economic security. It includes power plants, chemical facilities, 
communications networks, bridges, highways, and stadiums, as well as 
the Federal buildings where millions of Americans work and visit each 
day. DHS coordinates the national protection, prevention, mitigation, 
and recovery from cyber incidents and works regularly with business 
owners and operators to take steps to strengthen their facilities and 
communities. The Department also conducts onsite risk assessments of 
critical infrastructure and shares risk and threat information with 
state, local and private sector partners.
    Protecting critical infrastructure against growing and evolving 
cyber threats requires a layered approach. DHS actively collaborates 
with public and private sector partners every day to improve the 
security and resilience of critical infrastructure while responding to 
and mitigating the impacts of attempted disruptions to the Nation's 
critical cyber and communications networks and to reduce adverse 
impacts on critical network systems.
    DHS enhances situational awareness among stakeholders, including 
those at the state and local level, as well as industrial control 
system owners and operators, by providing critical cyber threat, 
vulnerability, and mitigation data, including through Information 
Sharing and Analysis Centers, which are cybersecurity resources for 
critical infrastructure sectors. DHS is also home to the National 
Cybersecurity & Communications Integration Center (NCCIC), a 24x7 cyber 
situational awareness, incident response, and management center that is 
a national nexus of cyber and communications integration for the 
Federal Government, intelligence community, and law enforcement.
Responding to Cyber Threats
    DHS is responsible for coordinating the Federal Government response 
to significant cyber or physical incidents affecting critical 
infrastructure. Since 2009, the NCCIC has responded to nearly half a 
million incident reports and released more than 26,000 actionable 
cybersecurity alerts to our public and private sector partners. The DHS 
Office of Intelligence and Analysis is a key partner in NCCIC 
activities, providing tailored all-source cyber threat intelligence and 
warning to NCCIC components and public and private critical 
infrastructure stakeholders to prioritize risk analysis and mitigation.
    An integral player within the NCCIC, the U.S. Computer Emergency 
Readiness Team (US-CERT) also provides response support and defense 
against cyber attacks for Federal civilian agency networks as well as 
private sector partners upon request. US-CERT collaborates and shares 
information with state and local government, industry, and 
international partners, consistent with rigorous privacy, 
confidentiality, and civil liberties guidelines, to address cyber 
threats and develop effective security responses. In 2012, US-CERT 
processed approximately 190,000 cyber incidents involving Federal 
agencies, critical infrastructure, and our industry partners. This 
represents a 68 percent increase from 2011. In addition, US-CERT issued 
over 7,455 actionable cyber-alerts in 2012 that were used by private 
sector and government agencies to protect their systems, and had over 
6,400 partners subscribe to the US-CERT portal to engage in information 
sharing and receive cyber threat warning information.
    The Department's Industrial Control Systems Cyber Emergency 
Response Team (ICS-CERT) also responded to 177 incidents last year 
while completing 89 site assistance visits and deploying 15 teams with 
US-CERT to respond to significant private sector cyber incidents. DHS 
also empowers owners and operators through a cyber self-evaluation 
tool, which was used by over 1,000 companies last year, as well as in-
person and on-line training sessions.
    Successful response to dynamic cyber threats requires leveraging 
homeland security, law enforcement, and military authorities and 
capabilities, which respectively promote domestic preparedness, 
criminal deterrence and investigation, and national defense. DHS, the 
Department of Justice (DOJ), and the Department of Defense (DOD) each 
play a key role in responding to cybersecurity incidents that pose a 
risk to the United States. In addition to the aforementioned 
responsibilities of our Department, DOJ is the lead Federal department 
responsible for the investigation, attribution, disruption, and 
prosecution of domestic cybersecurity incidents while DOD is 
responsible for securing national security and military systems as well 
as gathering foreign cyber threat information and defending the Nation 
from attacks in cyberspace. DHS supports our partners in many ways. For 
example, the United States Coast Guard as an Armed Force has partnered 
with U.S. Cyber Command and U.S. Strategic Command to conduct military 
cyberspace operations.
    While each agency operates within the parameters of its 
authorities, the U.S. Government's response to cyber incidents of 
consequence is coordinated among these three agencies such that ``a 
call to one is a call to all.'' Synchronization among DHS, DOJ, and DOD 
not only ensures that whole of government capabilities are brought to 
bear against cyber threats, but also improves government's ability to 
share timely and actionable cybersecurity information among a variety 
of partners, including the private sector.
Combating Cybercrime
    DHS employs more law enforcement agents than any other Department 
in the Federal Government and has personnel stationed in every state 
and in more than 75 countries around the world. To combat cyber crime, 
DHS relies upon the skills and resources of the USSS and ICE and works 
in cooperation with partner organizations to investigate cyber 
criminals. Since 2009, DHS has prevented $10 billion in potential 
losses through cyber crime investigations and arrested more than 5,000 
individuals for their participation in cyber crime activities.
    The Department leverages the 31 USSS Electronic Crimes Task Forces 
(ECTF), which combine the resources of academia, the private sector, 
and local, state and Federal law enforcement agencies to combat 
computer-based threats to our financial payment systems and critical 
infrastructure. A recently executed partnership between ICE Homeland 
Security Investigations and USSS demonstrates the Department's 
commitment to leveraging capability and finding efficiencies. Both 
organizations will expand participation in the existing ECTFs. In 
addition to strengthening each agency's cyber investigative 
capabilities, this partnership will produce benefits with respect to 
the procurement of computer forensic hardware, software licensing, and 
training that each agency requires. The Department is also a partner in 
the National Cyber Investigative Joint Task Force, which serves as a 
collaborative entity that fosters information sharing across the 
interagency.
    We work with a variety of international partners to combat 
cybercrime. For example, through the U.S.-EU Working Group on 
Cybersecurity and Cybercrime, which was established in 2010, we develop 
collaborative approaches to a wide range of cybersecurity and 
cybercrime issues. In 2011, DHS participated in the Cyber Atlantic 
tabletop exercise, a U.S.-EU effort to enhance international 
collaboration of incident management and response, and in 2012, DHS and 
the EU signed a joint statement that advances transatlantic efforts to 
enhance online safety for children. ICE also works with international 
partners to seize and destroy counterfeit goods and disrupt websites 
that sell these goods. Since 2010, ICE and its partners have seized 
over 2,000 domain names associated with businesses selling counterfeit 
goods over the Internet. To further these efforts, the Administration 
issued its Strategy on Mitigating the Theft of U.S. Trade Secrets last 
month. DHS will act vigorously to support the Strategy's efforts to 
combat the theft of U.S. trade secrets--especially in cases where trade 
secrets are targeted through illicit cyber activity by criminal 
hackers.
    In addition, the National Computer Forensic Institute has trained 
more than 1,000 state and local law enforcement officers since 2009 to 
conduct network intrusion and electronic crimes investigations and 
forensic functions. Several hundred prosecutors and judges as well as 
representatives from the private sector have also received training on 
the impact of network intrusion incident response, electronic crimes 
investigations, and computer forensics examinations.
Building Partnerships
    DHS serves as the focal point for the Government's cybersecurity 
outreach and awareness efforts. Raising the cyber education and 
awareness of the general public creates a more secure environment in 
which the private or financial information of individuals is better 
protected. For example, the Multi-State Information Sharing and 
Analysis Center (MS-ISAC) opened its Cyber Security Operations Center 
in November 2010, which has enhanced NCCIC situational awareness at the 
state and local government level and allows the Federal Government to 
quickly and efficiently provide critical cyber threat, risk, 
vulnerability, and mitigation data to state and local governments. MS-
ISAC has since grown to include all 50 states, three U.S. territories, 
the District of Columbia, and more than 200 local governments.
    The Department also has established close working relationships 
with industry through partnerships like the Protected Critical 
Infrastructure Information (PCII) Program, which enhances voluntary 
information sharing between infrastructure owners and operators and the 
government. The Cyber Information Sharing and Collaboration Program 
established a systematic approach to cyber threat information sharing 
and collaboration between critical infrastructure owners and operators 
across the various sectors. And, in 2010, we launched a national 
campaign called Stop.Think.Connect to spread public awareness about how 
to keep our cyber networks safe.
    In addition, DHS works closely with international partners to 
enhance information sharing, increase situational awareness, improve 
incident response capabilities, and coordinate strategic policy issues 
in support of the Administration's International Strategy for 
Cyberspace. For example, the Department has fostered international 
partnerships in support of capacity building for cybersecurity through 
agreements with Computer Emergency Response and Readiness Teams as well 
as the DHS Science & Technology Directorate (S&T). Since 2009, DHS has 
established partnerships with Australia, Canada, Egypt, India, Israel, 
the Netherlands, and Sweden.
Fostering Innovation
    The Federal Government relies on a variety of stakeholders to 
pursue effective research and development projects that address 
increasingly sophisticated cyber threats. This includes research and 
development activities by the academic and scientific communities to 
develop capabilities that protect citizens by enhancing the resilience, 
security, integrity, and accessibility of information systems used by 
the private sector and other critical infrastructure. DHS supports 
Centers of Academic Excellence around the country to cultivate a 
growing number of professionals with expertise in various disciplines, 
including cybersecurity.
    DHS S&T is leading efforts to develop and deploy more secure 
Internet protocols that protect consumers and industry Internet users. 
We continue to support leap-ahead research and development, targeting 
revolutionary techniques and capabilities that can be deployed over the 
next decade with the potential to redefine the state of cybersecurity 
in response to the Comprehensive National Cybersecurity Initiative. For 
example, DHS was a leader in the development of protocols at the 
Internet Engineering Task Force called Domain Name System Security (DNS 
SEC) Extensions. DNS SEC is necessary to protect Internet users from 
being covertly redirected to malicious websites and helps prevent 
theft, fraud, and abuse online by blocking bogus page elements and 
flagging pages whose Domain Name System (DNS) identity has been 
hijacked. S&T is also driving improvements through a Transition to 
Practice Program as well as liability and risk management protections 
provided by the Support Anti-terrorism by Fostering Effective 
Technology (SAFETY) Act that promote cyber security technologies and 
encourage their transition into successful use.
Growing and Strengthening our Cyber Workforce
    We know it only takes a single infected computer to potentially 
infect thousands and perhaps millions of others. But at the end of the 
day, cybersecurity is ultimately about people. The most impressive and 
sophisticated technology is worthless if it's not operated and 
maintained by informed and conscientious users.
    To help us achieve our mission, we have created a number of 
competitive scholarship, fellowship, and internship programs to attract 
top talent. We are growing our world-class cybersecurity workforce by 
creating and implementing standards of performance, building and 
leveraging a cybersecurity talent pipeline with secondary and post-
secondary institutions nationwide, and institutionalizing an effective, 
ongoing capability for strategic management of the Department's 
cybersecurity workforce. Congress can support this effort by pursuing 
legislation that provides DHS with the hiring and pay flexibilities we 
need to secure Federal civilian networks, protect critical 
infrastructure, respond to cyber threats, and combat cybercrime.
Recent Executive Actions
    As discussed above, America's national security and economic 
prosperity are increasingly dependent upon the cybersecurity of 
critical infrastructure. With today's physical and cyber infrastructure 
growing more inextricably linked, critical infrastructure and emergency 
response functions are inseparable from the information technology 
systems that support them. The government's role in this effort is to 
share information and encourage enhanced security and resilience, while 
identifying and addressing gaps not filled by the marketplace.
    Last month, President Obama issued Executive Order 13636 on 
Improving Critical Infrastructure Cybersecurity as well as Presidential 
Policy Directive 21 on Critical Infrastructure Security and Resilience, 
which will strengthen the security and resilience of critical 
infrastructure through an updated and overarching national framework 
that acknowledges the increased role of cybersecurity in securing 
physical assets.
DHS Responsibilities
    The President's actions mark an important milestone in the 
Department's ongoing efforts to coordinate the national response to 
significant cyber incidents while enhancing the efficiency and 
effectiveness of our work to strengthen the security and resilience of 
critical infrastructure. The Executive order supports more efficient 
sharing of cyber threat information with the private sector and directs 
NIST to develop a Cybersecurity Framework to identify and implement 
better security practices among critical infrastructure sectors. The 
Executive order directs DHS to establish a voluntary program to promote 
the adoption of the Cybersecurity Framework in conjunction with Sector-
Specific Agencies and to work with industry to assist companies in 
implementing the framework.
    The Executive order also expands the voluntary DHS Enhanced 
Cybersecurity Service program, which promotes cyber threat information 
sharing between government and the private sector. This engagement 
helps critical infrastructure entities protect themselves against cyber 
threats to the systems upon which so many Americans rely. This program 
is a good example of information sharing with confidentiality, privacy 
and civil liberties protections built into its structure. DHS will 
share with appropriately cleared private sector cybersecurity providers 
the same threat indicators that we rely on to protect the .gov domain. 
Those providers will then be free to contract with critical 
infrastructure entities and provide cybersecurity services comparable 
to those provided to the U.S. Government.
    Through the Executive order, the President also directed agencies 
to incorporate privacy, confidentiality, and civil liberties 
protections. It specifically instructs DHS to issue a public report on 
activities related to implementation, which would therefore enhance the 
existing privacy policy, compliance, and oversight programs of DHS and 
the other agencies.
    In addition, the Presidential Policy Directive directs the 
Executive Branch to strengthen our capability to understand and 
efficiently share information about how well critical infrastructure 
systems are functioning and the consequences of potential failures. It 
also calls for a comprehensive research and development plan for 
critical infrastructure to guide the government's effort to enhance 
market-based innovation.
    Because the vast majority of U.S. critical infrastructure is owned 
and operated by private companies, reducing the risk to these vital 
systems requires a strong partnership between government and industry. 
There is also a role for state, local, tribal and territorial 
governments who own a significant portion of the Nation's critical 
infrastructure. In developing these documents, the Administration 
sought input from stakeholders of all viewpoints in industry, 
government, and the advocacy community.
    Their input has been vital in crafting an order that incorporates 
the best ideas and lessons learned from public and private sector 
efforts while ensuring that our information sharing incorporates 
rigorous protections for individual privacy, confidentiality, and civil 
liberties. Indeed, as we perform all of our cyber-related work, we are 
mindful of the need to protect privacy, confidentiality, and civil 
liberties. The Department has implemented strong privacy and civil 
rights and civil liberties standards into all its cybersecurity 
programs and initiatives from the outset. To accomplish the integrated 
implementation of these two directives, DHS has established an 
Interagency Task Force made up of representatives from across all 
levels of government.
Continuing Need for Legislation
    It is important to note that the Executive order directs Federal 
agencies to work within current authorities and increase voluntary 
cooperation with the private sector to provide better protection for 
computer systems critical to our national and economic security. It 
does not grant new regulatory authority or establish additional 
incentives for participation in a voluntary program. We continue to 
believe that a suite of legislation is necessary to implement the full 
range of steps needed to build a strong public-private partnership, and 
we will continue to work with Congress to achieve this.
    The Administration's legislative priorities for the 113th Congress 
build upon the President's 2011 Cybersecurity Legislative Proposal and 
take into account two years of public and congressional discourse about 
how best to improve the Nation's cybersecurity. Congress should enact 
legislation to incorporate privacy, confidentiality, and civil 
liberties safeguards into all aspects of cybersecurity; strengthen our 
critical infrastructure's cybersecurity by further increasing 
information sharing and promoting the establishment and adoption of 
standards for critical infrastructure; give law enforcement additional 
tools to fight crime in the digital age; and create a National Data 
Breach Reporting requirement.
Conclusion
    The American people expect us to secure the country from the 
growing danger of cyber threats and ensure the Nation's critical 
infrastructure is protected. The threats to our cybersecurity are real, 
they are serious, and they are urgent.
    I look forward to working with this Committee and the Congress to 
ensure we continue to take every step necessary to protect cyberspace, 
in partnership with government at all levels, the private sector, and 
the American people, and continue to build greater resiliency into 
critical cyber networks and systems.
    I appreciate this Committee's guidance and support as together we 
work to keep our Nation safe. Thank you, again, for the attention you 
are giving to this urgent matter.

    Chairman Rockefeller. Thank you, Secretary.
    Now The Honorable Patrick Gallagher, who's Under Secretary 
of Commerce for Standards and Technology, and Director of the 
National Institute of Standards and Technology, which is in the 
U.S. Department of Commerce, and which is just chock full of 
Nobel laureates. It's one of the ultimate gems in Washington, 
D.C., and is not used as it should be.
    Please proceed, sir.

         STATEMENT OF HON. PATRICK D. GALLAGHER, Ph.D.,

UNDER SECRETARY OF COMMERCE FOR STANDARDS AND TECHNOLOGY, U.S. 
                     DEPARTMENT OF COMMERCE

    Dr. Gallagher. Thank you very much. And it's a real 
pleasure to be here.
    Let me begin by thanking both Chairmen Rockefeller and 
Carper, and both Ranking Members Thune and Coburn, and members 
of both committees, for the opportunity to testify today. It's 
a particular pleasure to be joining one of my critical partners 
in this effort, Secretary Napolitano.
    Let me very briefly summarize NIST's role in our 
responsibilities to develop a framework for reducing cyber risk 
and critical infrastructure under the Executive order.
    It may be a surprise to some that an agency of the U.S. 
Department of Commerce has been given this key role in 
cybersecurity but, in fact, NIST has a long history in this 
area. We have provided technical support to cybersecurity for 
over 50 years, working closely with our Federal partners. And 
also because NIST is a technical, but nonregulatory agency, we 
provide a unique interface with industry to support their 
efforts in technical and standards development. Today, NIST has 
programs in a wide variety of cybersecurity areas, including 
cryptography, network security, security automation, hardware 
roots of trust, and identity management.
    As directed in the Executive order, NIST will work with 
industry to develop a cybersecurity framework that supports 
performance goals established by the Department of Homeland 
Security. DHS, then, in coordination with sector specific 
agencies, will support the adoption of the cybersecurity 
framework by owners and operators of critical infrastructure 
and other interested entities through a voluntary program.
    To be successful, two major elements have to be part of 
this approach:
    First, it will require an effective partnership with DHS. 
Last month, I signed a Memorandum of Agreement with DHS Under 
Secretary Rand Beers to ensure that our work was fully 
coordinated with DHS.
    Second, the cybersecurity framework must be developed 
through a process that is industry-led and open and transparent 
to all stakeholders. By having industry develop their own 
practices that are responsive to the performance goals, the 
process will ensure that it is both robust, technically, but 
also aligned with their business needs.
    This approach has many advantages. It does not dictate 
specific solutions to industry, but promotes industry offering 
their own solutions. It allows solutions to be developed that 
are compatible with business and market conditions. And, by 
leveraging industry's own considerable capacity, it brings more 
talent and expertise to the table to tackle this topic.
    This is not a new or novel approach for NIST. We have 
utilized very similar approaches in the recent past to address 
other pressing national priorities, notable examples being 
smart grid and cloud computing. We know how to do this.
    Since this is industry's framework, the NIST role is to act 
as a convener and technical contributor. By working closely 
with our Federal partners, we also ensure that industry's work 
is relevant to their missions to protect the public.
    So, what is in this framework? The short answer is, 
whatever is needed to achieve the needed cybersecurity 
performance, but, in practice, we expect the framework will 
include standards, methodologies, procedures, and processes 
that align the business, policy, and technological approaches 
to address the cyber risk for critical infrastructure.
    Let me touch, briefly, on the topic of standards and their 
importance to success in this effort.
    First, by ``standards,'' I'm using the term as industry 
does. These are agreed-upon specifications, or norms, that 
allow compatibility of efforts to achieve a goal. These are not 
the same thing as regulation. Industry standards are developed 
through a multi-stakeholder voluntary consensus process, and it 
is this process that gives these standards their power and 
their broad acceptance around the world. These standards are 
not static. They can be changed to meet technological advances 
and meet new performance requirements. And, in fact, 
performance-based standards promote innovation specifically 
because they allow new products--services to be developed in a 
way that's not a tradeoff.
    Mr. Chairman, I appreciate the challenge before us. This EO 
requires the framework to be developed within a year. A 
preliminary framework, in fact, is due within 8 months. We have 
already issued a request for information to gather relevant 
input from industry and other stakeholders. We are actively 
inviting those stakeholders to participate in the framework 
process. The early response has been very positive.
    Over the next few months, we will convene a series of 
workshops, where we will develop the framework, because this 
forum allows the necessary collaboration and engagement with 
industry. Our first organizational workshop will be held on 
April 3. In May, we will release our initial findings from the 
request for information, and our analysis of this response. 
And, by the 8-month point, we will have an initial draft 
framework, including an initial list of standards, guidance, 
and practices.
    The President's Executive order lays out an urgent and 
ambitious agenda, but it is designed around an active 
collaboration between the public and private sectors. And I 
believe that this partnership provides the needed capacity to 
meet this agenda and it will effectively give us the tools to 
manage the cybersecurity risk we face.
    And I appreciate the Committees holding this joint hearing. 
It's reflective of the partnership we'll need to be successful 
in this effort. And I look forward to answering any questions 
you may have.
    [The prepared statement of Dr. Gallagher follows:]

Prepared Statement of Hon. Patrick D. Gallagher, Ph.D., Under Secretary 
 of Commerce for Standards and Technology, U.S. Department of Commerce
Introduction
    Chairmen Rockefeller and Carper, Ranking Members Thune and Coburn, 
members of the Committees, I am Patrick Gallagher, Under Secretary of 
Commerce for Standards and Technology and Director of the National 
Institute of Standards and Technology (NIST), a non-regulatory bureau 
within the U.S. Department of Commerce. Thank you for this opportunity 
to testify today on NIST's role under Executive Order 13636, 
``Improving Critical Infrastructure Cybersecurity'' and our 
responsibility to develop a framework for reducing cyber risks to 
critical infrastructure.
The Role of NIST in Cybersecurity
    Let me begin with a few words on NIST itself: NIST's mission is to 
promote U.S. innovation and industrial competitiveness by advancing 
measurement science, standards, and technology in ways that enhance 
economic security and improve our quality of life. Our work in 
addressing technical challenges related to national priorities has 
ranged from projects related to the Smart Grid and electronic health 
records to atomic clocks, advanced nanomaterials, and computer chips.
    In the area of cybersecurity, we have worked with Federal agencies, 
industry, and academia since 1972 on the development of the Data 
Encryption Standard. Our role to research, develop and deploy 
information security standards and technology to protect information 
systems against threats to the confidentiality, integrity and 
availability of information and services, was strengthened through the 
Computer Security Act of 1987 and reaffirmed through the Federal 
Information Security Management Act of 2002. Consistent with this 
mission, NIST is actively engaged with industry, academia, and other 
parts of the Federal Government including the intelligence community, 
and elements of the law enforcement and national security communities, 
coordinating and prioritizing cybersecurity research, standards 
development, standards conformance demonstration and cybersecurity 
education and outreach.
    Our broader work in the areas of information security, trusted 
networks, and software quality is applicable to a wide variety of 
users, from small and medium enterprises to large private and public 
organizations including agencies of the Federal Government and 
companies involved with critical infrastructure.
Executive Order 13636, ``Improving Critical Infrastructure 
        Cybersecurity''
    On February 13, 2013, the President signed Executive Order 13636, 
``Improving Critical Infrastructure Cybersecurity,'' which gave NIST 
the responsibility to develop a framework to reduce cyber risks to 
critical infrastructure (the Cybersecurity Framework). As directed in 
the Executive order, NIST, working with industry, will develop the 
Cybersecurity Framework and the Department of Homeland Security (DHS) 
will establish performance goals. DHS, in coordination with sector-
specific agencies, will then support the adoption of the Cybersecurity 
Framework by owners and operators of critical infrastructure and other 
interested entities, through a voluntary program.
    Our partnership with DHS will drive much of our effort. Last month 
I signed a Memorandum of Agreement with DHS Under Secretary Rand Beers 
to ensure that our work with industry for the Cybersecurity Framework, 
and also with cybersecurity standards, best practices, and metrics, is 
fully integrated with the information sharing, threat analysis, 
response, and operational work of DHS. This will enable a more holistic 
approach to addressing the complex nature of the challenge at hand.
    A Cybersecurity Framework is an important element in addressing the 
challenges of improving the cybersecurity of our critical 
infrastructure. A NIST-coordinated and industry-led Framework will draw 
on standards and best practices that industry is already involved in 
developing and adopting. NIST coordination will ensure that the process 
is open and transparent to all stakeholders, and will ensure a robust 
technical underpinning to the framework. This approach will 
significantly bolster the relevance of the resulting Framework to 
industry, making it more appealing for industry to adopt.
Why This Approach?
    This multi-stakeholder approach leverages the respective strengths 
of the public and private sectors, and helps develop solutions in which 
both sides will be invested. The approach does not dictate solutions to 
industry, but rather facilitates industry coming together to offer and 
develop solutions that the private sector is best positioned to 
embrace.
    I would also like to note that this is not a new or novel approach 
for NIST. We have utilized very similar approaches in the recent past 
to address other pressing national priorities. The lessons learned from 
those experiences are informing how we are planning for and structuring 
our current effort. In 2009, the Energy Independence and Security Act 
(EISA) mandated NIST to develop a standards framework to help with the 
deployment of a nationwide, end-to-end interoperable Smart Grid. 
Following a similar approach to the one envisioned for the 
Cybersecurity Framework, NIST coordinated a forward leaning approach 
involving more than 1500 representatives from approximately 21 distinct 
domains that now constitute the Smart Grid.
    This effort led to the development of a framework called the Smart 
Grid Roadmap that defined the domains of the Smart Grid and the 
interfaces for those domains, identified existing standards for these 
domains, prioritized standards needs and identified standards gaps. 
Many of these standards gaps are currently being addressed in various 
standards development organizations around the world. We are seeing the 
results of this effort pay off in many ways. Cybersecurity standards 
are being developed and adopted to secure different elements of the 
electrical grid. Standards based deployments of secure Smart Meters are 
enabling consumers safe and secure access to data about electricity 
usage. The U.S. Smart Grid Roadmap is being used as a template for 
frameworks in many countries around the world. Automakers are reaching 
agreement regarding chargers for electric vehicles. All these 
developments have helped address important policy objectives while also 
positioning the U.S. as a leader in Smart Grid development and 
deployment.
    Another example of how NIST has brought together the public and 
private sector to address technical challenges is NIST's work in the 
area of Cloud Computing technologies. The unique partnership formed by 
NIST has enabled us to develop important definitions and architectures, 
and is now enabling broad Federal Government deployment of secure Cloud 
Computing technologies.
What is the Cybersecurity Framework?
    The Cybersecurity Framework will consist of standards, 
methodologies, procedures and processes that align policy, business, 
and technological approaches to address cyber risks for critical 
infrastructure. Once the Framework is established, the Department of 
Homeland Security (DHS), in coordination with sector-specific agencies, 
will then support the adoption of the Cybersecurity Framework by owners 
and operators of critical infrastructure and other interested entities 
through a voluntary program. Regulatory agencies will also review the 
Cybersecurity Framework to determine if current cybersecurity 
requirements are sufficient, and propose new actions if it is 
determined they are insufficient.
    This approach reflects both the need for enhancing the security of 
our critical infrastructure and the reality that the bulk of critical 
infrastructure is owned and operated by the private sector. Any efforts 
to better protect critical infrastructure need to be supported and 
implemented by the owners and operators of this infrastructure. It also 
reflects the reality that many in the private sector are already doing 
the right things to protect their systems and should not be diverted 
from those efforts through new requirements.
The Important Role of Standards in the Cybersecurity Framework
    I'd like to explain why this approach relies on standards, 
methodologies, procedures and processes, and why we believe it to be a 
critical part of our work under the Executive order. First of all, by 
standards, I am referring to agreed-upon best practices against which 
we can benchmark performance. Thus, these are NOT regulations. 
Typically these standards are the result of industry coming together to 
develop solutions for market needs and are developed in open 
discussions and agreed upon by consensus of the participants. This 
process also gives standards the power of broad acceptance around the 
world. Standards have a unique and key attribute of scalability. By 
this I mean, that when we can use solutions that are already adopted by 
industry, or can readily be adopted and used by industry, then those 
same solutions reduce transactions costs for our businesses and provide 
economies of scale when deployed in other markets, which makes our 
industries more competitive.
    A partnership with industry to develop, maintain, and implement 
voluntary consensus standards related to cybersecurity best ensures the 
interoperability, security and resiliency of this global infrastructure 
and makes us all more secure. It also allows this infrastructure to 
evolve in a way that embraces both security and innovation--allowing a 
market to flourish to create new types of secure products for the 
benefit of all Americans.
Developing the Cybersecurity Framework
    NIST's initial steps towards implementing the Executive order 
include issuing a Request for Information (RFI) to gather relevant 
input from industry and other stakeholders, and asking stakeholders to 
participate in the Cybersecurity Framework process. This RFI was 
published last week and we are already getting informal feedback from 
industry and other stakeholders on the RFI. Given the diversity of 
sectors in critical infrastructure, these initial efforts will help 
identify existing cross-sector security standards and guidelines that 
are immediately applicable or likely to be applicable to critical 
infrastructure. Industry has begun responding to the RFI and is coming 
to the table to work with us on this analysis.
    Underlying all of this work, NIST sees its role in developing the 
Cybersecurity Framework as partnering with industry and other 
stakeholders to help them develop the Framework. In addition to this 
critical convening role, our work will be to compile and provide 
guidance on principles that are applicable across the sectors for the 
full-range of quickly evolving threats, based on inputs from DHS and 
other agencies. NIST's unique technical expertise in various aspects of 
cybersecurity related research, technology development and an 
established track record of working with a broad cross-section of 
industry and government agencies in the development of standards and 
best practices positions us very well to address this significant 
national challenge in a timely and effective manner.
    The approach of the Executive order will allow industry to protect 
our Nation from the growing cybersecurity threat while enhancing 
America's ability to innovate and compete in a global market. It also 
helps grow the market for secure, interoperable, innovative products to 
be used by consumers anywhere.
Next Steps
    The Executive order requirement for the Framework to be developed 
within one year, and a preliminary framework due within eight months 
gives this task a sense of urgency. We have already initiated an 
aggressive outreach program to raise awareness of this issue and begin 
engaging industry and stakeholders. Over the next few months, NIST will 
bring many diverse stakeholders to the table through a series of 
``deep-dive'' engagements. Throughout the year, you can expect NIST to 
use its capabilities to gather the input needed to develop the 
Framework.
    In addition to the Request for Information (RFI), we are planning a 
series of workshops and events to ensure that we can cover the breadth 
of considerations that will be needed to make this national priority a 
success. Our first workshop will be held in early April to initiate the 
process of identifying existing resources and gaps, and to prioritize 
the issues to be addressed as part of the framework. In May, we are 
planning to release initial findings from early analyses of the 
responses to the RFI. This will mark a transition into the dialogue 
regarding the foundations of the framework.
    In June, the Departments of Commerce, Homeland Security, and 
Treasury will submit reports regarding incentives designed to increase 
participation with the voluntary program. NIST will be supporting the 
report drafted by the Department of Commerce, which will analyze the 
benefits and relative effectiveness of such incentives.
    Around the five-month mark, in July, NIST will host a workshop to 
present initial considerations for the Framework, based on the analysis 
conducted with the responses to the RFI. This workshop will be the most 
in-depth of the three, with an emphasis on particular issues that have 
been identified from the initial work--including the specific needs of 
different sectors. At eight months, we will have an initial draft 
Framework that clearly outlines areas of focus and initial lists of 
standards, guidelines and best practices that fall into those areas
    In a year's time, once we have developed an initial Framework, 
there will still be much to do. For example, our partners at the 
Department of Homeland Security will be working with specific sectors 
to build strong voluntary programs for specific critical infrastructure 
areas. Their work will then inform the needs of critical infrastructure 
and the next versions of the Framework. The goal at the end of this 
process will be for industry to take and update the Cybersecurity 
Framework themselves--allowing it to evolve when needed.
Conclusion
    The cybersecurity challenge facing critical infrastructure is 
greater than it ever has been. The President's Executive order reflects 
this reality, and lays out an ambitious agenda founded on active 
collaboration between the public and private sectors. NIST is mindful 
of the weighty responsibilities with which we have been charged by 
President Obama, and we are committed to listening to, and working 
actively with, critical infrastructure owners and operators to develop 
a Cybersecurity Framework.
    Thank you, for the opportunity to present NIST's views regarding 
critical infrastructure cybersecurity security challenges. I appreciate 
the Committees holding this joint hearing- it is reflective of the 
working partnership we have with Department of Homeland Security and 
other agencies to tackle cybersecurity issues. We have a lot of work 
ahead of us--and I look forward to working with both Committees to help 
us address these pressing challenges. I will be pleased to answer any 
questions you may have.
                          Patrick D. Gallagher
    Dr. Patrick Gallagher was confirmed as the 14th Director of the 
U.S. Department of Commerce's National Institute of Standards and 
Technology (NIST) on Nov. 5, 2009. He also serves as Under Secretary of 
Commerce for Standards and Technology, a new position created in the 
America COMPETES Reauthorization Act of 2010, signed by President Obama 
on Jan. 4, 2011.
    Gallagher provides high-level oversight and direction for NIST. The 
agency promotes U.S. innovation and industrial competitiveness by 
advancing measurement science, standards, and technology. NIST's FY 
2012 resources total $750.8 million from the Consolidated and Further 
Continuing Appropriations Act of 2012 (P.L. 112-55), with an estimated 
additional annual income of $62.7 million in service fees, and $128.9 
million from other agencies. The agency employs about 2,900 scientists, 
engineers, technicians, support staff, and administrative personnel at 
two main locations in Gaithersburg, Md., and Boulder, Colo.
    Gallagher had served as Deputy Director since 2008. Prior to that, 
he served for four years as Director of the NIST Center for Neutron 
Research (NCNR), a national user facility for neutron scattering on the 
NIST Gaithersburg campus. The NCNR provides a broad range of neutron 
diffraction and spectroscopy capability with thermal and cold neutron 
beams and is presently the Nation's most used facility of this type. 
Gallagher received his Ph.D. in Physics at the University of Pittsburgh 
in 1991. His research interests include neutron and X-ray 
instrumentation and studies of soft condensed matter systems such as 
liquids, polymers, and gels. In 2000, Gallagher was a NIST agency 
representative at the National Science and Technology Council (NSTC). 
He has been active in the area of U.S. policy for scientific user 
facilities and was chair of the Interagency Working Group on neutron 
and light source facilities under the Office of Science and Technology 
Policy. Currently, he serves as co-Chair of the Standards Subcommittee 
under the White House National Science and Technology Council.

    Chairman Rockefeller. Thank you, sir.
    I'm going to ask a question, and the four who spoke will 
too, but we'll be very brief, because there are a lot of people 
here. We're going to go according to the early bird rule. To 
start, I'm just going to ask one quick question to both of you.
    There are some people who say, ``Look, the House basically 
has information sharing in its bill.'' It doesn't have much 
about workforce, it doesn't have much about standards, it 
doesn't have much about a lot of things, which I think are 
critical to a good bill, but it's in their bill, so, in theory, 
in that most people would agree with that, if you wanted to get 
a piece of legislation, you could just hold yourself back to 
information sharing. I think that's wholly insufficient. I 
don't think that's a wise, useful, constructive approach to the 
kind of bill that we can't really come back to each and every 
year. We've got to do our full work this year.
    So, I'm asking, starting with you, Secretary Napolitano, do 
you think that information sharing alone is sufficient?
    Secretary Napolitano. No. I think you've got it right, Mr. 
Chairman.
    In terms of the House bill, even in the information-sharing 
area, I think there were some deficiencies in it. It had no 
privacy protections built around it, which is very important in 
the--particularly in the civilian realm. And it resided almost 
all of the cybersecurity information monitoring 
responsibilities within the NSA, which, of course, is part of 
the military. We're talking about a totally different 
environment here, the domestic environment, the partnership 
with core critical infrastructure.
    But, beyond that, what we are looking for is legislation 
that can, if necessary, put in statute the clarity of the roles 
and responsibilities now contained in the EO, so that that is 
preserved, moving forward; a bill that looks at the basic 
standard-setting that we need for core critical infrastructure 
of the country; a bill that addresses FISMA as we move, and try 
to move, from a paperwork-dominated statute to one that 
requires and embodies continuous diagnostics, in realtime; and 
increased research and development, among other things.
    So, as we kind of lay out the topics involved under the 
umbrella of cybersecurity, information sharing is very, very 
important. Realtime information sharing is critical, but it is 
not the only concern we have in this arena.
    Chairman Rockefeller. Thank you.
    Secretary Gallagher.
    Dr. Gallagher. So, I think--it's hard to add to that 
answer, but I think cybersecurity doesn't lend itself to simple 
solutions. And I think, in the particular example you gave, 
even with information sharing, where you're going to provide 
threat information to the private sector, they have to have the 
capacity to act on that information. And, to do that, it 
involves some of the standards and technology issues that we're 
talking about in the framework.
    So, I think these things tend to be interdependent and go 
hand-in-hand.
    Chairman Rockefeller. Senator Carper.
    Chairman Carper. Thanks, Mr. Chairman.
    I'd like to go back a bit in time with each of you, and go 
back to when the Senate--particularly Senators Lieberman, 
Collins, Rockefeller, myself, Feinstein--offered the earlier 
version of our legislation, our comprehensive legislation. And, 
in it, critics said, ``Well, you've got the standards--with 
respect to standards,'' that's best practices, if you will, for 
critical infrastructure--``basically, you've got it mandated, 
and somebody telling us what to do. That somebody might be 
DHS.'' They didn't appreciate that very much. And the idea was 
rejected. So, we changed it.
    As you know, we changed it so that--we came back and said, 
``Well, why don't we say that, for critical infrastructure, the 
best practices would be, not mandated, but we'd ask the 
industries--the owners, the operators of the critical 
infrastructure--to tell us what--or to tell the Department of 
Homeland Security what the standards ought to be. There would 
be a dialogue between--that includes DHS, NSA, FBI, others--and 
they would somehow--in this discussion, this roundtable, they'd 
figure out what the best practices should be.'' Again, there 
was a push-back from the--part of the business community said, 
``No, no, that's going to end up with--we'll end up with 
mandated best practices, mandated standards in that.''
    And so, we come up with this Executive order. And the 
Executive order says, as I understand it, ``Your dance partner, 
owners of critical infrastructure, is not going to be FBI, it's 
not going to be Homeland Security, it's going to be Assistant 
Secretary Gallagher and our friends at NIST. And they work with 
industry all the time on stuff that's related to this, like''--
that's one of the things that you talked about.
    It's--what you've laid out, here, this framework, suggests 
to me that each time--it's the third major proposal, here--each 
time, it's been changed; and each time, it's been changed to 
reflect, maybe the legitimate concerns, or maybe not so 
legitimate concerns, that were raised within parts of the 
business community.
    But, I think we've moved a long ways, y'all have moved a 
long ways, and, I think, in smart ways.
    As my wingman here, Dr. Coburn, has suggested, there are 
still some concerns about liability protection. My 
understanding is, on the information-sharing sides, there's not 
so much--it's not so much an issue anymore. I think there may 
be bipartisan agreement with respect to punitive damages, and 
maybe general damages. I think there are some questions about 
liability protection on the critical infrastructure side. 
Should it be punitive? Should it be more than punitive?
    But, there has been a whole lot of movement, as I see it, 
from the administration and, I think, from a bipartisan group 
of us in the Senate, to meet the legitimate concerns that have 
been raised.
    Here's my question. Two-part. One, as you've gone out and 
done good work in seeking input, Dr. Gallagher, from the 
business community, what are you hearing? Is there any 
acknowledgment that changes have been made? In a sense, the 
administration is kind of negotiating against itself, but I 
think we're negotiating after hearing what's being offered by 
those who have been critical of our earlier approaches.
    Number one, what are you hearing in response to the 
changes, this latest iteration? Positive, or not?
    And, second--this is, maybe, more for our Secretary--on the 
liability side--general and punitive on the information 
sharing. That's pretty--most people say that's pretty good, in 
terms of give to the business community. And the question is, 
what do we have to do in liability, on the critical 
infrastructure side, to get their buy-in.
    Two questions.
    Chairman Rockefeller. And before those are answered, the 
vote is premature, but it has started--the cloture motion on 
John Brennan--so, we're going to work a tag-team thing here. 
Whether we're Republicans or Democrats, it makes no difference. 
I'm going to go over. John, you can run faster than I can.
    Chairman Carper. Mr. Chairman?
    Chairman Rockefeller. Yes.
    Chairman Carper. Someone just handed me a note. It says 
it's going to be--the first vote is on the Brennan nomination, 
the 3:15. If it's agreed to--and I'm encouraged that it's going 
to be agreed to----
    Chairman Rockefeller. Well, we're 10 minutes into it. It's 
already started.
    Chairman Carper. Oh, OK. OK. Fair enough.
    Chairman Rockefeller. Because we're going to have two 
votes.
    Chairman Carper. Good. We're going to have two votes. Fair 
enough.
    Chairman Rockefeller. OK.
    Chairman Carper. All right.
    Chairman Rockefeller. Go ahead and answer.
    Chairman Carper [presiding]. Yes. Two questions, please. 
Thank you.
    Dr. Gallagher. So, very quickly, let me give you the 
reaction that I've been hearing from business. I think, 
generally, it's been very positive. And I think the origin of 
that reaction has to do with the tension that you've observed 
as these negotiations on how standards and requirements play 
off each other.
    I think one of the reasons the reaction is positive is that 
I--and Senator Rockefeller mentioned this in his opening 
remark--the tricky issue here is that there is a public 
accountability for performance in the forum of critical 
infrastructure. If it fails, it causes impact to the nation. 
But, these type of standards and requirements also have 
business impact; they touch how businesses perform, they touch 
their business practices, and they affect the markets. And I 
think, generally, there's a reticence to having the government 
somehow have an undue impact on their business condition.
    So, this arrangement allows, really, kind of the ideal 
choreography, because the Department of Homeland Security lays 
out the performance expectation--what do we have to achieve, 
from a cybersecurity-performance view?--and then charges 
industry with coming up with the business and cybersecurity 
practices that meet that goal. And then we try to align our 
practices.
    So, in this complicated mix, where you want this to take 
place, I think this is the best of all possible worlds.
    NIST is kind of an ideal convener, because we're technical 
and we're not in charge of anything. So, we can be sort of 
neutral and be a partner with industry as they develop that.
    Chairman Carper. Good.
    Secretary Napolitano, the second half of the question, 
please.
    Secretary Napolitano. With respect to liability protection, 
I think the administration is already on record as having 
supported the targeted liability protections that were in the 
bill last year, the bipartisan bill last year. But, the EO also 
requires us to look at other ways to incentivize businesses to 
raise their practice to meet the standards that are ultimately 
seen as optimal. And so, for example, a--exploring, as we are, 
whether there could be a procurement preference, for example, 
given; whether there could be some kind of a seal of approval 
that is given. Now, those are just two ideas that can also 
provide incentives, because--recognize that the market, in and 
of itself, has not provided sufficient incentive, yet, for all 
business to voluntarily raise their standards.
    Chairman Carper. All right. This vote's started--thank you 
for--both of you--for those responses--the vote started about 8 
minutes--9 minutes ago, and----
    Thuney, you want to take a shot?
    Senator Thune. All right, thank you, Mr. Chairman, I will, 
and we'll race over there together.
    Let me just, if I might, Secretary Napolitano, direct this 
question to you. The Executive order directs the Secretary of 
Homeland Security--you--to provide performance goals for the 
cybersecurity framework. We've been told the performance goals 
are intended to establish the level of security that the 
framework should meet. Doesn't the ability to set the 
performance goals put DHS in the driver's seat for this 
process, no matter how collaborative the initial NIST process 
may be?
    Secretary Napolitano. Well, we already do this, in the 
physical security side, with critical infrastructure. We work 
with critical infrastructure in 18 separate sectors to work on 
commonly understood performance goals and standards. So, in a 
way, Senator, this is simply extending that into the cyber 
realm.
    But, we intend, and are pursuing, a realm that is very 
collaborative in nature. Our goal is to set performance goals. 
And NIST, then, establishes the framework and the standards of 
how those goals are reached.
    So, by way of example, a goal might be for a major--let's 
say, a utility--if its major server, or servers, is attacked 
and is nonfunctional--to have the capability to restore service 
within a certain period of time. What the definition of that 
certain period of time is, is something that we would be 
working with, with industry, what makes sense, how would they 
do it, what are their options, and so forth. But, that would 
then feed into the framework that NIST will be establishing.
    Senator Thune. And just to elaborate on that a little bit, 
how do you intend to ensure that the performance goals are 
reasonably attainable by your private sector partners?
    Secretary Napolitano. Well, again, the EO requires us to 
engage in a collaborative process, and to make sure that all 
voices are listened to. And we do this in other areas already. 
So, I would say, again, we will simply take some of the lessons 
learned from some other things that we have done in the 
physical infrastructure realm, and continue them into 
cybersecurity.
    Senator Thune. All right.
    Dr. Gallagher, how will NIST ensure that the framework that 
you're directed to develop with industry and other agencies 
does not undermine, conflict with, or duplicate existing 
mandatory--or voluntary, for that matter--government- or 
industry-led standards for each infrastructure sector?
    Dr. Gallagher. So, the way we'd like to approach that is by 
having the industry and the critical infrastructure community 
put the framework together themselves. I think we've--we've 
done this approach in smart grid, where--and in cloud 
computing--where those same stakeholders, who are operating 
under either mandatory or industry-led standards, are quite 
willing to put those on the table; and that's actually the 
starting point for this framework process. This is not NIST 
developing new or additional material; this is much closer--
much better thought of as a harmonization of what industry is 
presently doing, itself. So, that's the way of taking care of 
that conflict.
    Senator Thune. You mention, in your testimony, that--and 
I'm going to quote, here--``Many in the private sector are 
already doing the right things to protect their systems, and 
should not be diverted from those efforts through new 
requirements.''
    How are you going to work with DHS to ensure the Federal 
Government is not diverting companies with new requirements?
    Dr. Gallagher. So, I think the way that this works is--and, 
in fact, the request for information we just put out asks 
companies and stakeholders to share with us their current 
practices and standards that they use. And I think the way this 
framework is going to look, at the beginning, is, you're going 
to see areas of overlap or where there's, you know, maybe, 
existing and--from--existing practices from different sectors 
that tackled the same problem in different ways. And there's 
going to be areas where there are gaps.
    And so, the roadmap is going to have a very interesting 
sort of--the framework is going to have a roadmap character to 
it, where, you know, we can use that to address those areas of 
overlap and see whether that's a problem, or not. And I think 
the way--industry needs to lead those discussions, not us. And, 
conversely, when we see areas where there are gaps, then 
there's going to be the ability to organize and set priorities 
to address those gaps.
    So, I think the process is specifically designed to make 
sure we don't reinvent the wheel.
    Senator Thune. And one quick question before we go vote--
what's the threshold for sufficient industry feedback and 
participation in the framework development process? How are you 
going to ensure that you receive enough industry input?
    Dr. Gallagher. That's an interesting question. I don't--we 
haven't had the problem of insufficient industry involvement in 
the past, so we're anticipating the opposite problem, which is 
an enormous insurge of participation. And I think what happens 
at the working level, through most of these efforts, is, you 
pick up on industry's own consensus-standards processes. And 
so, the same sort of criteria for whether the right 
stakeholders are involved and participating applies there.
    And I think the final analysis is going to determine--is 
going to look at the quality of their work product. If the 
right folks were around the table, and the best ideas were 
brought out, and then we're going to have the most viable 
product, I guess the final test of all would be the market, you 
know, pickup. I mean, the real test of the framework is whether 
it's put into practice. And if insufficient involvement was 
there, that's not that buy-in, then we're not going to see that 
adoption.
    Senator Thune. Mr. Chairman, I think we have to go vote.
    Chairman Carper. Yes, we do.
    Senator Thune. Recess?
    Chairman Carper. We're going to do a short recess, probably 
10 minutes. We'll be back in about 10 minutes. Thank you for 
your patience and letting us go do our nation's work. Thanks so 
much.
    We're in recess for 10 minutes.
    [Recess.]

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner [presiding]. Well, this may be the first and 
only time I get to chair this combined hearing, for the next 20 
or 30 years, so I rushed back. We do have a second vote, but it 
appears that the first vote may take some extended time. There 
are some folks at the White House. So, hopefully Senator Coburn 
will be back shortly, as well, and we'll be able to continue to 
move on.
    I wanted to look--and I know one of the biggest challenges 
we've got on this whole question is, you know, how we set 
appropriate standards, how those standards are nimble enough as 
a--in a field that is constantly evolving. As somebody who made 
a living in the technology field, I'm somewhat familiar with 
that. And I think Senator Coburn raised, appropriately, the 
right question, how we can then use the information sharing so 
that firms are able to share in a way that has both--
appropriate protections in place.
    And one thing that I would just add--since I may have a 
little bit more time, as folks come back--is that I sense that 
there is a changing feeling in the business community, because, 
one, the increased amount of cyber activities, cyber attacks; 
two, the publicly released Mandiant report, which cited and 
specified the activities, particularly coming from China, and 
how pervasive they are, and how much intellectual property is 
stolen. So, while I, clearly, want to make sure that businesses 
get the appropriate protections, I think there's an evolving 
feeling, in the business community, that standards that had 
some enforcement behind them, other than voluntary, are 
important.
    And what I wanted to have, perhaps--Mr. Gallagher, start 
first--and then Secretary Napolitano address, is this--the 
free-rider issue. When you have a voluntary set of standards, 
and you have those businesses, entities that meet these 
standards, then those that don't, in effect, have that plain 
economic free rider effect. And is it not the case that, 
particularly within sectoral industries--take utilities, for a 
moment--you may have--because the--all the utilities have an 
enormous interconnection between them--those free riders who 
don't have appropriate protections in place may end up being an 
entry point, not only into their own operations, but then into 
other firms, because the firewalls between common industry 
partners are not as great.
    So, if both of you would like a take a crack at this issue 
of the free riders--whether you see it, whether you're seeing 
an emerging feeling from the business community on this issue.
    Dr. Gallagher. So, thank you, Senator Warner.
    I think that, with regard to the accountability of the 
standards framework, you know, voluntary sometimes feels soft, 
as if it's optional. But, the term is used in business--in 
fact, standards developed through a voluntary consensus process 
by businesses can be, in fact, fairly muscular. They can 
include schemes that are there to identify whether products and 
services conform to those standards. And those conformity 
assessment vehicles, like product marking or various other 
things, can be used in their business-to-business 
relationships; they can be part of contract requirements, they 
can be part of their own procurement requirements, and so 
forth. And that's why these standards have such a powerful 
market effect, is that they start driving these interactions.
    So, I don't think we should believe that, because business 
is in charge of the standards environment, that it's going to 
be weak. I think--as long as the accountability is there for 
the underlying cybersecurity performance, I think they're going 
to be inclined to look at making sure that there's a robustness 
there and they can identify their supply chain as not 
undermining their credibility.
    That being said, there is going to be unevenness in 
adoption, and I think that's going to be one of the things we 
continue to monitor, both with the stakeholders who are helping 
us develop the framework and with our Federal partners. In some 
cases, it's going to be, maybe, willful; in other cases, it may 
be just the size of the company. Small businesses sometimes 
face different hurdles, in terms of compliance, than large 
companies. And hopefully that's a part of the framework and the 
partnership.
    Senator Warner. Before Secretary Napolitano answers, I 
guess the one thing I would just come back to you at little bit 
is, you know, the analogy, a little bit, breaks down where 
industry sets a standard, and there may be a marketing 
advantage. If you get the Good Housekeeping seal of approval, 
that helps you. A competitive product that doesn't have that 
Good Housekeeping seal of approval doesn't cause you any risk; 
whereas, within an industry--again, critical infrastructure, in 
particular--the weakest link could not only provide a way into 
your company, even though you've got the Good Housekeeping seal 
of approval, and cause harm, or, in addition, you know, you may 
have the weakest link, then cause such a problem that there 
could be industrywide repercussions even if you got--because 
you're not going to have any safe harbor provisions.
    Secretary Napolitano, and then also you want to----
    Secretary Napolitano. Well, Senator, I think there is a 
risk, here. And the risk is the free rider risk, that all who 
need to be involved won't invest in order to be involved. But, 
I think it's a measured risk, compared to a process that is an 
open process, that involves industry from the get-go, and that 
really aligns well with what we've done on the physical 
security side, and with what NIST has done, in terms of other 
types of standard-setting.
    One of the questions is, why wouldn't a company 
participate? One reason is that they, themselves, do not have 
the technical know-how. They don't have the IT personnel, and 
the like, to really be able to participate.
    One of the things we will be building and encouraging 
through this is the exchange of best practices. That exchange, 
among those actually in the market, actually can help smaller 
entities or those who have not invested what they should have, 
already.
    And finally, as I mentioned in my opening, I think there's 
not just a Good Housekeeping seal-of-approval sort of incentive 
that we can build, but, again, looking at things like 
procurement preferences, acquisitions, and the like, that 
really, at least to the extent that government is a consumer of 
these services, can be helpful.
    But, there is--as you have identified, this is, 
legitimately, a risk.
    Senator Warner. Well, I just personally believe that--I 
think this collaboration ought to be industry-led. I do believe 
there needs to be an enforcement mechanism, and I do think 
there needs to be, similar to some of the legislation that was 
introduced last year, standards that had some teeth to it. And, 
as Mr. Gallagher said, you can have standards with teeth that's 
industry-driven, but you've got to have some kind of 
enforcement tool.
    I want to follow up, Secretary Napolitano, with your 
question of ``those entities that might be in a particular 
sector that don't have the capabilities.'' You know, how do you 
make sure they are able to get the intellectual product that is 
being created by, you know, the large utility versus the small 
rural utility? If the large utility is spending lots of 
resources getting the best and the most efficient cybersecurity 
system in place, you know, they're going to be--they may be 
reluctant to share that benefit with partners who are, again, 
free riders. How do we get over that----
    Secretary Napolitano. I think----
    Senator Warner.--challenge?
    Secretary Napolitano. I think the way to think about that 
is their participation in the construct of the framework, 
because NIST really sits as kind of a neutral in the creation 
of the ultimate framework, but the framework itself provides a 
way for all entities involved in a particular area to exchange 
information. And I think we've seen that happen with some of 
NIST's other activities. So, the process itself could help 
solve that problem.
    Senator Warner. I'm not--I want Mr. Gallagher to--I'm not 
sure I fully got the answer, there, because I'm--you know, this 
is a very competitive space right now, as people come out with 
cybersecurity products and services. Some are better than 
others. You know, you've got--this will constantly be evolving. 
You know, one of the concerns, I know, is that we end up with a 
stagnant standard that kind of gets industry-accepted, 
technology moves ahead, and how do the new movers in that 
cybersecurity industry break in if you've already got a 
government-established standard? But, somehow or the other, 
we've got to figure this out.
    Do you have any thoughts on it, Mr. Gallagher?
    Dr. Gallagher. Well, I think--you know, I--that's one of 
the reason why we don't like to have government set standards 
in the United States. I think, by law, we have a preference, 
where Federal agencies look to the private sector standards 
organizations for their needs as the first preference. And one 
of the reasons for that is, they tend to be more dynamic, 
because they're market-attuned, and they're going to keep 
looking at that.
    The tension you point out, where it's a very competitive 
market--I mean, the standards process can be weaponized, as you 
know. Large companies can come in and want to, you know, take 
advantage of the--incorporating their technology in a standard 
because of the--the market advantage that would accrue to them 
if that was widely adopted. But, the standards processes have 
learned how to adopt to those kinds of commercial tensions in 
the process. That's really the kind of diplomatic negotiation 
that's occurring in the voluntary consensus standards process.
    And so, we will be, not replacing that function, we'll--the 
framework process will be engaging existing standards 
development organizations and leveraging their expertise, and 
carrying that out.
    Senator Warner. Well--I've run over my time; I'm still not 
completely sure how we work that out on the free rider issue.
    The last quick--very quick question, and I'll turn it back 
to Senator Coburn--it just--when we think about cyber threats, 
a lot of what's discussed in the press are those intellectual 
property threats and those threats that could actually 
interfere, turn on and off, operations. Do we--do you 
prioritize nature of threat, those that are simply, in effect, 
passive stealing versus those threats that are actually able to 
shut down critical infrastructure, for example?
    Chairman Carper [presiding]. I'm going to ask our witnesses 
just to be very brief in your response, please.
    Secretary Napolitano. In some senses, yes. I can explain 
later, when there's more time.
    Chairman Carper. That was good.
    [Laughter.]
    Chairman Carper. All right, thanks.
    Have you made the second vote? Yes, there is a second vote. 
Final passage. You know? OK.
    Dr. Coburn.
    Senator Coburn. Well, thank you.
    Madam Secretary, I--one of the things--you have this great, 
big agency--in there--like on FISMA--do you really feel like 
you have the authorities you need, right now in your position, 
to actually accomplish what we need to do, especially when it 
comes to cybersecurity for the government?
    Secretary Napolitano. I think we can accomplish much with 
our existing authorities. As I've suggested, Senator, I think 
some FISMA reform, which would move us out of the paperwork 
generation into the Digital Age, very helpful, was considered 
part of the original legislation.
    The ability to do hiring equivalent, with equivalency to 
the sorts of hiring that the NSA could do--because, realize, in 
this realm, civilian capacity needs to be enhanced, because 
we're going to manage most of this through civilian capacities, 
with some utilization of the NSA. And we already have those 
arrangements made. But, on that personnel side, we will need 
legislative assistance.
    Senator Coburn. OK. Do you feel comfortable--and I'm not 
asking this question so you'll make a criticism of the 
Executive order--do you think we have the proper balance, in 
terms of intellectual property and protection of critical 
infrastructure, within the Executive order? We're going to help 
that, but what's your feeling about that?
    Secretary Napolitano. I think, overall, yes. And I think 
our key interests--and it's partially a response to Senator 
Warner, earlier--is the protection of the country from a cyber 
event that could cause undue economic loss or, in worst case 
circumstances, even endanger life. So, we fundamentally need to 
be concerned with that.
    That kind of investment may not be as marketable or return-
on-investment-oriented as, say, protection against the theft of 
your intellectual property. I mean, I think there's an easy 
economic case, ``This is better for us, it's going to be better 
for our bottom line, it's part of the R&D process and our 
protection of our intellectual property.''
    In the security context, there's a public element to this 
that is not reflected immediately in the return on investment. 
That's why, from a standpoint of where we focus most of our 
efforts--we do the theft of intellectual property, the 
counterfeiting, the--all of that, those kinds of cases--but, 
where we are focused within the security of the United States 
is really on that fundamental attack, that fundamental 
interference that could shut us down.
    Senator Coburn. Yes. You have all these areas of 
responsibility, and a large agency, and we're coming up on a 
tenth anniversary of your agency. And we had a great 
conversation, when I came out to visit you. But, there are--you 
have some real challenges. I mean, they're documented. GAO has 
documented, your own IG, as well as our investigative 
subcommittee. Do you--can you assure us you're seeing 
improvements in all those areas, and you're making the 
management adjustments those criticisms that have been rightly 
leveled, in terms of difficulties within the agency? Because 
your ability to respond to those has a lot to do with your 
ability to carry out the function that we're going to be giving 
you under the President's Executive order.
    Secretary Napolitano. Right. And I think--in terms of 
management of a Department that was brought together out of 22 
agencies and is still relatively young, I think we have worked 
very closely with the GAO and the IG to really tighten the 
management and the accountability of the management, 
departmentwide.
    I can also share with you that there has been no part of 
the Department that has expanded so rapidly, in terms of 
capability and responsibility, than the part that deals with 
cyber. And that's because of the continuing threat that we 
face.
    Now, with the EO, we will take on even more 
responsibilities. Many of these are continuations of things 
we've done. Some of them are actual expansions. But, we are 
fully prepared to do that.
    Senator Coburn. I have to tell you, I have been thoroughly 
impressed with the employees and the people that have given us 
the briefings that we've had. There's no doubt to their 
competence, their dedication, and their service. And I would 
just tell you, you should take that back.
    Before my time's up, which it almost is, I would ask that 
you leave some people here to hear the GAO testimony after you 
leave, if you would. I think some of that some of this is spot 
on; some of it may not be. But, I think having this--the GAO 
outline where they see the problems, and you hearing--somebody 
in your agency actually hearing that, and reporting to you what 
that is--and the flavor, and the insight that they have, I 
think will be beneficial as you work to implement what you're 
charged to do.
    Secretary Napolitano. Happy to do that, Senator.
    Senator Coburn. Thank you.
    Chairman Carper. And I second that request. If you could, 
that would be great.
    All right, I've been waiting to make this introduction for 
a while, but--Senator from Massachusetts, Senator Mo Cowan.
    Senator Cowan.

               STATEMENT OF HON. WILLIAM COWAN, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Cowan. Thank you, Mr. Chairman. Madam Secretary, 
Mr. Gallagher.
    My first question, Madam Secretary, is to you.
    First of all, before I offer it, I'd preface it by saying 
thank you for your testimony today, and thank you for your 
partnership with us up in the Commonwealth of Massachusetts. 
You and your team have been very helpful to us, and through 
some difficult times. We really do appreciate that.
    But, to the issue at hand--and forgive me if I cover a 
territory that may have been covered while I was away for the 
vote--but, I want to talk a little bit about the concept about 
cybersecurity as it relates to, sort of, the concept of the 
weakest link in the chain. And we're going to hear testimony 
today from a CIO from a major company about--and this is my 
description, not his--the--sort of the platinum level of 
security, or focus on cybersecurity that they employ. And 
that's a very strong link in the chain.
    But, while that may be true of Dow Chemical and other 
companies, is it fair to say that the failure of any market 
participant, particularly when it comes to critical 
infrastructure, to improve their defenses, on the cybersecurity 
side, to a minimum baseline standard leaves us all exposed, 
notwithstanding those platinum structures in place, and leaves 
us exposed, not only to some significant costs, but some 
significant security concerns?
    Secretary Napolitano. Senator, I think the--our efforts are 
to have everyone raised to a certain baseline standard. There 
may be entities that do more than that, but a certain baseline. 
And that should be attached with greater real time information 
sharing, because information sharing is a big part of this, and 
exchange of best practices, new technologies, and the like. 
But, there is no--there is no mandate, per se, in the Executive 
order. So, we are getting at this through a cooperative, 
voluntary regime.
    Senator Cowan. And through that cooperative, voluntary 
regime--I just want to be clear--you do believe that there is--
there is value in that minimum baseline standard across all 
players in this critical sector. Fair to say?
    Secretary Napolitano. Yes. I think it--there is value, 
because what we are trying to do is, in a realm where there is 
an increasing number and sophistication of cyber threats from a 
variety of actors, making sure we are best prepared, as a 
country, to prevent or, if necessary, respond, and to mitigate 
any damage.
    Senator Cowan. And perhaps--this question, to you, Dr. 
Gallagher--I've talked to a number of folks with particular 
knowledge and expertise in this field, including Cynthia 
LaRose, of Mintz Levin, about privacy in cybersecurity issues, 
and the point has been made to me that the market participants, 
obviously, should play an important role with the government in 
establishing baseline standards that are out there, and there 
should be--the ability of the market player is to have a 
significant influence over what those standards are. But, if 
businesses may be left to their own devices, we may never get 
to a point where we can ensure ourselves that we've properly, 
across all critical infrastructure issues, sort of addressed 
cybersecurity, because of the difference in scale of entities 
and a difference in focus. Would you agree with that 
assessment?
    Dr. Gallagher. I think, if it's not done correctly, that 
could happen. I think the challenge is--turning to private 
sector-led standard-setting when the public sector needs those 
standards means that there's an accountability of the private 
sector to that performance. In other words, the--it's not the 
same thing as saying there's an abrogation of responsibility by 
the public sector by saying we want industry's help in doing 
it.
    So, I think the EO correctly lays this out. It starts with 
a process where we try to articulate the cybersecurity standard 
of performance that we'd like to engage on. And then we let 
industry, who knows the market, who understands their 
technology, who understands the dynamics, attempt to respond to 
that.
    In the final analysis, I guess the public sector will have 
to evaluate whether that meets the public's needs to secure the 
safety of the U.S. population, and respond accordingly. But, we 
do this very often. I think, you know, it's not uncommon for 
government agencies, in procurement and regulation and so 
forth, to depend on the private sector. And, in fact, the 
private sector wants to be responsive to that, generally, 
because they want their efforts to be aligned with those needs.
    Senator Cowan. Thank you.
    Chairman Rockefeller [presiding]. Senator Johnson.

                STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Thank you, Mr. Chairman.
    Madam Secretary, Mr. Gallagher, thanks for coming before 
us.
    Mr. Gallagher, I was actually pleased to see, in your 
testimony, that you said the approach should not dictate 
solutions, but, rather, facilitate it. I think that was one of 
the things that kind of bogged us down last time, when we tried 
to pass a cybersecurity bill.
    And this is really a question for both of you. As you have 
gone around and talked to industry--certainly my input was, I 
think, last time around, there was an assumption, or a 
presumption, that business had to be dictated to. You know, I 
come from industry. I really think businesses want to protect 
their cyber assets and realize that government really has a 
real role to play here, and has a lot of valuable information.
    So, can you just give me your evaluation, in terms of 
that--I guess, that assessment? How willing is business? How 
often do they really have to be nudged along a little bit more 
forcefully?
    Madam Secretary.
    Secretary Napolitano. In general, the responsible business 
players recognize the multiple interests involved, and our work 
is furthered when there's truly a collaborative atmosphere. We 
all want to solve problems. No one is benefited if there's a 
major or successful cyber attack within the United States. So, 
we're approaching it from that dimension.
    To the extent this is a national security issue, which it 
is, and we are leaving it to a collaborative process to help 
resolve, that is a first. Normally, when security is concerned, 
it is much more of a government, kind of, top-down, as it were, 
philosophy. So, this is a grand and bold experiment, in that 
regard. But, I proceed on the notion that we can make this 
work, and that we will.
    Senator Johnson. Thank you.
    Mr. Gallagher.
    Dr. Gallagher. I would confirm that. I don't want to talk 
about the irresponsible players, but, I mean, my reaction, in 
working with business leaders, particularly in critical 
infrastructure, is, they acutely feel their obligation to 
protect the public, and want to perform.
    I think the underlying issue--and this touches on some 
comments that Senator Warner raised, as well--is, this will 
work best of all when good cybersecurity is also good business. 
And when that alignment occurs, I think that's when the magic 
happens and this really works very powerfully. And that's 
related to this discussion on incentives. And I think one of 
the things that can come out of this process, since this is an 
industry-led standards development effort, is, we will be 
monitoring those areas where the standard-setting and adoption 
seem to be--where there seems to be a headwind that is related 
to, maybe, disincentives or, you know--and those will be 
important information for us to pay attention to. But, I think 
that's where this wins most dramatically, is when good security 
is also good business.
    Senator Johnson. Now, last time around, the regulations 
were stated to be voluntary, but I think businesses viewed that 
as saying, ``Yes, it was voluntary, but pretty coercive, 
particularly after 1 year.'' What has changed? Because it 
sounds like the reaction from businesses has changed pretty 
dramatically. I mean, what, specifically, did you change, in 
terms of that voluntary nature of the EO, in your proposals?
    Secretary Napolitano. I think one of the things that 
happened is that there was a process, led by the White House, 
to engage business in the construction of the EO, itself. So, 
it didn't just kind of spring like, you know, Athena from the 
head of Zeus, but it was really a collaborative process to 
begin with.
    So, it's, you know--and the second thing I would mention, 
Senator, is, we have--we didn't stop work because the bill 
failed. I mean, we were already, all summer, you know, working 
on, How do we make sure that we are looking at adequate cyber 
performance goals? And what could standard-setting look like in 
this regime? So--and I think that gave, perhaps, assurance to 
some in the business community that we truly are engaged in a 
collaborative process.
    Senator Johnson. OK. One of my assumptions is that just the 
word ``comprehensive'' makes things more difficult around here. 
There are certainly different components to cybersecurity that 
could potentially--I'm just saying potentially--could be 
enacted in a step-by-step basis.
    First of all, do you agree with that? Does it have to be 
comprehensive? And if it could be a step-by-step approach, do 
you have a priority? I know, Mr. Gallagher, I think you've 
listed the five pieces of legislative actions that are 
required. But, is comprehensive required, or, if it's not 
possible to get that, can we go step-by-step?
    Dr. Gallagher. So, I think the problem with cybersecurity, 
of course, is, you're talking about a system behavior. And so, 
in the end, you have this problem, where it's a chain of 
performance, and you're as strong as your weakest link. And 
that's one of the reasons that you always have to think about 
the whole.
    But, you're right, in order to make progress, you can't 
boil the whole ocean at once, and I think you have to set 
priorities. I think the Executive order, and this process, will 
allow that to happen. Clearly, part of this is dealing with 
known threats and known vulnerabilities, just good cyber 
hygiene and putting it into practice robustly. Some of this is 
putting in the tools that allow us to do adaptive 
cybersecurity. How do we react to the new information, the new 
threat information, the type of cybersecurity automation tools? 
And some of this is, how do sector-specific organizations 
address, you know, their requirements in the--you know, in 
their context, to protect the public, in the advent of a cyber.
    So, it's a complicated challenge, in the sense that the 
whole matters, but you have to work at it in pieces.
    Senator Johnson. OK, thank you.
    Chairman Rockefeller. Senator Baldwin.

               STATEMENT OF HON. TAMMY BALDWIN, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Baldwin. Thank you, Chairman Rockefeller and 
Ranking Member Thune. Thank you, to my Chairman, Carper, and 
Ranking Member Coburn.
    I'm new to the Senate, new to the Homeland Security and 
Governmental Affairs Committee, but, back in my House service, 
I had the opportunity to serve on the House Energy and Commerce 
Committee, where I started to become more aware, and sometimes 
more alarmed, about our need to protect our critical 
infrastructure and the threats faced by cyber penetrations, et 
cetera. And I look forward to the opportunity to be involved in 
this issue, moving forward, but looking at it more broadly than 
just the jurisdiction of the Energy and Commerce Committee, 
although it was pretty broad.
    In that vein, I wanted to start, Madam Secretary--in your 
testimony, you briefly referenced the National Cybersecurity 
and Communications Integration Center, which is a 24/7 response 
center for potential cyber threats. And I wonder if you could 
describe for me in greater detail the sort of--the functions of 
this center, what sort of business it's seeing, and if you 
could highlight a few stories of success that have been 
achieved through the creation of the center.
    Secretary Napolitano. The NCCIC, as we refer to it, is a 
24/7 watch center. It has a number of partners on the watch 
center. Importantly, both the NSA and the FBI are partners 
there, as we are partners with the FBI in the--their JTTF 
center, as we partner with the NSA, as well. So, when you think 
about roles and responsibilities, the DHS, the FBI, and the NSA 
have really figured out for themselves the lanes in the road 
and how a call to one is a call to all.
    It is constantly getting information. It gets reports from 
the private sector. It sends information out. It deals with 
mitigation efforts. It deploys teams to help mitigate damage, 
particularly in the area of industrial control systems. It's a 
very important subset of this that we've seen a lot of activity 
in. It really is our key information collection, sharing, 
collating, analysis area in the cyber realm.
    One recent area we've been heavily involved in is a whole 
spate of DDOS attacks against the financial sector, and 
assisting them in responding, and also helping them to work 
around the DDOS attacks that they are experiencing.
    I would invite you or any members of the Committees. We'd 
be happy to host you at the NCCIC to see what really has been 
built out there.
    Senator Baldwin. Thank you. You mentioned, in your 
response, working with industries that have industrial control 
systems. And want to sort of ask a related question. I was 
talking about my experience, in the House, on Energy and 
Commerce, and the cybersecurity issues that are raised there. I 
understand, from what I've been learning lately, that the 
financial services industry has some of the best protections in 
place against cyber threats, and certain, you know, other 
sectors that are protecting essential infrastructure have more 
lax protections in place, how we say.
    I guess I'm wondering how the best practices from the 
financial services industry can be applied to other sectors, 
and to what extent the absence of industrial control systems in 
that sector hinder the application of those best practices. 
What's--what can go across sectors and be learned, and the fact 
that they don't have SCADA systems, you know, that it's not 
going to be that helpful in the other sectors?
    Secretary Napolitano. One of the things about cyber is that 
this is not--although we talk about sectors, they're not 
stovepiped, they're all interconnected. We live in a 
interconnected world, in every respect. There are some things 
that are being done in the financial sector that will easily 
migrate into performance goals, and, indeed, perhaps even into 
a framework. There are other things that are not as----
    Senator Baldwin. Can you----
    Secretary Napolitano.--applicable.
    Senator Baldwin.--can you outline--or can you mention some 
of those, just so I get a clear sense of what can migrate 
easily?
    Secretary Napolitano. I'd rather not, in an open setting.
    Senator Baldwin. Oh, OK.
    Secretary Napolitano. But, we'd be happy to provide a 
briefing for you.
    Senator Baldwin. Great. And I cut you off. You were saying, 
there are some things that migrate easily.
    Secretary Napolitano. And some that don't. But, to the--you 
know, one of the things that we will be working on with NIST 
is, as we set performance goals, and as we engage in this 
process, what does the framework absorb by way of things that 
are interconnected and that apply across a broad spectrum.
    Senator Baldwin. Thank you.
    Chairman Rockefeller. All right.
    We go now to Senator Pryor. And then, that'll be the end of 
the first panel.
    And I want to apologize to the first panel, because we've 
kept you here a long time. Part of it was my fault, but I 
apologize.
    Senator Pryor.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairmen. And I use that word 
in the plural. Thank you all for your leadership on this.
    Secretary Napolitano, always good to see you. Thank you for 
being here again today. You mentioned, just briefly, something 
in your opening statement about the sequester and some of the 
adjustments you're going to have to make this year. Could you 
elaborate on that?
    Secretary Napolitano. Well, as you know, the sequester 
applies virtually account--it does apply account-by-account 
across the government, and limits our flexibility, in terms of 
where we put resources. The result is, for example, in our CERT 
teams, we were looking at, I think, a 10 to 12 percent 
reduction there, in terms of being able to fill vacancies. We 
are, importantly, I think, probably going to have to delay the 
deployment of the next generation of security for the civilian 
aspect of the Federal Government, the so-called E3A program, 
for a year, because we just are not going to be able to meet 
the deadlines, given the lack of resources that had previously 
been budgeted. So, those are two concrete things I can give 
you.
    Senator Pryor. Thank you.
    Dr. Gallagher, do you have similar impacts from the 
sequester?
    Dr. Gallagher. Similar, but not nearly at that scale. So--
--
    Senator Pryor. We understand, sure.
    Dr. Gallagher.--yes, I think, for NIST, the reductions--so, 
the main role of NIST in the Executive order is one of 
convening and technical support. So, obviously, those are the 
two areas. But, by intentionally pivoting this so that this is 
an industry-driven process, I am hopeful that there is a very 
minimal impact on our ability to deliver the framework with the 
sequester. I think the real impact of the budget, in this 
particular case, is going to be more a long-term one, as--
because I see the framework process as being a continuous one, 
and I hope it doesn't impact our ability to provide technical 
support to that ongoing process.
    Senator Pryor. Yes, that actually was my next question for 
you, because I assume that, if we do cybersecurity--and I hope 
we do--that you will have an ongoing role, but, at some point, 
obviously, resources have to be a consideration for you. So, in 
a shrinking budget environment, have you thought through how 
you're going to manage that, or do you have enough information 
yet?
    Dr. Gallagher. Well, the way you manage that is by setting 
some priorities. And I--you know, our priorities, in supporting 
standards coordination, are to support the highest priorities 
of other agencies. So, the NIST role in supporting standards is 
one of direct support to other agencies. So, it's hard to see 
that cybersecurity's not going to be at the top of that list. 
So, it may impact other priority areas.
    Senator Pryor. Right. I understand. And that--I think 
that's a concern of both committees, here.
    Dr. Gallagher, next month you're having a--sort of a public 
workshop in Gaithersburg, I believe. What are you hoping to 
accomplish with that? And is that going to be the only one, or 
will others follow?
    Dr. Gallagher. It will be the one--one of several. We 
anticipate at least four workshops, over the next 8 months, to 
develop the framework. We learned, from both our cloud 
computing efforts and from the smart grid standards efforts, 
that these type of robust workshops were a very powerful way of 
bringing together the stakeholders, because you've got to put a 
mix of stakeholders in a room and hammer out some of these 
issues. You can get pretty far with calls for information, and 
people submitting things. But, in the end, there has to be 
direct negotiation.
    So, the first meeting is organizational. It's going to be, 
How do we set up the framework process to be productive? 
Hopefully, we'll be looking at what the performance objectives 
from DHS start to look like and how do we organize the effort 
so that we can produce the initial framework in 8 months.
    Senator Pryor. And is this a workshop just for public 
sector, or is it public and private?
    Dr. Gallagher. We're going to invite everyone who can 
contribute.
    Senator Pryor. OK. So, how many people is that going to be, 
or how many organizations----
    Dr. Gallagher. I'm--well, in the case of smart grid, we 
were up over 1600 people fairly quickly, and this is a broader 
area, so it could be quite large.
    Senator Pryor. Do you include--are you including State and 
local governments----
    Dr. Gallagher. Yes.
    Senator Pryor.--in that? Good.
    Mr. Chairman, thank you. That's all I have. Thank you.
    Chairman Rockefeller. Thank you, Senator Pryor.
    I think Chairman Carper wants to say something, as you go, 
but stay, for the moment.
    Chairman Carper. Real brief.
    Thanks very much for coming. Thanks very much for your work 
and the work of a lot of folks that you lead, for getting us 
this far.
    A reporter asked me, earlier today, if the Executive order 
might be seen as an excuse for us not legislating; maybe we 
don't need to do much heavy lifting on--in the--on the 
legislative side. And I said, ``No, I think it's an incentive 
for finishing the work that we began in earnest in the last 
Congress.'' And I'm encouraged, today, that we've moved even 
further, and that we're--I'm encouraged that we're going to get 
this done.
    So, Mr. Chairman, and to our panel, thank you so much.
    Chairman Rockefeller. I share similar sentiments. I'm very 
grateful to you both. Testifying probably is not the thing you 
most enjoy in life, but you were very helpful. You're both very 
smart, you both run very important organizations. Thanks a lot.
    Our second panel will be--now, I pray I get this right; 
Senator Thune has tried to help me--Mr. Greg Wilshusen--is that 
a thumbs-up or a thumbs-down?
    Mr. Wilshusen. Thumbs up.
    Chairman Rockefeller. Thumbs up, okay--who's Director of 
Information Security Issues for the U.S. Government 
Accountability Office. He was invited by Senator Thune and all 
of us. And also, Mr. David Kepler, who is Chief Sustainability 
Officer and Chief Information Officer, Business Services and 
Executive Vice President at a small company called Dow.
    We welcome you.
    And why don't you go--are you friends now?
    [Laughter.]
    Chairman Rockefeller. OK. Why don't you go first, Mr. 
Wilshusen. Yes.

       STATEMENT OF DAVID E. KEPLER, CHIEF SUSTAINABILITY

          OFFICER, CHIEF INFORMATION OFFICER, BUSINESS

SERVICES AND EXECUTIVE VICE PRESIDENT, THE DOW CHEMICAL COMPANY

    Mr. Kepler. Thank you, Chairman Rockefeller, and thank you, 
Chairman Carper, as well, and Ranking Member Thune and Ranking 
Member Coburn.
    I'm the Chief Information Officer and Chief Sustainability 
Officer for The Dow Chemical Company, and Dow appreciates the 
opportunity to provide our view on the state of cybersecurity 
in the U.S. today.
    Today's companies regularly have to manage major 
information security issues, including corporate espionage, 
intellectual property theft, hactivists, attacks on our 
systems, and cyber criminals. Companies also have to be 
prepared to manage and mitigate risks, such as acts of 
terrorisms or sabotage, that may have severe physical and/or 
financial consequences.
    As an example, Dow monitors and logs approximately 300 
million generic network events a day. This gets distilled down 
to about 300 investigations each day, and results in about 10 
mitigations we have to address. We manage an incident a month. 
This requires a major team effort, with a multi-day event--a 
multi-day team response.
    So, companies have a vested interest, along with a duty to 
their stockholders, employees, and communities, to protect and 
defend their facilities, processes, and intellectual property 
against these cyber inclusions. However, industry must rely on 
the Federal Government to approach cybersecurity to deploy an 
offensive perspective by preempting attacks, when possible, 
through the pursuit and prosecution of criminals behind these 
events.
    Since 9/11, The Dow Chemical Company, and many other 
chemical companies, have made significant investments in the 
areas to improve security. For example, the American Chemistry 
Council, as part of its responsible care approach, devised the 
security code which requires companies to adhere to the 
chemical industry best practices for both cyber and physical 
security.
    Dow believes that the protection of the country's 
infrastructure can be addressed most effectively by moving 
forward with policy which strengthens the collaboration between 
the Federal Government and the private sector. These key 
principles of collaboration are, one, advancing more specific 
and timely information sharing between government, industry, 
and among industry peers; two, reasonable protection for 
sharing threat or attack information between the government and 
other companies; and, finally, it also has to lead to 
aggressive pursuit and prosecution of criminal--cyber 
criminals.
    Dow does not support prescriptive regulation legislation or 
specific technologies or methods. Legislations that set up a 
system requiring significant resources to comply with this type 
of regulatory framework and the resources from addressing the 
threats and risks we need for mitigation. Issues around 
cybersecurity are in constant flux, and proper management 
requires a fluid and fast risk-based response. Complex 
regulatory mandates will only slow the advancement of cyber 
risk and management systems.
    Effective two-way cybersecurity and physical information 
sharing must be linked together, and it must be timely, 
specific, and actionable, to help promote the flow of 
information. Information provided by the private sector and 
government should be adequately protected.
    On liability, the protection afforded under the Support 
Anti-
terrorism by Fostering Effective Technologies, or the SAFETY 
Act of 2002, we think are appropriate for consideration for 
cybersecurity.
    I was asked to comment on the Executive order on improving 
cybersecurity, and Dow supports the information-sharing 
initiatives included in the order. I believe we need to do 
more, in the long run. If there is anyplace for new 
legislation, it is to provide reasonable protection for 
information sharing to incur a broader-based sharing in the 
industries with government.
    Leveraging security standards into the government 
procurement practice is a good idea.
    Section 7, describing the cyber framework, I think this 
reflects a good sentiment and an approach; however, we do need 
to recognize that sector specific approaches and a clear 
willingness to build on prior work that private sectors have 
done is important. And this can't be a one-size-fits-all model, 
based on the industries we're trying to manage in the critical 
infrastructure.
    Section 9, the declaration of risk and managing the 
criteria for reasonable result in an incident, needs to be 
better defined. The concern is, we'd create a large list of 
risks that are not clearly prioritized within a sector, and 
then push generic standards into that sector that's trying to 
manage the systems that they have to deal with, both in 
physical and cybersecurity.
    Also, there needs to be more clarity on the position, in 
Section 9, that the Secretary shall not indemnify any 
commercial information technology products or consumer 
information technology services under this section. I hope this 
doesn't mean that the IT industry gets a free pass. We need 
their help in making this a successful endeavor.
    The concept of a partnership is to work together on a 
common goal. The outcome of the effort, in cybersecurity, 
should not be measured by how many regulations we create, but 
how much progress we make against a real threat to our 
country's security in progress. We are here to do our part.
    Thank you.
    [The prepared statement of Mr. Kepler follows:]

 Prepared Statement of David E. Kepler, Chief Sustainability Officer, 
    Chief Information Officer, Business Services and Executive Vice 
                  President, The Dow Chemical Company
    The Dow Chemical Company appreciates the opportunity to submit 
these written comments to the Senate Committee on Commerce, Science, 
and Transportation and the Senate Committee on Homeland Security and 
Government Affairs. We applaud the Committee for holding a hearing on 
cyber security and the necessary collaboration between government and 
the private sector.
About Dow
    Dow was founded in Michigan in 1897 and is one of the world's 
leading manufacturers of chemicals, plastics and advanced materials. 
Dow combines the power of science and technology to passionately 
innovate what is essential to human progress. Dow connects chemistry 
and innovation with the principles of sustainability to help address 
many of the world's most challenging problems such as the need for 
clean water, renewable energy generation and conservation, and 
increasing agricultural productivity. Dow's diversified industry-
leading portfolio of specialty chemical, advanced materials, 
agrosciences and plastics businesses delivers a broad range of 
technology-based products and solutions to customers in approximately 
160 countries and in high growth sectors such as electronics, water, 
energy, coatings and agriculture. More information about Dow can be 
found at www.dow.com.
Cyber Security: A Manufacturing Company's Perspective
    Cyber threat activity across the business community and the 
government has continued to increase over the last decade. The main 
driver of this change is in the profile of the threat itself which has 
matured from random acts primarily by individuals to now include well 
resourced organizations outside the United States. These new threats 
are targeted in areas that range from commercial espionage to terrorism 
to activism. Companies have a vested interest--along with a duty to 
their stockholders, employees and communities--to protect and defend 
their facilities, processes and intellectual property against these 
cyber intrusions.
    The Dow Chemical Company and many other chemical companies have 
made significant investments in all of these areas to address cyber 
threats. After 9/11 for example, the American Chemistry Council (ACC), 
as part of its Responsible Care approach, devised the Responsible Care 
Security Code which requires companies to adhere to the chemical 
industry best practices for security, both physical and cyber. Dow has 
invested heavily in, and is constantly upgrading, the physical and 
information defensive protection systems guarding our Company. However, 
industry must rely on the Federal Government to approach cyber 
security, working in partnership with other countries, to deploy an 
offensive perspective by preempting attacks when possible and through 
the pursuit and prosecution of the criminals behind these threats.
    The management systems rely on information and knowledge, and there 
is a need for identifying better approaches to work with government in 
improving information sharing. Increased focus on real time and 
efficient information sharing programs should be improved to foster, 
incentivize and increase the sharing of threat activity.
    Dow believes that protection of the country's critical 
infrastructure can be addressed most effectively by moving forward with 
legislation which strengthens the collaboration between the Federal 
Government and the private sector. The key principles of this 
collaboration are:

  <bullet> Timely information sharing between government and industry 
        and among industry peers.

  <bullet> Reasonable protection for companies sharing threat or attack 
        information with the government and their industry peers.

  <bullet> Aggressive pursuit and prosecution of cyber criminals.

    IT and telecommunication suppliers must continue to improve the 
security of their products and services and be unified in providing 
services that their customers can rely on for threat response.
    Dow does not support prescriptive regulatory legislation on 
specific technologies or methods. Legislation that sets up a system 
requiring significant resources to simply comply with a regulatory 
scheme diverts resources from addressing the threats and risks in need 
of mitigation. Issues surrounding cyber security are in constant flux 
and proper management requires a fluid and fast response. Complex 
regulatory schemes will only slow the advancement of cyber risk 
management systems.
Background
    The Internet has become critical to the operations of business, 
government and global commerce. It is an open and dynamic venue for the 
exchange and collection of ideas and information. For the United States 
it has been a key enabler for maintaining the country's 
competitiveness. Some elements inside and outside the country, however, 
have seized on this open framework and have found innovative ways to 
use it for illegal financial gains, victimization of the innocent and 
to advance ambitions that are not in the interest of the United States. 
Today, companies regularly have to manage major information security 
issues, including: corporate espionage, intellectual property theft and 
malicious activism. Companies also must be prepared to manage and 
mitigate risks such as acts of terrorism or sabotage that could have 
severe physical and/or financial consequences. The Dow Chemical 
Company, like many large corporations, is regularly attack from sources 
that are advanced, persistent and targeting our intellectual property. 
In many cases, the highly sophisticated attackers are based in foreign 
countries.
    Efforts to develop a public-private partnership to protect against 
cyber attacks has a long history. In 2003, one of the key objectives of 
the National Strategy to Secure Cyberspace was to provide a framework 
for public and private partnership including the sharing of 
information. Much progress has been made, but today's cyber attacks are 
much more advanced and it is clear that more ongoing progress is needed 
to ensure the continued prevention of a severe systemic failure of 
public or private critical infrastructure. It will require a more 
responsive, integrated, and resilient national system to prepare for 
and respond to these threats.
Chemical Industry Cyber Security Leadership
    Large companies such as Dow are seeing an increase in the risks we 
face. The internet, including the growth of social media, has elevated 
our exposure to threat actors such as hacktivists (hackers with a 
targeted malicious intent to vandalize or stop business as their 
protest method) and nation states sponsoring industrial espionage or 
cyber criminals. As society and industry move toward increased mobility 
and pervasiveness of information technology, the frequency and cost of 
cyber-incidents will continue to increase. These risks require a joint 
public and private effort to be managed effectively.
    In 2001, Dow and other American Chemistry Council (ACC) members 
voluntarily adopted the Responsible Care Security Code (RCSC). The 
RCSC is a comprehensive security management program that addresses both 
physical and cyber security. It requires a comprehensive assessment of 
security vulnerabilities and risks to implement protective measures 
across a company's value chain. Since RCSC's inception, ACC members 
have invested more than $11 billion in security enhancements including 
both physical and cyber security protections. Security, in all its 
dimensions, continues to be a top priority for Dow and the chemical 
industry. Our record of accomplishment and cooperation with Congress, 
DHS and others is undisputed.
    Dow has led in several business and public forums which focus on 
advancing cyber security within the chemical sector. Dow regularly 
provides leadership or participates with the following organizations:

  <bullet> ChemITC

    <ctr-circle> Chemical Information Technology Center (ChemITC) of 
            the American Chemistry Council (ACC) is a forum for 
            companies in and associated with the ACC to address common 
            IT issues. Through strategic programs and networking groups 
            dedicated to addressing specific technology issues, 
            ChemITC is committed to advancing the cyber security of 
            its member organizations.

  <bullet> Chemical Sector Coordinating Council (CSCC)

    <ctr-circle> Pursuant to the Homeland Security Act of 2002, the 
            purpose of the CSCC is to facilitate effective coordination 
            between Federal infrastructure protection programs, the 
            infrastructure protection activities of the private sector 
            and those of state, local, territorial and tribal 
            governments.

  <bullet> National Infrastructure Advisory Council (NIAC)

    <ctr-circle> The NIAC provides the President, through the Secretary 
            of Homeland Security, with advice on the security of 
            critical infrastructures, both physical and cyber, 
            supporting sectors of the economy.

  <bullet> International Society for Automation (ISA)

    <ctr-circle> ISA has primary responsibility for the development of 
            the ISA-62443 series of standards addressing cyber security 
            for industrial automation and control systems (IACS). As 
            each standard is developed it is submitted simultaneously 
            to ANSI and IEC as a U.S national and international 
            standard, respectively.
Cyber Security Management at the Dow Chemical Company
    Dow has a comprehensive set of policies, standards and procedures 
based on guidance from organizations such as the National Institute of 
Standards and Technology (NIST) and established industry standards such 
as ISO 27001 and the ISA/IEC 62443 series for industrial automation. 
Due to the very fluid nature of cyber threats, Dow is continuously 
refreshing its practices and technology based on its experience as well 
as the best available information from the government, industry and 
other public sources. We frequently benchmark with peer Chemical Sector 
and broader Manufacturing Sector companies as well as other industries 
to manage the risk of a cyber attack. We also enlist external private 
entities to evaluate our security posture.
    Dow's information security is based on a multi-layer defense 
strategy. This includes continuing to enhance our IT infrastructure to 
meet the standards of other companies with high-value security profiles 
as well as elevating the protection for the Company's most sensitive 
intellectual and physical assets. Dow uses a risk-based approach for 
the implementation of these controls. Developing strong partnerships 
between Dow's Information Security group and all Dow business units is 
vital to managing the flow of sensitive information and protecting 
critical infrastructure.
    Strong collaboration with security vendors and partnerships with 
government agencies have been essential in preventing, detecting and 
responding to threats. We work closely with the chemical sector 
liaisons from the Department of Homeland Security and in forums such as 
the Industrial Control Systems Joint Working Group (ICSJWG). Working 
with government agencies has been valuable due to their collaborative 
nature. Dow believes that a public-private sector collaborative 
approach to cyber security is the best way to achieve common security 
goals for individual companies as well as the country. Using a risk-
based approach that leverages the existing work of the international 
cyber security community will facilitate implementation of practices 
that are both effective and flexible.
    Dow's multi-layer defense strategy begins with employees. Our 
ongoing security awareness programs help employees understand the ever-
changing threats in the cyber landscape. People are the new perimeter--
our greatest defense, and if not informed and educated, could be our 
weakest link. We have an ongoing global awareness campaign to:

  (1)  Educate users on policies and the risks we face;

  (2)  Drive commitment to the security program by making security 
        initiatives a personal responsibility;

    We continue to evaluate and improve the technical and non-technical 
response capabilities related to cyber threat incidents and we have 
made significant investments in state-of-the-art technologies to detect 
anomalous cyber activity which is the predecessor to most cyber 
attacks. Dow has defined threat response processes to handle these 
issues when detected and has established a core team of highly skilled 
employees to coordinate response and proactively mitigate risk to the 
Company's systems. In order to maintain a highly secure environment, 
Dow has a team of security professionals who regularly leverage and 
collaborate with security vendors and government resources to implement 
and improve security controls.
Private Sector Needs from Congress and the Administration
    Dow believes that protection of the country's critical 
infrastructure can be addressed most effectively by moving forward with 
legislation which strengthens the collaboration between the public and 
the private sectors. This collaboration must recognize the benefits of 
a risk based and performance based approach, its relationship to 
physical security, two-way information sharing, prosecution of cyber 
criminals and protection from liability. This should be done in a way 
that does not impact the relationships developed over the last decade.
    Effective two-way cyber security information sharing between the 
public and private sectors must be timely, specific and actionable, and 
protected from public disclosure. A public/private partnership will 
vastly improve the flow of information and ideas to quickly identify 
threats and vulnerabilities. To help promote the flow of information, 
information voluntarily provided by the private sector should be 
adequately protected from public disclosure. The unintended 
consequences of Freedom of Information Act requests must be addressed.
    Liability protection for the private sector as a result of a cyber 
attack must also be provided as long as appropriate management systems 
have been applied to address potential threats. This will help promote 
participation amid the more rapid penetration of emerging technologies. 
The liability protections afforded under the Support Anti-terrorism by 
Fostering Effective Technologies (SAFETY) Act of 2002 are appropriate 
to consider.
    Companies such as Dow are in a defensive mode when it comes to 
cybercrime. There must be better enforcement of U.S. laws against 
cybercrime with more aggressive prosecution of cyber criminals in an 
attempt to deter the act. U.S. laws should be updated and strengthened 
to protect critical infrastructure from cyber attacks and hold those 
accountable for perpetrating intentional acts designed to cause harm to 
critical infrastructure operating systems or for stealing intellectual 
property and personal information for financial gain. Additionally, the 
U.S. Federal Government should develop strong international 
partnerships that work together to identify international threats. 
Without a focused strategy to address the borderless nature of 
cybercrime, the private sector will continue to fight an uphill battle.
    Dow believes the Federal Government has a role in setting an 
example, by ensuring higher quality security-embedded solutions and 
services by technology suppliers are built into their systems. 
Suppliers of IT products and services are best positioned to address 
issues within the solutions they create and have a responsibility to 
test and enhance product security, to understand their vulnerability 
before releasing items into the marketplace. Information technology 
suppliers and software developers must design for critical 
infrastructure high-availability and long-lived assets in accordance 
with rigorous compliance standards. The IT industry is in the best 
position to enhance security controls. If they do not, it passes an 
additional burden downstream, and duplicates effort and costs onto the 
customers in regulated industries. Just as the chemical sector adopted 
the Responsible Care model, the IT and telecommunication industries 
must be encouraged by their customer based to create self-regulated 
security practices and services.
Legislation
    Dow advocates for legislation that codifies the principles outlined 
above. In summary, legislation that facilitates information sharing 
between industry and government and among industry peers is needed. 
Ideal information sharing legislation offers liability protections for 
early sharing threat or attack information with the government and 
provides antitrust relief to share with industry peers. Information 
should include strategic assessments, best practices, and lessons 
learned from events and incidents. Cyber criminals and nation state 
actors must not be allowed to continue to operate with relative 
impunity. They must believe that there are consequences for their 
actions. Finally, the IT and Telecommunications industries must create 
products which are inherently more secure.
    Dow does not support prescriptive regulatory legislation on 
specific technologies or methods. Legislation that sets up a system 
requiring significant resources to simply comply with a regulatory 
scheme diverts resources from addressing the threats and risks in need 
of mitigation. Cyber security is a constantly changing portfolio and 
proper management requires a fluid and fast response. Complex 
regulatory schemes will only slow cyber risk management systems.
Executive Order on Improving Critical Infrastructure Cyber Security
    Dow supports the information sharing initiatives included in the 
recent Executive order. However, Dow is concerned with the proposed 
approach of a voluntary program for critical infrastructure industries 
to adopt cybersecurity standards. Voluntary programs, normally, allow 
industry to develop their own standards that are risk and performance 
based that consider the specific sector environment, and are followed 
by a certification system to ensure compliance. Responsible Care 
Security code, for one, is a successful example for the Chemical 
sector.
    Government defined or selected standards can miss the specific 
challenges that are required to be addressed by each industry sector. 
It is initiated as a voluntary program, but it could develop in such a 
way that companies will be forced to adopt prescriptive standards due 
to the fact that information on program adoption for ``high risk'' 
industries may be made public. More concerning this could be done 
without a review process and could be used to leverage in ways that may 
not be beneficial to lowering overall risk. The president or Congress 
should not allow pseudo-regulations without legislation to occur.
    Dow will actively participate in industry forums like ACC, Chamber 
of Commerce, the Business Roundtable and all government initiatives to 
fully support successful implementation of any cyber security efforts 
which better protect our communities and industries.

    Chairman Rockefeller. Thank you, sir, very much.
    Now we go to Greg Wilshusen.

          STATEMENT OF GREGORY C. WILSHUSEN, DIRECTOR,

  INFORMATION SECURITY ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Wilshusen. Chairman Rockefeller, Chairman Carper, 
Ranking Member Coburn, Ranking Member Thune, and other members 
of the Committees, thank you very much for the opportunity to 
testify today at today's hearing on cybersecurity.
    As you know, Federal agencies and our nation's critical 
infrastructures have become increasingly dependent on 
interconnected systems and networks that carry out essential 
operations. While creating significant benefits, this 
dependency also introduces vulnerabilities in cyber-based 
threats. These threats could have a potentially serious impact 
on Federal operations and essential services provided by the 
private sector.
    Underscoring the importance of this issue, we have once 
again designated Federal information security and cyber-
critical infrastructure protection as a governmentwide high-
risk area. Today, I'll discuss the cyber threats confronting 
the private sector and Federal Government, several challenges 
to securing systems, and our assessment of the national 
cybersecurity strategy.
    But, before I do, if I may, I'd like to recognize several 
of my colleagues who were instrumental in developing the body 
of work upon which my statement is based. Attending with me is 
Lee McCracken and Jeff Woodward, in the back, in the second 
row; in addition, Naba Barkakati, John de Ferrari, Rich Hung, 
Nicole Jarvis, and David Plocher made significant 
contributions.
    Cyber-based threats to systems supporting critical 
infrastructure in Federal operations are evolving and growing. 
These threats come from a variety of sources, giving--including 
employees and other insiders, criminal groups, hackers, and 
foreign nations. These sources vary, in terms of their 
capabilities, willingness to act, and motives. The unique 
nature of cyber-based attacks can vastly enhance their reach 
and their impact. They can originate from around the globe and 
adversely affect economic and national security, and public 
health and safety.
    Over the past 6 years, the number of cyber incidents 
reported by Federal agencies to US-CERT has increased from 
about 5500 in Fiscal Year 2006 to 48,562 in Fiscal Year 2012, 
an increase of 782 percent. These incidents, and the recently 
reported cyber-based attacks against businesses, further 
underscore the need to manage and bolster the security of 
Federal systems and our nation's critical cyber assets.
    However, the Federal Government continues to face 
challenges in effectively securing its systems and those 
supporting critical infrastructure. While actions have been 
taken to address aspects of these challenges, issues remain. A 
longstanding challenge has been designing and implementing 
risk-based information security programs at Federal agencies.
    Another challenge has been establishing and identifying 
standards for critical infrastructures; and other challenges 
include detecting, responding to, and mitigating cyber 
incidents; securing the use of new technologies; and managing 
risk to the global IT supply chain.
    Over the past 12 years, the Federal Government has 
identified a variety of documents that were intended to 
articulate a national cybersecurity strategy; however, it has 
not developed an overarching strategy that synthesizes the 
relevant portions of these documents or provides a 
comprehensive description of the current strategy. In addition, 
the strategy documents sometimes did not incorporate desirable 
characteristics that enhanced their usefulness. While the 
documents have generally included elements such as problem 
definition, goals, and subordinate objectives, they have not 
always fully addressed milestones and performance measures, 
cost and resource information, clearly defined roles and 
responsibilities, and linkage with other key strategy 
documents.
    In our February 2013 report, we recommended that the White 
House cybersecurity coordinator develop an overarching 
cybersecurity strategy that addresses all key desirable 
characteristics and addresses cyber challenge areas.
    Also last month, the President issued an Executive order on 
improving critical infrastructure cybersecurity. The Executive 
order includes actions aimed at addressing challenges in 
developing standards for critical infrastructure and sharing 
information. Although it is too soon to comment on its 
effectiveness, the order assigns specific responsibilities to 
specific individuals with specific deadlines; thus, providing 
clarity of responsibility and a means for establishing 
accountability.
    In summary, addressing the ongoing challenges and 
implementing effective cybersecurity within the government, as 
well in collaboration with the private sector and other 
partners, requires the Federal Government to better define and 
more effectively implement an integrated national strategy that 
fully addresses key characteristics, provides a roadmap for 
resolving identified challenges, articulates a clear process 
for overseeing agency risk management, and assures 
accountability for results.
    This concludes my statement. I'll be happy to answer any 
questions you may have.
    [The prepared statement of Mr. Wilshusen follows:]

   Prepared Statement of Gregory C. Wilshusen, Director, Information 
    Security Issues, United States Government Accountability Office
``Cybersecurity: A Better Defined and Implemented National Strategy is 
               Needed to Address Persistent Challenges''
    Chairmen Rockefeller and Carper, Ranking Members Thune and Coburn, 
and Members of the Committees:

    Thank you for the opportunity to testify at today's hearing on the 
cybersecurity partnership between the private sector and our 
government.
    As you know, with the advance of computer technology, Federal 
agencies and our nation's critical infrastructures--such as the 
electricity grid, water supply, telecommunications, and emergency 
services--have become increasingly dependent on computerized 
information systems and electronic data to carry out operations and 
process, maintain, and report essential information. While bringing 
significant benefits, this dependency can also create vulnerabilities 
to cyber-based threats. Pervasive and sustained cyber attacks against 
the United States could have a potentially serious impact on Federal 
and nonfederal systems and operations. Underscoring the importance of 
this issue, we have designated Federal information security as a high-
risk area since 1997 and in 2003 expanded this area to include 
protecting computerized systems supporting our nation's critical 
infrastructure.\1\
---------------------------------------------------------------------------
    \1\ See most recently, GAO, High-Risk Series: An Update, GAO-13-283 
(Washington, D.C.: Feb. 14, 2013).
---------------------------------------------------------------------------
    Federal law and policy call for a risk-based approach to managing 
cybersecurity within the government and also specify activities to 
enhance the cybersecurity of public and private infrastructures that 
are essential to national security, economic security, and public 
health and safety. Over the last 12 years, the Federal Government has 
developed a number of strategies and plans for addressing cybersecurity 
based on this legal framework, including the National Strategy to 
Secure Cyberspace, issued in February 2003, and subsequent plans and 
strategies that address specific sectors, issues, and revised 
priorities.
    In my testimony today, I will summarize (1) several challenges 
faced by the Federal Government in effectively implementing 
cybersecurity, including complying with the Federal Information 
Security Management Act, and (2) the extent to which the national 
cybersecurity strategy includes key desirable characteristics of 
effective strategies. My statement is based on our recently released 
report examining the Federal Government's cybersecurity strategies and 
the status of Federal efforts to address challenges in implementing 
cybersecurity,\2\ as well as other previous work in this area. (Please 
see app. I for a list of related GAO products.)
---------------------------------------------------------------------------
    \2\ GAO, Cybersecurity: National Strategy, Roles, and 
Responsibilities Need to Be Better Defined and More Effectively 
Implemented, GAO-13-187 (Feb. 14, 2003).
---------------------------------------------------------------------------
    The work on which this statement is based was conducted in 
accordance with generally accepted government auditing standards. Those 
standards require that we plan and perform audits to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provided a reasonable basis for our findings and conclusions 
based on our audit objectives.
Background
    Threats to systems supporting critical infrastructure and Federal 
information systems are evolving and growing. Advanced persistent 
threats--where adversaries possess sophisticated levels of expertise 
and significant resources to pursue their objectives repeatedly over an 
extended period of time--pose increasing risks. In 2009, the President 
declared the cyber threat to be ``[o]ne of the most serious economic 
and national security challenges we face as a nation'' and stated that 
``America's economic prosperity in the 21st century will depend on 
cybersecurity.'' \3\ The Director of National Intelligence has also 
warned of the increasing globalization of cyber attacks, including 
those carried out by foreign militaries or organized international 
crime. In January 2012, he testified that such threats pose a critical 
national and economic security concern.\4\ To further highlight the 
importance of the threat, on October 11, 2012, the Secretary of Defense 
stated that the collective result of attacks on our nation's critical 
infrastructure could be ``a cyber Pearl Harbor; an attack that would 
cause physical destruction and the loss of life.'' \5\
---------------------------------------------------------------------------
    \3\ President Barack Obama, ``Remarks by the President on Securing 
Our Nation's Cyber Infrastructure'' (Washington, D.C.: May 29, 2009).
    \4\ James R. Clapper, Director of National Intelligence, 
``Unclassified Statement for the Record on the Worldwide Threat 
Assessment of the U.S. Intelligence Community for the Senate Select 
Committee on Intelligence'' (January 31, 2012).
    \5\ Secretary of Defense Leon E. Panetta, ``Remarks by Secretary 
Panetta on Cybersecurity to the Business Executives for National 
Security, New York City'' (New York, NY: Oct. 11, 2012).
---------------------------------------------------------------------------
    The evolving array of cyber-based threats facing the nation pose 
threats to national security, commerce and intellectual property, and 
individuals. These threats can be unintentional or intentional. 
Unintentional threats can be caused by software upgrades or defective 
equipment that inadvertently disrupt systems. Intentional threats 
include both targeted and untargeted attacks from a variety of sources. 
These sources include business competitors, corrupt employees, criminal 
groups, hackers, and foreign nations engaged in espionage and 
information warfare. Such threat sources vary in terms of the types and 
capabilities of the actors, their willingness to act, and their 
motives. Table 1 shows common sources of adversarial cybersecurity 
threats.


------------------------------------------------------------------------



        Table 1.--Sources of Adversarial Threats to Cybersecurity
------------------------------------------------------------------------
    Threat source                         Description
------------------------------------------------------------------------
Bot-network operators  Bot-network operators use a network, or bot-net,
                        of compromised, remotely controlled systems to
                        coordinate attacks and to distribute phishing
                        schemes, spam, and malware attacks. The services
                        of these networks are sometimes made available
                        on underground markets (e.g., purchasing a
                        denial-of-service attack or services to relay
                        spam or phishing attacks).
------------------------------------------------------------------------
Business competitors   Companies that compete against or do business
                        with a target company may seek to obtain
                        sensitive information to improve their
                        competitive advantage in various areas, such as
                        pricing, manufacturing, product development, and
                        contracting.
------------------------------------------------------------------------
Criminal groups        Criminal groups seek to attack systems for
                        monetary gain. Specifically, organized criminal
                        groups use spam, phishing, and spyware/malware
                        to commit identity theft, online fraud, and
                        computer extortion.
------------------------------------------------------------------------
Hackers                Hackers break into networks for the thrill of the
                        challenge, bragging rights in the hacker
                        community, revenge, stalking, monetary gain, and
                        political activism, among other reasons. While
                        gaining unauthorized access once required a fair
                        amount of skill or computer knowledge, hackers
                        can now download attack scripts and protocols
                        from the Internet and launch them against victim
                        sites. Thus, while attack tools have become more
                        sophisticated, they have also become easier to
                        use. According to the Central Intelligence
                        Agency, the large majority of hackers do not
                        have the requisite expertise to threaten
                        difficult targets such as critical U.S.
                        networks. Nevertheless, the worldwide population
                        of hackers poses a relatively high threat of an
                        isolated or brief disruption causing serious
                        damage.
------------------------------------------------------------------------
Insiders               The disgruntled organization insider is a
                        principal source of computer crime. Insiders may
                        not need a great deal of knowledge about
                        computer intrusions because their knowledge of a
                        target system often allows them to gain
                        unrestricted access to cause damage to the
                        system or to steal system data. The insider
                        threat includes contractors hired by the
                        organization, as well as careless or poorly
                        trained employees who may inadvertently
                        introduce malware into systems.
------------------------------------------------------------------------
International          International corporate spies pose a threat to
 corporate spies        the United States through their ability to
                        conduct economic and industrial espionage a and
                        large-scale monetary theft and to hire or
                        develop hacker talent.
------------------------------------------------------------------------
Nations                Nations use cyber tools as part of their
                        information-gathering and espionage activities.
                        In addition, several nations are aggressively
                        working to develop information warfare doctrine,
                        programs, and capabilities. Such capabilities
                        enable a single entity to have a significant and
                        serious impact by disrupting the supply,
                        communications, and economic infrastructures
                        that support military power--impacts that could
                        affect the daily lives of citizens across the
                        country. In his January 2012 testimony, the
                        Director of National Intelligence stated that,
                        among state actors, China and Russia are of
                        particular concern.
------------------------------------------------------------------------
Phishers               Individuals or small groups execute phishing
                        schemes in an attempt to steal identities or
                        information for monetary gain. Phishers may also
                        use spam and spyware or malware to accomplish
                        their objectives.
------------------------------------------------------------------------
Spammers               Individuals or organizations distribute
                        unsolicited e-mail with hidden or false
                        information in order to sell products, conduct
                        phishing schemes, distribute spyware or malware,
                        or attack organizations (e.g., a denial of
                        service).
------------------------------------------------------------------------
Spyware or malware     Individuals or organizations with malicious
 authors                intent carry out attacks against users by
                        producing and distributing spyware and malware.
                        Several destructive viruses and worms have
                        harmed files and hard drives, and reportedly
                        have even caused physical damage to critical
                        infrastructure, including the Melissa Macro
                        Virus, the Explore.Zip worm, the CIH (Chernobyl)
                        Virus, Nimda, and Code Red.
------------------------------------------------------------------------
Terrorists             Terrorists seek to destroy, incapacitate, or
                        exploit critical infrastructures in order to
                        threaten national security, cause mass
                        casualties, weaken the economy, and damage
                        public morale and confidence. Terrorists may use
                        phishing schemes or spyware/malware in order to
                        generate funds or gather sensitive information.
------------------------------------------------------------------------
Source: GAO analysis based on data from the Director of National
  Intelligence, Department of Justice, Central Intelligence Agency, and
  the Software Engineering Institute's CERT Coordination Center.
a According to the Office of the National Counterintelligence Executive,
  industrial espionage, or theft of trade secrets, occurs when an actor,
  intending or knowing that his or her offense will injure the owner of
  a trade secret of a product produced for or placed in interstate or
  foreign commerce, acts with the intent to convert that trade secret to
  the economic benefit of anyone other than the owner. See Foreign Spies
  Stealing U.S. Economic Secrets in Cyberspace.


    These sources of cybersecurity threats make use of various 
techniques to compromise information or adversely affect computers, 
software, a network, an organization's operation, an industry, or the 
Internet itself. Table 2 provides descriptions of common types of cyber 
attacks.



------------------------------------------------------------------------



                 Table 2.--Common Types of Cyber Attacks
------------------------------------------------------------------------
   Types of attack                        Description
------------------------------------------------------------------------
Cross-site scripting   An attack that uses third-party web resources to
                        run a script within the victim's web browser or
                        scriptable application. This occurs when a
                        browser visits a malicious website or clicks a
                        malicious link. The most dangerous consequences
                        occur when this method is used to exploit
                        additional vulnerabilities that may permit an
                        attacker to steal cookies (data exchanged
                        between a web server and a browser), log key
                        strokes, capture screen shots, discover and
                        collect network information, and remotely access
                        and control the victim's machine.
------------------------------------------------------------------------
Denial-of-service      An attack that prevents or impairs the authorized
                        use of networks, systems, or applications by
                        exhausting resources.
------------------------------------------------------------------------
Distributed denial-of- A variant of the denial-of-service attack that
 service                uses numerous hosts to perform the attack.
------------------------------------------------------------------------
Logic bombs            A piece of programming code intentionally
                        inserted into a software system that will cause
                        a malicious function to occur when one or more
                        specified conditions are met.
------------------------------------------------------------------------
Phishing               A digital form of social engineering that uses
                        authentic-looking, but fake, e-mails to request
                        information from users or direct them to a fake
                        website that requests information.
------------------------------------------------------------------------
Passive wiretapping    The monitoring or recording of data, such as
                        passwords transmitted in clear text, while they
                        are being transmitted over a communications
                        link. This is done without altering or affecting
                        the data.
------------------------------------------------------------------------
Structured Query       An attack that involves the alteration of a
 Language injection     database search in a web-based application,
                        which can be used to obtain unauthorized access
                        to sensitive information in a database.
------------------------------------------------------------------------
Trojan horse           A computer program that appears to have a useful
                        function, but also has a hidden and potentially
                        malicious function that evades security
                        mechanisms by, for example, masquerading as a
                        useful program that a user would likely execute.
------------------------------------------------------------------------
Virus                  A computer program that can copy itself and
                        infect a computer without the permission or
                        knowledge of the user. A virus might corrupt or
                        delete data on a computer, use e-mail programs
                        to spread itself to other computers, or even
                        erase everything on a hard disk. Unlike a worm,
                        a virus requires human involvement (usually
                        unwitting) to propagate.
------------------------------------------------------------------------
War driving            The method of driving through cities and
                        neighborhoods with a wireless-equipped computer-
                        sometimes with a powerful antenna-searching for
                        unsecured wireless networks.
------------------------------------------------------------------------
Worm                   A self-replicating, self-propagating, self-
                        contained program that uses network mechanisms
                        to spread itself. Unlike viruses, worms do not
                        require human involvement to propagate.
------------------------------------------------------------------------
Source: GAO analysis of data from the National Institute of Standards
  and Technology, United States Computer Emergency Readiness Team, and
  industry reports.


    The unique nature of cyber-based attacks can vastly enhance their 
reach and impact, resulting in the loss of sensitive information and 
damage to economic and national security, the loss of privacy, identity 
theft, and the compromise of proprietary information or intellectual 
property. The increasing number of incidents reported by Federal 
agencies, and the recently reported cyber-based attacks against 
individuals, businesses, critical infrastructures, and government 
organizations have further underscored the need to manage and bolster 
the cybersecurity of our government's information systems and our 
Nation's critical infrastructures.
Number of Cyber Incidents Reported by Federal Agencies Continues to 
        Rise
    The number of cyber incidents affecting computer systems and 
networks continues to rise. Over the past 6 years, the number of cyber 
incidents reported by Federal agencies to the U.S. Computer Emergency 
Readiness Team (US-CERT) has increased from 5,503 in Fiscal Year 2006 
to 48,562 in Fiscal Year 2012, an increase of 782 percent (see fig. 1).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Source: GAO analysis of US-CERT data for fiscal years 2006-2012

    Of the incidents occurring in 2012 (not including those that were 
reported as under investigation), improper usage,\6\ malicious code, 
and unauthorized access were the most widely reported types across the 
Federal Government. As indicated in figure 2, which includes a breakout 
of incidents reported to US-CERT by agencies in Fiscal Year 2012, 
improper usage, malicious code, and unauthorized access accounted for 
55 percent of total incidents reported by agencies.
---------------------------------------------------------------------------
    \6\ An incident is categorized as ``improper usage'' if a person 
violates acceptable computing use policies.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

---------------------------------------------------------------------------
    Source: GAO analysis of US-CERT data for fiscal year 2012.

    In addition, reports of cyber incidents affecting national 
security, intellectual property, and individuals have been widespread, 
with reported incidents involving data loss or theft, economic loss, 
computer intrusions, and privacy breaches. Such incidents illustrate 
the serious impact that cyber attacks can have on Federal and military 
operations; critical infrastructure; and the confidentiality, 
integrity, and availability of sensitive government, private sector, 
and personal information. For example, according to US-CERT, the number 
of agency-reported incidents involving personally identifiable 
information increased 111 percent from Fiscal Year 2009 to Fiscal Year 
2012--from 10,481 to 22,156.
Federal Law and Policy Establish Information Security Responsibilities 
        for Agencies
    The Federal Government's information security responsibilities are 
established in law and policy. The Federal Information Security 
Management Act of 2002 (FISMA) \7\ sets forth a comprehensive risk-
based framework for ensuring the effectiveness of information security 
controls over information resources that support Federal operations and 
assets. In order to ensure the implementation of this framework, FISMA 
assigns specific responsibilities to agencies, the Office of Management 
and Budget (OMB), the National Institute of Standards and Technology 
(NIST), and inspectors general:
---------------------------------------------------------------------------
    \7\ Title III of the E-Government Act of 2002, Pub. L. No. 107-347, 
Dec. 17, 2002; 44 U.S.C 3541, et seq.

  <bullet> Each agency is required to develop, document, and implement 
        an agency-wide information security program and to report 
        annually to OMB, selected congressional committees, and the 
        U.S. Comptroller General on the adequacy of its information 
        security policies, procedures, practices, and compliance with 
---------------------------------------------------------------------------
        requirements.

  <bullet> OMB's responsibilities include developing and overseeing the 
        implementation of policies, principles, standards, and 
        guidelines on information security in Federal agencies (except 
        with regard to national security systems \8\). It is also 
        responsible for reviewing, at least annually, and approving or 
        disapproving agency information security programs.
---------------------------------------------------------------------------
    \8\ As defined in FISMA, the term ``national security system'' 
means any information system used by or on behalf of a Federal agency 
that (1) involves intelligence activities, national security-related 
cryptologic activities, command and control of military forces, or 
equipment that is an integral part of a weapon or weapons system, or is 
critical to the direct fulfillment of military or intelligence missions 
(excluding systems used for routine administrative and business 
applications); or (2) is protected at all times by procedures 
established for handling classified national security information. See 
44 U.S.C. Sec. 3542(b)(2).

  <bullet> NIST's responsibilities under FISMA include the development 
        of security standards and guidelines for agencies that include 
        standards for categorizing information and information systems 
        according to ranges of risk levels, minimum security 
        requirements for information and information systems in risk 
        categories, guidelines for detection and handling of 
        information security incidents, and guidelines for identifying 
        an information system as a national security system.\9\
---------------------------------------------------------------------------
    \9\ FISMA limits NIST to developing, in conjunction with the 
Department of Defense and the National Security Agency, guidelines for 
agencies on identifying an information system as a national security 
system, and for ensuring that NIST standards and guidelines are 
complementary with standards and guidelines developed for national 
security systems.

  <bullet> Agency inspectors general are required to annually evaluate 
        the information security program and practices of their agency. 
        The results of these evaluations are to be submitted to OMB, 
        and OMB is to summarize the results in its reporting to 
---------------------------------------------------------------------------
        Congress.

    In the 10 years since FISMA was enacted into law, Executive Branch 
oversight of agency information security has changed. As part of its 
FISMA oversight responsibilities, OMB has issued annual guidance to 
agencies on implementing FISMA requirements, including instructions for 
agency and inspector general reporting. However, in July 2010, the 
Director of OMB and the White House Cybersecurity Coordinator \10\ 
issued a joint memorandum \11\ stating that the Department of Homeland 
Security (DHS) was to exercise primary responsibility within the 
Executive Branch for the operational aspects of cybersecurity for 
Federal information systems that fall within the scope of FISMA.
---------------------------------------------------------------------------
    \10\ In December 2009, a Special Assistant to the President was 
appointed as Cybersecurity Coordinator to address the recommendations 
made in the Obama administration's 2009 Cyberspace Policy Review.
    \11\ OMB, Memorandum M-10-28, Clarifying Cybersecurity 
Responsibilities and Activities of the Executive Office of the 
President and the Department of Homeland Security (Washington, D.C.: 
July 6, 2010).
---------------------------------------------------------------------------
    The OMB memo also stated that in carrying out these 
responsibilities, DHS is to be subject to general OMB oversight in 
accordance with the provisions of FISMA. In addition, the memo stated 
that the Cybersecurity Coordinator would lead the interagency process 
for cybersecurity strategy and policy development. Subsequent to the 
issuance of M-10-28, DHS began issuing annual reporting instructions to 
agencies in addition to OMB's annual guidance.
    Regarding Federal agencies operating national security systems, 
National Security Directive 42 \12\ established the Committee on 
National Security Systems, an organization chaired by the Department of 
Defense (DOD), to, among other things, issue policy directives and 
instructions that provide mandatory information security requirements 
for national security systems. In addition, the defense and 
intelligence communities develop implementing instructions and may add 
additional requirements where needed. An effort is underway to 
harmonize policies and guidance for national security and non-national 
security systems. Representatives from civilian, defense, and 
intelligence agencies established a joint task force in 2009, led by 
NIST and including senior leadership and subject matter experts from 
participating agencies, to publish common guidance for information 
systems security for national security and non-national security 
systems.\13\
---------------------------------------------------------------------------
    \12\ National Security Directive 42, National Policy for the 
Security of National Security Telecommunications and Information 
Systems (July 5, 1990).
    \13\ See GAO, Information Security: Progress Made in Harmonizing 
Policies and Guidance for National Security and Non-National Security 
Systems, GAO 10 916 (Washington, D.C.: Sept. 15, 2010).
---------------------------------------------------------------------------
    Various laws and directives have also given Federal agencies 
responsibilities relating to the protection of critical 
infrastructures, which are largely owned by private sector 
organizations. The Homeland Security Act of 2002 created the Department 
of Homeland Security. Among other things, DHS was assigned with the 
following critical infrastructure protection responsibilities: (1) 
developing a comprehensive national plan for securing the critical 
infrastructures of the United States, (2) recommending measures to 
protect those critical infrastructures in coordination with other 
groups, and (3) disseminating, as appropriate, information to assist in 
the deterrence, prevention, and preemption of, or response to, 
terrorist attacks.
    Homeland Security Presidential Directive 7 (HSPD-7) was issued in 
December 2003 and defined additional responsibilities for DHS, sector-
specific agencies, and other departments and agencies. The directive 
instructed sector-specific agencies to collaborate with the private 
sector to identify, prioritize, and coordinate the protection of 
critical infrastructures to prevent, deter, and mitigate the effects of 
attacks. It also made DHS responsible for, among other things, 
coordinating national critical infrastructure protection efforts and 
establishing uniform policies, approaches, guidelines, and 
methodologies for integrating Federal infrastructure protection and 
risk management activities within and across sectors.
    On February 12, 2013, the President issued an executive order on 
improving the cybersecurity of critical infrastructure.\14\ Among other 
things, it stated that the policy of the U.S. government is to increase 
the volume, timeliness, and quality of cyber threat information shared 
with U.S. private sector entities and ordered the following actions to 
be taken:
---------------------------------------------------------------------------
    \14\ Exec. Order No. 13636, 78 Fed. Reg. 11737 (Feb. 19, 2013). The 
order is also available at http://www.whitehouse.gov/the-press-office/
2013/02/12/executive-order-improving-critical-infra
structure-cybersecurity.

  <bullet> The Attorney General, the Secretary of Homeland Security, 
        and the Director of National Intelligence are, within 120 days 
        of the date of the order, to issue instructions for producing 
        unclassified reports of cyber threats and establish a process 
---------------------------------------------------------------------------
        for disseminating these reports to targeted entities.

  <bullet> Agencies are to coordinate their activities under the order 
        with their senior agency officials for privacy and civil 
        liberties and ensure that privacy and civil liberties 
        protections are incorporated into such activities. In addition, 
        DHS's Chief Privacy Officer and Officer for Civil Rights and 
        Civil Liberties are to assess the privacy and civil liberties 
        risks and recommend ways to minimize or mitigate such risks in 
        a publicly available report to be released with 1 year of the 
        date of the order.

  <bullet> The Secretary of Homeland Security is to establish a 
        consultative process to coordinate improvements to the 
        cybersecurity of critical infrastructure.

  <bullet> The Secretary of Commerce is to direct the Director of NIST 
        to lead the development of a framework to reduce cyber risks to 
        critical infrastructure. The framework is to include a set of 
        standards, methodologies, procedures, and processes that align 
        policy, business, and technological approaches to address cyber 
        risks and incorporate voluntary consensus standards and 
        industry best practices to the fullest extent possible. The 
        Director is to publish a preliminary version of the framework 
        within 240 days of the date of the order, and a final version 
        within 1 year.

  <bullet> The Secretary of Homeland Security, in coordination with 
        sector-specific agencies, is to establish a voluntary program 
        to support the adoption of the Cybersecurity Framework by 
        owners and operators of critical infrastructure and any other 
        interested entities. Further, the Secretary is to coordinate 
        the establishment of a set of incentives designed to promote 
        participation in the program and, along with the Secretaries of 
        the Treasury and Commerce, make recommendations to the 
        President that include analysis of the benefits and relative 
        effectiveness of such incentives, and whether the incentives 
        would require legislation or can be provided under existing law 
        and authorities.

  <bullet> The Secretary of Homeland Security, within 150 days of the 
        date of the order, is to use a risk-based approach to identify 
        critical infrastructure where a cybersecurity incident could 
        reasonably result in catastrophic regional or national effects 
        on public health or safety, economic security, or national 
        security.

  <bullet> Agencies with responsibilities for regulating the security 
        of critical infrastructure are to consult with DHS, OMB, and 
        the National Security Staff to review the preliminary 
        cybersecurity framework and determine if current cybersecurity 
        regulatory requirements are sufficient given current and 
        projected risks. If current regulatory requirements are deemed 
        to be insufficient, agencies are to propose actions to mitigate 
        cyber risk, as appropriate, within 90 days of publication of 
        the final Cybersecurity Framework. In addition, within 2 years 
        after publication of the final framework, these agencies, in 
        consultation with owners and operators of critical 
        infrastructure, are to report to OMB on any critical 
        infrastructure subject to ineffective, conflicting, or 
        excessively burdensome cybersecurity requirements.

    Also on February 12, 2013, the White House released Presidential 
Policy Directive (PPD) 21, on critical infrastructure security and 
resilience.\15\ This directive revokes HSPD-7, although it states that 
plans developed pursuant to HSPD-7 shall remain in effect until 
specifically revoked or superseded. PPD-21 sets forth roles and 
responsibilities for DHS, sector-specific agencies, and other Federal 
entities with regard to the protection of critical infrastructure from 
physical and cyber threats. It also identifies three strategic 
imperatives to refine and clarify functional relationships across the 
Federal Government (which includes two national critical 
infrastructures centers for physical and cyber infrastructure), enable 
efficient information exchange by identifying baseline data and systems 
requirements, and implement an integration and analysis function to 
inform planning and operational decisions.
---------------------------------------------------------------------------
    \15\ The White House, Presidential Policy Directive/PPD-21, 
Critical Infrastructure Security and Resilience (Feb. 12, 2013), http:/
/www.whitehouse.gov/the-press-office/2013/02/12/presiden
tial-policy-directive-critical-infrastructure-security-and-resil.
---------------------------------------------------------------------------
    The directive calls for a number of specific implementation 
actions, along with associated time frames, which include developing a 
description of the functional relationships within DHS and across the 
Federal Government related to critical infrastructure security and 
resilience; conducting an analysis of the existing public-private 
partnership model; identifying baseline data and system requirements 
for the efficient exchange of information and intelligence; 
demonstrating a near real-time situational awareness capability for 
critical infrastructure; updating the National Infrastructure 
Protection Plan; and developing a national critical infrastructure 
security and resilience research and development plan. Finally, the 
directive identifies 16 critical infrastructure sectors and their 
designated Federal sector-specific agencies.
The Federal Government Continues to Face Challenges in Effectively 
        Implementing Cybersecurity
    We and Federal agency inspector general reports have identified 
challenges in a number of key areas of the Federal Government's 
approach to cybersecurity, including those related to protecting the 
Nation's critical infrastructure. While actions have been taken to 
address aspects of these challenges, issues remain in each of the 
following areas.
    Designing and implementing risk-based cybersecurity programs at 
Federal agencies. Shortcomings persist in assessing risks, developing 
and implementing security controls, and monitoring results at Federal 
agencies. Specifically, for Fiscal Year 2012, 19 of 24 major Federal 
agencies reported that information security control deficiencies were 
either a material weakness or significant deficiency in internal 
controls over financial reporting. Further, inspectors general at 22 of 
24 agencies cited information security as a major management challenge 
for their agency. Most of the 24 major agencies had information 
security weaknesses in most of five key control categories: 
implementing agency-wide information security management programs that 
are critical to identifying control deficiencies, resolving problems, 
and managing risks on an ongoing basis; limiting, preventing, and 
detecting inappropriate access to computer resources; managing the 
configuration of software and hardware; segregating duties to ensure 
that a single individual does not control all key aspects of a 
computer-related operation; and planning for continuity of operations 
in the event of a disaster or disruption (see fig. 3).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Source: GAO analysis of agency, inspectors general, and GAO reports 
as of December 13, 2012.

    As we noted in our October 2011 report on agencies' implementation 
of FISMA requirements, an underlying reason for these weaknesses is 
that agencies have not fully implemented their information security 
programs.\16\ As a result, they have limited assurance that controls 
are in place and operating as intended to protect their information 
resources, thereby leaving them vulnerable to attack or compromise. 
Accordingly, we have continued to make numerous recommendations to 
address specific weaknesses in risk management processes at individual 
Federal agencies. Recently, some agencies have demonstrated improvement 
in this area. For example, we reported in November 2012 that during 
Fiscal Year 2012, the Internal Revenue Service (IRS) continued to make 
important progress in addressing numerous deficiencies in its 
information security controls over its financial reporting systems.\17\ 
Nonetheless, applying effective controls over agency information and 
information systems remains an area of significant concern.
---------------------------------------------------------------------------
    \16\ GAO, Information Security: Weaknesses Continue Amid New 
Federal Efforts to Implement Requirements, GAO-12-137 (Washington, 
D.C.: Oct. 3, 2011).
    \17\ GAO, Financial Audit: IRS's Fiscal Years 2012 and 2011 
Financial Statements, GAO-13-120 (Washington, D.C.: Nov. 9, 2012).
---------------------------------------------------------------------------
    Establishing and identifying standards for critical 
infrastructures. As we reported in December 2011, DHS and other 
agencies with responsibilities for specific critical infrastructure 
sectors have not yet identified cybersecurity guidance applicable to or 
widely used in each of the sectors.\18\ Moreover, sectors vary in the 
extent to which they are required by law or regulation to comply with 
specific cybersecurity requirements. Within the energy sector, for 
example, experts have identified a lack of clarity in the division of 
responsibility between Federal and state regulators as a challenge in 
securing the U.S. electricity grid. We have made recommendations aimed 
at furthering efforts by sector-specific agencies to enhance critical 
infrastructure protection. The recently issued executive order is also 
intended to bolster efforts in this challenge area.
---------------------------------------------------------------------------
    \18\ GAO, Critical Infrastructure Protection: Cybersecurity 
Guidance Is Available, but More Can Be Done to Promote Its Use, GAO-12-
92 (Washington, D.C.: Dec. 9, 2011).
---------------------------------------------------------------------------
    Detecting, responding to, and mitigating cyber incidents. DHS has 
made progress in coordinating the Federal response to cyber incidents, 
but challenges remain in sharing information among Federal agencies and 
key private-sector entities, including critical infrastructure owners. 
Difficulties in sharing information and the lack of a centralized 
information-sharing system continue to hinder progress. The February 
executive order contains provisions aimed at addressing these 
difficulties by, for example, establishing a process for disseminating 
unclassified reports of threat information. Challenges also persist in 
developing a timely cyber analysis and warning capability. While DHS 
has taken steps to establish a timely analysis and warning capability, 
we have reported that it had yet to establish a predictive analysis 
capability and recommended that the department establish such 
capabilities.\19\ According to DHS, tools for predictive analysis are 
to be tested in Fiscal Year 2013.
---------------------------------------------------------------------------
    \19\ GAO, Cyber Analysis and Warning: DHS Faces Challenges in 
Establishing a Comprehensive National Capability, GAO-08-588 
(Washington, D.C.: July 31, 2008).
---------------------------------------------------------------------------
    Promoting education, awareness, and workforce planning. In November 
2011, we reported that Federal agencies leading strategic planning 
efforts for cybersecurity education and awareness had not identified 
details for achieving planned outcomes and that specific tasks and 
responsibilities were unclear.\20\ We recommended, among other things, 
that these agencies collaborate to clarify responsibilities and 
processes for planning and monitoring their activities. We also 
reported that only two of eight agencies in our review had developed 
cyber workforce plans, and only three of the eight agencies had a 
department-wide training program for their cybersecurity workforce. We 
recommended that these agencies take steps to improve agency and 
government-wide cybersecurity workforce efforts. Agencies concurred 
with the majority of our recommendations and outlined steps to address 
them.
---------------------------------------------------------------------------
    \20\ GAO, Cybersecurity Human Capital: Initiatives Need Better 
Planning and Coordination, GAO-12-8 (Washington, D.C.: Nov. 29, 2011).
---------------------------------------------------------------------------
    Supporting cyber research and development. The support of targeted 
cyber research and development (R&D) has been impeded by implementation 
challenges among Federal agencies. In June 2010, we reported that R&D 
initiatives were hindered by limited sharing of detailed information 
about ongoing research, including the lack of a process for sharing 
results of completed projects or a repository to track R&D projects 
funded by the Federal Government.\21\ To help facilitate information 
sharing about planned and ongoing R&D projects, we recommended 
establishing a mechanism for tracking ongoing and completed Federal 
cybersecurity R&D projects and their funding, and that this mechanism 
be used to develop an ongoing process to share R&D information among 
Federal agencies and the private sector. As of September 2012, this 
mechanism had not been fully developed.
---------------------------------------------------------------------------
    \21\ GAO, Cybersecurity: Key Challenges Need to Be Addressed to 
Improve Research and Development, GAO-10-466 (June 3, 2010).
---------------------------------------------------------------------------
    Securing the use of new technologies. Addressing security concerns 
related to the use of emerging technologies such as cloud computing, 
social media, and mobile devices is a continuing challenge. In May 
2010, we reported that Federal agencies had not taken adequate steps to 
ensure that security concerns were addressed in their use of cloud-
based services, and made several recommendations to address cloud 
computing security, which agencies have begun to implement.\22\ 
Further, we reported in June 2011 that Federal agencies did not always 
have adequate policies in place for managing and protecting information 
they access and disseminate through social media platforms such as 
Facebook and Twitter and recommended that agencies develop such 
policies.\23\ Most of the agencies agreed with our recommendations. In 
September 2012, we reported that the U.S. Federal Communications 
Commission could do more to encourage mobile device manufacturers and 
wireless carriers to implement a more complete industry baseline of 
mobile security safeguards.\24\ The commission generally concurred with 
our recommendations.
---------------------------------------------------------------------------
    \22\ GAO, Information Security: Federal Guidance Needed to Address 
Control Issues with Implementing Cloud Computing, GAO-10-513 
(Washington, D.C.: May 27, 2010).
    \23\ GAO, Social Media: Federal Agencies Need Policies and 
Procedures for Managing and Protecting Information They Access and 
Disseminate, GAO-11-605 (Washington, D.C.: June 28, 2011).
    \24\ GAO, Information Security: Better Implementation of Controls 
for Mobile Devices Should Be Encouraged, GAO-12-757 (Washington, D.C.: 
Sept. 18, 2012).
---------------------------------------------------------------------------
    Managing risks to the global information technology supply chain. 
Reliance on a global supply chain for information technology products 
and services introduces risks to systems, and Federal agencies have not 
always addressed these risks. Specifically, in March 2012, we reported 
that four national security-related agencies varied in the extent to 
which they had defined supply chain protection measures for their 
information systems and were not in a position to develop implementing 
procedures and monitoring capabilities for such measures.\25\ We 
recommended that the agencies take steps as needed to address supply 
chain risks, and the departments generally concurred.
---------------------------------------------------------------------------
    \25\ GAO, IT Supply Chain: National Security-Related Agencies Need 
to Better Address Risks, GAO-12-361 (Washington, D.C.: Mar. 23, 2012).
---------------------------------------------------------------------------
    Addressing international cybersecurity challenges. While the 
Federal Government has identified the importance of international 
cooperation for cybersecurity and has assigned related roles and 
responsibilities to Federal agencies, its approach to addressing 
international aspects of cybersecurity has not been fully defined or 
implemented. We reported in July 2010 that the government faced a 
number of challenges in this area, relating to providing top-level 
leadership to coordinate actions among agencies, developing a national 
strategy, coordinating policy among key Federal entities, ensuring that 
international technical standards and policies do not impose 
unnecessary trade barriers, participating in international cyber-
incident response efforts, investigating and prosecuting international 
cybercrime, and developing international models and norms for 
behavior.\26\ We recommended that the government develop a global 
cyberspace strategy to help address these challenges. While such a 
strategy has been developed and includes goals such as the development 
of international cyberspace norms, it does not fully specify outcome-
oriented performance metrics or timeframes for completing activities.
---------------------------------------------------------------------------
    \26\ GAO, Cyberspace: United States Faces Challenges in Addressing 
Global Cybersecurity and Governance, GAO-10-606 (Washington, D.C.: July 
2, 2010).
---------------------------------------------------------------------------
The U.S. National Cybersecurity Strategy Has Evolved over Time but Is 
        Not Well Defined
    The Federal Government has issued a variety of documents over the 
last decade that were intended to articulate a national cybersecurity 
strategy. The evolution of the Nation's cybersecurity strategy is 
summarized in figure 4.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Source: GAO analysis of federal strategy documents.

    These strategy documents address aspects of the above-mentioned 
challenge areas. For example, they address priorities for enhancing 
cybersecurity within the Federal Government as well as for encouraging 
improvements in the cybersecurity of critical infrastructures within 
the private sector.
    However, as we noted in our February 2013 report, the government 
has not developed an overarching national cybersecurity strategy that 
synthesizes the relevant portions of these documents or provides a 
comprehensive description of the current strategy.\27\ The Obama 
administration's 2009 Cyberspace Policy Review recommended a number of 
actions, including updating the 2003 National Cybersecurity Strategy. 
However, no updated strategy document has been issued. In May 2011, the 
White House announced that it had completed all the near-term actions 
outlined in the 2009 policy review, including the update to the 2003 
national strategy. According to the administration's fact sheet on 
cybersecurity accomplishments,\28\ the 2009 policy review itself serves 
as the updated strategy. The fact sheet stated that the direction and 
needs highlighted in the Cyberspace Policy Review and the previous 
national cybersecurity strategy were still relevant, and it noted that 
the administration had updated its strategy on two subordinate cyber 
issues, identity management and international engagement. Nonetheless, 
these actions do not fulfill the recommendation that an updated 
strategy be prepared for the President's approval. As a result, no 
overarching strategy exists to show how the various goals and 
activities articulated in current documents form an integrated 
strategic approach.
---------------------------------------------------------------------------
    \27\ GAO-13-187.
    \28\ The White House, ``Fact Sheet: The Administration's 
Cybersecurity Accomplishments'' (May 12, 2011), accessed on July 26, 
2012, http://www.whitehouse.gov/the-press-office/2011/05/12/fact-sheet-
administrations-cybersecurity-accomplishments.
---------------------------------------------------------------------------
    In addition to lacking an integrated strategy, the government's 
current approach to cybersecurity lacks key desirable characteristics 
of a national strategy. In 2004, we developed a set of desirable 
characteristics that can enhance the usefulness of national strategies 
in allocating resources, defining policies, and helping to ensure 
accountability.\29\ Table 3 summarizes these key desirable 
characteristics.
---------------------------------------------------------------------------
    \29\ See GAO, Combating Terrorism: Evaluation of Selected 
Characteristics in National Strategies Related to Terrorism, GAO-04-
408T (Washington, D.C.: Feb. 3, 2004).



--------------------------------------------------------------------------



       Table 3.--Desirable Characteristics for a National Strategy
------------------------------------------------------------------------
       Desirable
    characteristic                         Description
------------------------------------------------------------------------
Purpose, scope, and     Addresses why the strategy was produced, the
 methodology             scope of its coverage, and the process by which
                         it was developed.
------------------------------------------------------------------------
Problem definition and  Addresses the particular national problems and
 risk assessment         threats the strategy is directed toward.
------------------------------------------------------------------------
Goals, subordinate      Addresses what the strategy is trying to achieve
 objectives,             and steps to achieve those results, as well as
 activities, and         the priorities, milestones, and performance
 performance measures    measures to gauge results.
------------------------------------------------------------------------
Resources,              Addresses what implementation of the strategy
 investments, and risk   will cost, the sources and types of resources
 management              and investments needed, and where resources and
                         investments should be targeted based on
                         balancing risk reductions with costs.
------------------------------------------------------------------------
Organizational roles,   Addresses who will be implementing the strategy,
 responsibilities, and   what their roles will be compared to others,
 coordination            and mechanisms for them to coordinate their
                         efforts.
------------------------------------------------------------------------
Linkage to other        Addresses how a national strategy relates to
 strategies and          other strategies' goals, objectives, and
 implementation          activities, and to subordinate levels of
                         government and their plans to implement the
                         strategy.
------------------------------------------------------------------------
Source: GAO.


    Existing cybersecurity strategy documents have included selected 
elements of these desirable characteristics, such as setting goals and 
subordinate objectives, but have generally lacked other key elements. 
The missing elements include the following:

        Milestones and performance measures. The government's strategy 
        documents include few milestones or performance measures, 
        making it difficult to track progress in accomplishing stated 
        goals and objectives. This lack of milestones and performance 
        measures at the strategic level is mirrored in similar 
        shortcomings within key programs that are part of the 
        government-wide strategy. For example, in 2011 the DHS 
        inspector general recommended that the department develop and 
        implement performance measures to track and evaluate the 
        effectiveness of actions defined in its strategic plan,\30\ 
        which the department had yet to do as of January 2012.
---------------------------------------------------------------------------
    \30\ DHS, Office of Inspector General, Planning, Management, and 
Systems Issues Hinder DHS' Efforts to Protect Cyberspace and the 
Nation's Cyber Infrastructure, OIG-11-89 (Washington, D.C.: June 2011).

        Cost and resources. While past strategy documents linked 
        certain activities to Federal agency budget requests, none have 
        fully addressed cost and resources, including justifying the 
        required investment, which is critical to gaining support for 
        implementation. Specifically, none of the strategy documents 
        provided full assessments of anticipated costs and how 
---------------------------------------------------------------------------
        resources might be allocated to meet them.

        Roles and responsibilities. Cybersecurity strategy documents 
        have assigned high-level roles and responsibilities but have 
        left important details unclear. Several GAO reports have 
        likewise demonstrated that the roles and responsibilities of 
        key agencies charged with protecting the cyber assets of the 
        United States are inadequately defined. For example, the 
        chartering directives for several offices within the Department 
        of Defense assign overlapping roles and responsibilities for 
        preparing for and responding to domestic cyber incidents. In an 
        October 2012 report, we recommended that the department update 
        its guidance on preparing for and responding to domestic cyber 
        incidents to include a description of roles and 
        responsibilities.\31\ Further, in March 2010, we reported that 
        agencies had overlapping and uncoordinated responsibilities 
        within the Comprehensive National Cybersecurity Initiative and 
        recommended that OMB better define roles and responsibilities 
        for all key participants.\32\
---------------------------------------------------------------------------
    \31\ GAO, Homeland Defense: DOD Needs to Address Gaps in Homeland 
Defense and Civil Support Guidance, GAO-13-128 (Washington, D.C.: Oct. 
24, 2012).
    \32\ GAO, Cybersecurity: Progress Made but Challenges Remain in 
Defining and Coordinating the Comprehensive National Initiative, GAO-
10-338 (Washington, D.C.: Mar. 5, 2010).

        In addition, while the law gives OMB responsibility for 
        oversight of Federal information security, OMB transferred 
        several of its oversight responsibilities to DHS. OMB officials 
        stated that enlisting DHS to perform these responsibilities has 
        allowed OMB to have more visibility into agencies' 
        cybersecurity activities because of the additional resources 
        and expertise provided by DHS. While OMB's decision to transfer 
        these responsibilities is not consistent with FISMA, it may 
        have had beneficial practical results, such as leveraging 
        resources from DHS. Nonetheless, with these responsibilities 
        now divided between the two organizations, it is remains 
        unclear how they are to share oversight of individual 
        departments and agencies. Additional legislation could clarify 
---------------------------------------------------------------------------
        these responsibilities.

        Linkage with other key strategy documents. Existing 
        cybersecurity strategy documents vary in terms of priorities 
        and structure, and do not specify how they link to or supersede 
        other documents. Nor do they describe how they fit into an 
        overarching national cybersecurity strategy. For example, in 
        2012, the Obama administration identified three cross-agency 
        cybersecurity priorities, but no explanation was given as to 
        how these priorities related to those established in other 
        strategy documents.
Actions Needed to Ensure More Effective Implementation of Cybersecurity
    Given the range and sophistication of the threats and potential 
exploits that confront government agencies and the Nation's cyber 
critical infrastructure, it is critical that the government adopt a 
comprehensive strategic approach to mitigating the risks of successful 
cybersecurity attacks. In our February report, we recommended that the 
White House Cybersecurity Coordinator develop an overarching Federal 
cybersecurity strategy that includes all key elements of the desirable 
characteristics of a national strategy.\33\ Such a strategy, we 
believe, will provide a more effective framework for implementing 
cybersecurity activities and better ensure that such activities will 
lead to progress in securing systems and information. This strategy 
should also better ensure that Federal Government departments and 
agencies are held accountable for making significant improvements in 
cybersecurity challenge areas by, among other things, clarifying how 
oversight will be carried out by OMB and other Federal entities. In the 
absence of such an integrated strategy, the documents that comprise the 
government's current strategic approach are of limited value as a tool 
for mobilizing actions to mitigate the most serious threats facing the 
Nation.
---------------------------------------------------------------------------
    \33\ GAO-13-187.
---------------------------------------------------------------------------
    In addition, many of the recommendations previously made by us and 
agency inspectors general have not yet been fully addressed, leaving 
much room for more progress in addressing cybersecurity challenges. In 
many cases, the causes of these challenges are closely related to the 
key elements that are missing from the government's cybersecurity 
strategy. For example, the persistence of shortcomings in agency 
cybersecurity risk management processes indicates that agencies have 
not been held accountable for effectively implementing such processes 
and that oversight mechanisms have not been clear. It is just such 
oversight and accountability that is poorly defined in cybersecurity 
strategy documents.
    In light of this limited oversight and accountability, we also 
stated in our report that Congress should consider legislation to 
better define roles and responsibilities for implementing and 
overseeing Federal information security programs and protecting the 
Nation's critical cyber assets. Such legislation could clarify the 
respective responsibilities of OMB and DHS, as well as those of other 
key Federal departments and agencies.
    In commenting on a draft of the report, the Executive Office of the 
President agreed that more needs to be done to develop a coherent and 
comprehensive strategy on cybersecurity but did not believe producing 
another strategy document would be beneficial. Specifically, the office 
stated that remaining flexible and focusing on achieving measurable 
improvements in cybersecurity would be more beneficial than developing 
``yet another strategy on top of existing strategies.'' We agree that 
flexibility and a focus on achieving measurable improvements in 
cybersecurity is critically important and that simply preparing another 
document, if not integrated with previous documents, would not be 
helpful. The focus of our recommendation is to develop an overarching 
strategy that integrates the numerous strategy documents, establishes 
milestones and performance measures, and better ensures that Federal 
departments and agencies are held accountable for making significant 
improvements in cybersecurity challenge areas. The Executive Office of 
the President also agreed that Congress should consider enhanced 
cybersecurity legislation that addresses information sharing and 
baseline standards for critical infrastructure, among other things.
    In summary, addressing the ongoing challenges in implementing 
effective cybersecurity within the government, as well as in 
collaboration with the private sector and other partners, requires the 
Federal Government to define and implement a coherent and comprehensive 
national strategy that includes key desirable elements and provides 
accountability for results. Recent efforts, such as the 2012 cross-
agency priorities and the executive order on improving cybersecurity 
for critical infrastructure, could provide parts of a strategic 
approach. For example, the executive order includes actions aimed at 
addressing challenges in developing standards for critical 
infrastructure and sharing information, in addition to assigning 
specific responsibilities to specific individuals that are to be 
completed within specific timeframes, thus providing clarity of 
responsibility and a means for establishing accountability. However, 
these efforts need to be integrated into an overarching strategy that 
includes a clearer process for oversight of agency risk management and 
a roadmap for improving the cybersecurity challenge areas in order for 
the government to make significant progress in furthering its strategic 
goals and lessening persistent weaknesses.
    Chairmen Rockefeller and Carper, Ranking Members Thune and Coburn, 
and Members of the Committees, this concludes my statement. I would be 
happy to answer any questions you may have.
GAO Contacts and Acknowledgments
    If you have any questions regarding this statement, please contact 
Gregory C. Wilshusen (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a8dfc1c4dbc0dddbcdc6cfe8cfc9c786cfc7de">[email&#160;protected]</a>) or Dr. Nabajyoti Barkakati 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="294b485b424842485d4047694e4846074e465f">[email&#160;protected]</a>). Other key contributors to this statement include 
John de Ferrari (Assistant Director), Richard B. Hung (Assistant 
Director), Nicole Jarvis, Lee McCracken, David F. Plocher, and Jeffrey 
Woodward.
                    Appendix I: Related GAO Products
    Cybersecurity: National Strategy, Roles, and Responsibilities Need 
to Be Better Defined and More Effectively Implemented. GAO-13-187. 
Washington, D.C.: February 14, 2013.

    High-Risk Series: An Update. GAO-13-283. Washington, D.C.: February 
14, 2013.

    Information Security: Federal Communications Commission Needs to 
Strengthen Controls over Enhanced Secured Network Project. GAO-13-155. 
Washington, D.C.: January 25, 2013.

    Information Security: Actions Needed by Census Bureau to Address 
Weaknesses. GAO-13-63. Washington, D.C.: January 22, 2013.

    Information Security: Better Implementation of Controls for Mobile 
Devices Should Be Encouraged. GAO-12-757. Washington, D.C.: September 
18, 2012.

    Mobile Device Location Data: Additional Federal Actions Could Help 
Protect Consumer Privacy. GAO-12-903. Washington, D.C.: September 11, 
2012.

    Medical Devices: FDA Should Expand Its Consideration of Information 
Security for Certain Types of Devices. GAO-12-816. August 31, 2012.

    Cybersecurity: Challenges in Securing the Electricity Grid. GAO-12-
926T. Washington, D.C.: July 17, 2012.

    Electronic Warfare: DOD Actions Needed to Strengthen Management and 
Oversight. GAO-12-479. Washington, D.C.: July 9, 2012.

    Information Security: Cyber Threats Facilitate Ability to Commit 
Economic Espionage. GAO-12-876T. Washington, D.C.: June 28, 2012.

    Cybersecurity: Threats Impacting the Nation. GAO-12-666T. 
Washington, D.C.: April 24, 2012.

    IT Supply Chain: National Security-Related Agencies Need to Better 
Address Risks. GAO-12-361. Washington, D.C.: March 23, 2012.

    Information Security: IRS Needs to Further Enhance Internal Control 
over Financial Reporting and Taxpayer Data. GAO-12-393. Washington, 
D.C.: March 16, 2012.

    Cybersecurity: Challenges in Securing the Modernized Electricity 
Grid. GAO-12-507T. Washington, D.C.: February 28, 2012.

    Critical Infrastructure Protection: Cybersecurity Guidance Is 
Available, but More Can Be Done to Promote Its Use. GAO-12-92. 
Washington, D.C.: December 9, 2011.

    Cybersecurity Human Capital: Initiatives Need Better Planning and 
Coordination. GAO-12-8. Washington, D.C.: November 29, 2011.

    Information Security: Additional Guidance Needed to Address Cloud 
Computing Concerns. GAO-12-130T. Washington, D.C.: October 6, 2011.

    Information Security: Weaknesses Continue Amid New Federal Efforts 
to Implement Requirements. GAO-12-137. Washington, D.C.: October 3, 
2011.

    Personal ID Verification: Agencies Should Set a Higher Priority on 
Using the Capabilities of Standardized Identification Cards. GAO-11-
751. Washington, D.C.: September 20, 2011.

    Information Security: FDIC Has Made Progress, but Further Actions 
Are Needed to Protect Financial Data. GAO-11-708. Washington, D.C.: 
August 12, 2011.

    Cybersecurity: Continued Attention Needed to Protect Our Nation's 
Critical Infrastructure. GAO-11-865T. Washington, D.C.: July 26, 2011.

    Defense Department Cyber Efforts: DOD Faces Challenges in Its Cyber 
Activities. GAO-11-75. Washington, D.C.: July 25, 2011.

    Information Security: State Has Taken Steps to Implement a 
Continuous Monitoring Application, but Key Challenges Remain. GAO-11-
149. Washington, D.C.: July 8, 2011.

    Social Media: Federal Agencies Need Policies and Procedures for 
Managing and Protecting Information They Access and Disseminate. GAO-
11-605. Washington, D.C.: June 28, 2011.

    Cybersecurity: Continued Attention Needed to Protect Our Nation's 
Critical Infrastructure and Federal Information Systems. GAO-11-463T. 
Washington, D.C.: March 16, 2011.

    Information Security: IRS Needs to Enhance Internal Control Over 
Financial Reporting and Taxpayer Data. GAO-11-308. Washington, D.C.: 
March 15, 2011.

    Electricity Grid Modernization: Progress Being Made on 
Cybersecurity Guidelines, but Key Challenges Remain to Be Addressed. 
GAO-11-117. Washington, D.C.: January 12, 2011.

    Information Security: National Nuclear Security Administration 
Needs to Improve Contingency Planning for Its Classified Supercomputing 
Operations. GAO-11-67. Washington, D.C.: December 9, 2010.

    Information Security: Federal Agencies Have Taken Steps to Secure 
Wireless Networks, but Further Actions Can Mitigate Risk. GAO-11-43. 
Washington, D.C.: November 30, 2010.

    Information Security: Federal Deposit Insurance Corporation Needs 
to Mitigate Control Weaknesses. GAO-11-29. Washington, D.C.: November 
30, 2010.

    Information Security: National Archives and Records Administration 
Needs to Implement Key Program Elements and Controls. GAO-11-20. 
Washington, D.C.: October 21, 2010.

    Cyberspace Policy: Executive Branch Is Making Progress Implementing 
2009 Policy Review Recommendations, but Sustained Leadership Is Needed. 
GAO-11-24. Washington, D.C.: October 6, 2010.

    Information Security: Progress Made on Harmonizing Policies and 
Guidance for National Security and Non-National Security Systems. GAO-
10-916. Washington, D.C.: September 15, 2010.

    Information Management: Challenges in Federal Agencies' Use of Web 
2.0 Technologies. GAO-10-872T. Washington, D.C.: July 22, 2010.

    Critical Infrastructure Protection: Key Private and Public Cyber 
Expectations Need to Be Consistently Addressed. GAO-10-628. Washington, 
D.C.: July 15, 2010.

    Cyberspace: United States Faces Challenges in Addressing Global 
Cybersecurity and Governance. GAO-10-606. Washington, D.C.: July 2, 
2010.

    Information Security: Governmentwide Guidance Needed to Assist 
Agencies in Implementing Cloud Computing. GAO-10-855T. Washington, 
D.C.: July 1, 2010.

    Cybersecurity: Continued Attention Is Needed to Protect Federal 
Information Systems from Evolving Threats. GAO-10-834T. Washington, 
D.C.: June 16, 2010.

    Cybersecurity: Key Challenges Need to Be Addressed to Improve 
Research and Development. GAO-10-466. Washington, D.C.: June 3, 2010.

    Information Security: Federal Guidance Needed to Address Control 
Issues with Implementing Cloud Computing. GAO-10-513. Washington, D.C.: 
May 27, 2010.

    Information Security: Opportunities Exist for the Federal Housing 
Finance Agency to Improve Control. GAO-10-528. Washington, D.C.: April 
30, 2010.

    Information Security: Concerted Response Needed to Resolve 
Persistent Weaknesses. GAO-10-536T.Washington, D.C.: March 24, 2010.

    Information Security: IRS Needs to Continue to Address Significant 
Weaknesses. GAO-10-355. Washington, D.C.: March 19, 2010.

    Information Security: Concerted Effort Needed to Consolidate and 
Secure Internet Connections at Federal Agencies. GAO-10-237. 
Washington, D.C.: March 12, 2010.

    Information Security: Agencies Need to Implement Federal Desktop 
Core Configuration Requirements. GAO-10-202. Washington, D.C.: March 
12, 2010.

    Cybersecurity: Progress Made but Challenges Remain in Defining and 
Coordinating the Comprehensive National Initiative. GAO-10-338. 
Washington, D.C.: March 5, 2010.

    Critical Infrastructure Protection: Update to National 
Infrastructure Protection Plan Includes Increased Emphasis on Risk 
Management and Resilience. GAO-10-296. Washington, D.C.: March 5, 2010.

    Department of Veterans Affairs' Implementation of Information 
Security Education Assistance Program. GAO-10-170R. Washington, D.C.: 
December 18, 2009.

    Cybersecurity: Continued Efforts Are Needed to Protect Information 
Systems from Evolving Threats. GAO-10-230T. Washington, D.C.: November 
17, 2009.

    Information Security: Concerted Effort Needed to Improve Federal 
Performance Measures. GAO-10-159T. Washington, D.C.: October 29, 2009.

    Critical Infrastructure Protection: OMB Leadership Needed to 
Strengthen Agency Planning Efforts to Protect Federal Cyber Assets. 
GAO-10-148. Washington, D.C.: October 15, 2009.

    Information Security: NASA Needs to Remedy Vulnerabilities in Key 
Networks. GAO-10-4. Washington, D.C.: October 15, 2009.

    Information Security: Actions Needed to Better Manage, Protect, and 
Sustain Improvements to Los Alamos National Laboratory's Classified 
Computer Network. GAO-10-28. Washington, D.C.: October 14, 2009.

    Critical Infrastructure Protection: Current Cyber Sector-Specific 
Planning Approach Needs Reassessment. GAO-09-969. Washington, D.C.: 
September 24, 2009.

    Information Security: Federal Information Security Issues. GAO-09-
817R. Washington, D.C.: June 30, 2009.

    Information Security: Concerted Effort Needed to Improve Federal 
Performance Measures. GAO-09-617. Washington, D.C.: September 14, 2009.

    Information Security: Agencies Continue to Report Progress, but 
Need to Mitigate Persistent Weaknesses. GAO-09-546. Washington, D.C.: 
July 17, 2009.

    National Cybersecurity Strategy: Key Improvements Are Needed to 
Strengthen the Nation's Posture. GAO-09-432T. Washington, D.C.: March 
10, 2009.

    Information Technology: Federal Laws, Regulations, and Mandatory 
Standards to Securing Private Sector Information Technology Systems and 
Data in Critical Infrastructure Sectors. GAO-08-1075R. Washington, 
D.C.: September 16, 2008.

    Cyber Analysis and Warning: DHS Faces Challenges in Establishing a 
Comprehensive National Capability. GAO-08-588. Washington, D.C.: July 
31, 2008.

    Information Security: Federal Agency Efforts to Encrypt Sensitive 
Information Are Under Way, but Work Remains. GAO-08-525. Washington, 
D.C.: June 27, 2008.

    Privacy: Lessons Learned about Data Breach Notification. GAO-07-
657. Washington, D.C.: April 30, 2007.

    Chairman Rockefeller. Thank you very much.
    This could be to either of you, or both of you. And this is 
on the question of what I consider a desperately bad situation, 
in terms of trained work force, for cybersecurity across the 
nation.
    I was with a business executive, who's a very good friend 
of mine, whose company I know very well, and he came in to see 
me, not about this subject, but about what his company had a 
concern about. And I asked him, ``So, how are you fixed to take 
care of yourself on cybersecurity?'' And he's, ``We're fine.'' 
He said, ``We're fine.''
    I don't want to be a psychiatrist, but I know him well 
enough--you can read body language, you can read voice 
inflection--and I really didn't believe that he meant to say 
that. I think he meant to say it, but I didn't believe it. 
There wasn't any demonstrated interest in it. His was one of 
the most vulnerable of all industries that could be affected 
by, you know, attacks--cyber attacks. And so, I didn't say 
anything about it, but I just--I noted, in my mind, that there 
was a lack of self-confidence, the lack of interest, and it 
wasn't believable. And, of course, I might have been absolutely 
wrong.
    But, that just leads me to this question. There are so many 
huge things that we have to do in cybersecurity, but none of 
them come to anything unless there is a workforce out there 
which is trained, and trained to the specificity of everything 
from, you know, standards to what do you do about intellectual 
property--I mean, just the whole range. And, you know, sort of 
like when we were starting with the E-Rate or the Internet. I 
mean, people didn't know anything about it. They knew it was 
important, but they didn't know anything about it. Then, 
gradually, that took hold.
    What, in your mind, should be done to get our country up to 
speed on training cybersecurity workforce?
    Mr. Wilshusen. Well, I guess I'll take first stab at it. I 
think you're absolutely correct, this is an issue for the 
nation and certainly for the Federal workforce. We did a review 
and issued a report, last year, on human-capital workforce 
issues as it relates to cybersecurity. We did work at several 
agencies. One of the key themes that we identified is that, 
while agencies were generally able to fill many of their 
information security positions, they had the most challenge in 
identifying those individuals that had the technical skills in 
order to effectively implement security at a technical level.
    There are a couple of initiatives underway that are 
intended to help improve the cyber workforce, to ensure better 
training of individuals, as well as to improve societal 
knowledge of cybersecurity, beginning early on, through K-12 
and onward. One of them is the National Initiative for 
Cybersecurity Education that's run by DHS and NIST, who are key 
partners in that particular effort.
    Chairman Rockefeller. So, they put it into early 
curriculum.
    Mr. Wilshusen. Yes. And that's one of the areas where the 
younger generation's probably more technically literate than I 
was at that time, and include it in curriculum early on, and 
carry throughout their education.
    And then, within the Federal workforce, make sure we have 
the appropriate technical training and expertise that we can 
develop and grow our own workforce to address the cybersecurity 
challenges of today.
    Chairman Rockefeller. OK. Well, the Feds are part of it, 
private sector is another part of it.
    Mr. Kepler. Yes. What I would say is, when you look at the 
force we've had to put in our company, it's very technically-
oriented, in terms of engineers, computer scientists. And I 
think the key thing the country needs to do, in general, is 
still foster the development of that kind of capability. And 
we're short of that, not only cybersecurity, but in a lot of 
the aspects of the science and technology that we need, to 
compete globally.
    I think some of the early challenges has been that people 
have addressed this as purely an enforcement issue, and so the 
basis has been more security oriented than the technology 
underlying in content. And so, it's a mix of people who have 
thought about this from an enforcement point of view.
    But, I think the general view of--the skills are going to 
change over time; they change, year over year, what we have to 
address. So, having grounded background in computer technology, 
in science and math, these are the things that you need to get 
people to work on to solve these problems. But, I think the 
company--or, country can do well, invested in that in a lot of 
different aspects of our prosperity.
    Chairman Rockefeller. So, if you do everything you want to 
do, how many years will it take for Dow, which is, obviously, 
one of the most sophisticated companies in the country, to get 
to where you want to be on work force security?
    Mr. Kepler. With work--I think we can hire the--you know, 
with paying a premium for that. We have almost 150 people, now, 
between direct people and contractors, that work in this space. 
It's getting the workforce for, actually, the next generation 
and the next decade to compete and work in our plants and our 
laboratories. And I think that's a critical issue for the 
government that's going to take a decade to address, Senator.
    Chairman Rockefeller. Which is where we've got to educate--
--
    Mr. Kepler. Yes.
    Chairman Rockefeller.--how dangerous this is.
    Thank you.
    Mr. Chairman.
    Chairman Carper. Thanks. Thanks, Senator Rockefeller.
    Mr. Wilshusen, Senator Coburn suggested you'd be a good 
witness, and, boy, he was right.
    And, Mr. Kepler, I think you may have been invited by 
Senator Thune, as I understand it, and we thank him for 
inviting you, and you for coming. We're honored, in Delaware, 
that Dow has a significant presence in our state, and think of 
you as a--we're fortunate to have you as one of our corporate 
citizens.
    I think the first question I'm going to ask would be for 
either of them, but maybe we start with Mr. Wilshusen, if I 
could.
    You have a disadvantage, you and the colleagues that you 
recognize. Not necessarily--not everybody recognizes the team 
that helped put together an effort, and I know a lot of people 
were involved in this; we've got great people at GAO, and we 
thank you for all that you all do to help us do our jobs--but, 
had the disadvantage of preparing your report, which you 
released recently, before the administration, sort of, showed 
their hand on the Executive order. And just--if you had known 
what the Executive order was going to look like, and maybe had 
the benefit of this kind of testimony from the Secretary and 
from Mr. Gallagher, what would you have--how would your report 
have changed, if at all? I think it might have changed some, 
but your--in your testimony today, how might it have changed a 
bit?
    Mr. Wilshusen. Well, actually I don't know if our report 
would change much, other than to identify the Executive order 
as another strategy-related document that has been developed by 
the administration. The Executive order certainly addresses one 
of the key challenge areas that we have identified in the past, 
in terms of identifying and establishing standards for 
cybersecurity in the critical infrastructures. And it also will 
help, in terms of another challenge, as it relates to providing 
and sharing information to, particularly, those in the private 
sector.
    But, it's part of an overall strategy, though. It's still, 
like other strategy documents, focused on just one component of 
an overall national strategy. We still believe that the White 
House cybersecurity coordinator should develop an overarching 
strategy that integrates this Executive order with the other 
strategies.
    One of the positive things that we noted with the Executive 
order is that it does assign specific responsibilities to 
individuals. And that's a plus. It also gives them specific 
deadlines in order to perform those activities. That's another 
plus. But, it still remains to be seen, in terms of the extent 
to which there's follow through to make sure that those 
activities are implemented, and implemented effectively.
    Chairman Carper. OK. Well, my hope is, before we're done, 
and we have done our job on the legislative side, that--or, you 
put the two together, what the administration has laid out and 
suggested and what we have done, hopefully, in response, to 
kind of fill out the package--that you'll say, ``Yes, that's a 
pretty good strategy, and now the key is to implement it 
well.''
    If I could, Mr. Kepler, the--I think you mentioned the word 
``protection,'' the kind of--you or maybe one of our earlier 
witnesses talked about the kind of protections that--whether 
it's the chemical industry, whether it's other segments of our 
business industry, that they're looking for needing--I asked 
Secretary Napolitano about liability--punitive, general, other 
kinds of liability protection. She mentioned that there's more 
than just liability that can be afforded as an incentive or a 
protection for the--for industry. She mentioned--oh, gosh, I 
think she might have mentioned security--you know, expedited 
security clearances, so more information would be available to 
our key stakeholders.
    Talk about what--the kind of protection that Dow or others 
in the chemical industry are looking for, and that they need in 
order to feel more comfortable with what you're being invited 
to participate in.
    Mr. Kepler. Yes. And I would make the point that I think 
the information protection goes both ways. I think one of the 
things that we would look at over the years is, we'd build up a 
technology base and, I think, a reasonable operating system 
base, but the key thing to make this all work is, you need 
competitive intelligence. And we get very little of that, and 
we don't have the resources or structure to make that happen. 
And so, the ability to get government to feel comfortable to 
share, with industry, specific areas that we can address, so we 
can get focused, is a critical issue.
    So, I think if you contemplate legislation, it should think 
about it in both ways.
    I think there are issues, when we go across on--not only on 
liability, but the concerns, sometimes, of sharing information 
on antitrust, and that the--when companies get to start to 
share information when there's an incident or an issue, and it 
gets into shipments or it gets into some other areas, how to 
make sure that we can manage those type of issues in that, as 
well.
    So, I think the view of liability, you know, in our view, 
is that there--early on, within physical, but it actually can 
apply to cyber--there's the SAFETY Act that allowed--if you had 
a good management system in place, that was reviewed, you could 
actually get liability coverage on that. And we've submitted 
that, and actually are--fall under that Act, for us.
    Chairman Carper. Good. Thank you.
    My thanks to you both.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    The GAO's recent report--of course, already talked about--
highlighted some of the persistent shortcomings of the Federal 
Government's management of its own cybersecurity, which, I 
think, begs the question about them directing what the private 
sector should do.
    And I want to go back, actually, to a 2010 report in which 
GAO reported that private-sector expectations are not being met 
for receiving usable cyber threat and cyber alert information 
from the government. For example, GAO reported that only 27 
percent of private sector survey respondents were receiving 
actionable cyber threat information and alerts that met their 
expectations to a great or moderate extent. Of those receiving 
information, there were concerns that the information received 
is not tailored to each sector's needs, or the information does 
not have enough information to be useful.
    So, my question--I would direct this, at least first, to 
you, Mr. Wilshusen--and that is, in what areas has the 
government made progress in sharing relevant information with 
the private sector? And do you have further recommendations?
    Mr. Wilshusen. Yes, that's a good question. We have 
followed up on our recommendations made in that report, and we 
have found that DHS has started to implement a couple of them. 
But, it remains a challenge area. DHS has taken a number of 
steps. I know the Secretary, earlier, mentioned about the 
NCCIC, and that's one area in which it has started to improve 
the sharing of information through that mechanism.
    I had also heard where the DHS has issued a relatively 
large number of security clearances, which can help facilitate 
the sharing of information.
    But challenges still remain. We still find that, for 
example, it has not yet developed a predictive analysis 
capability, which would help lead to providing timely threat 
information, alert information, to private industry. And, as 
Mr. Kepler indicated in his prior remarks, it seems like that 
is still an area of improvement that can be made on the part of 
DHS and other Federal partners.
    Senator Thune. Mr. Kepler, do you feel you're receiving 
timely and usable cyber threat and cyber alert information from 
the government?
    Mr. Kepler. We don't receive content. I think we cooperate 
together, but there's a--we do not get specific information. 
And when we get attacked or get to a point that we can mitigate 
something, to try to go back and understand who it was and 
where it was and how we go address it in the future, that is 
rarely, if ever, given, and--or known, I don't know.
    So, I'd say, you know, we talked about industrial 
espionage; there's clearly, from the government's viewpoint, I 
think, nation-sponsored espionage going on. I can't--I need the 
help of the government to address that. And so, that type of 
information, and how to deal with that collaboratively, we do 
not get.
    Senator Thune. Do you have any----
    Mr. Wilshusen. And if I may----
    Senator Thune. Yes, go ahead.
    Mr. Wilshusen. Excuse me. If I may just add one comment, 
too.
    Senator Thune. Yes.
    Mr. Wilshusen. One of the elements that is probably missing 
is making sure that DHS or the Federal partners have a feedback 
mechanism, or a loop, where they can solicit and receive 
feedback from the private sector partners on how well they're 
doing in providing this type of information. It might be 
illuminating.
    Senator Thune. Yes.
    If I might, too, Mr. Kepler, how important is information 
sharing peer-to-peer among others in the industry? And how's 
that working today? What's needed to improve it? Liability, 
antitrust protections, that sort of thing.
    Mr. Kepler. Yes, I would say that most of the industries 
that got stood up under its critical infrastructure have 
learned how to work together within their industries. The 
challenge is to start to work across industries. You know, 
obviously, if you look at cascading issues with power or with 
IT, it's to be able to share information. And I think the 
ability to bridge those stovepipes is the area that needs to be 
improved.
    Senator Thune. What's your biggest concern about the 
Executive order implementation process?
    Mr. Kepler. Well, I think there are two areas, as I pointed 
out. One concern is, to my--just a point, a minute ago--this is 
cascading. So, when you think about a significant failure, 
which is part of the risk that the Executive order is supposed 
to be--address, the--to me, the thing that we have to rely on 
is the IT suppliers and the government to have--to make sure 
that the communications networks work. And that seems to be--
we're focusing more downstream than upstream on what the 
fundamental issue is.
    So, I hope, when we look at this, that most of the area 
needs to be around cyber in the infrastructure that we're 
building around the Internet and how that's being managed, 
because we all rely on that, including the government, to work 
on.
    And the second thing I think--the standards has been talked 
a lot, but I think the viewpoint and transparency of how we're 
going to do risk assessment--because there's the gross risk of 
what could happen, but there's also understanding what's 
already been mitigated. So, I get concerned about how you 
develop the list of high-priority risks, to identify, to start 
to apply the resources you're going to apply. So, you can 
create an environment where you create a list of, kind of, 
generic issues and risk things, that we don't know how to get 
off that risk list. You know, we've been under CFATS and the 
physical side, and we've yet to get, you know, sites completely 
authorized, in terms of getting assessment against their 
authority. And so, you add cyber into that--I just think, in 
the next, you know, half a year to a year, to try to get all 
that risk assessment done, I think that's the area that we can 
have some unintended consequences in, Senator, unless we think 
through that clearly.
    Senator Thune. Thank you, Mr. Chairman.
    Thank you very much.
    Chairman Carper. Dr. Coburn?
    Senator Coburn. Well, let me follow up on that. You know, 
CFATS, as far as I'm concerned, so far, has been a failure. I 
don't know if that's your assessment to it, but we've spent 
billions of dollars, and we have very limited accomplishments 
there. It's not because we don't intend to. It's not. And 
cyber's five to six times more complex than that.
    And one of the questions is, If DHS can't implement CFATS, 
and there hasn't been the same type of cooperative work upward, 
in terms of standards--in other words, one of the things--one 
of the great things about the Executive order is, the President 
did have his staff say, ``Bring industry in, tell us what we 
need to do.'' In other words, there was upward communication 
from the people who actually know it. And that was somewhat 
lacking, in terms of the CFATS, and is still lacking, in my 
opinion.
    So, do--given your experience on CFATS, what's your 
confidence level on DHS on cyber?
    Mr. Kepler. I guess that's my point.
    Senator Coburn. Yes.
    Mr. Kepler. I think you look at CFATS as--the way it's laid 
out and put together, I think, is a sound thought process of 
how to work. So, we support the concept of CFATS. Do you have 
the right mindset to go--actually set standards and evaluate? 
Do you have the personnel to work on that?
    So, I think the industry, as it relates to standards, the 
reality is, they're out there on cyber. We've worked a lot on 
process control systems, on management systems, on technology 
and networks. The previous panel described that.
    The issue is, Are--Do we have a confident structure to 
evaluate those risks? And then do the assessment in government 
to collaborate with it. And I think that's where you need to 
improve.
    So, my view has been, it's more an oversight issue than it 
is a legislation issue.
    Senator Coburn. All right, thank you.
    Mr. Wilshusen, I made, in my opening statement, a comment 
that we've not seen the report on FISMA. But, you all found 
that only 8 of 22 agencies are in compliance with that. And 
that's a decline from 13 agencies in 2010. What's the problem?
    Mr. Wilshusen. We also are looking forward to receiving 
OMB's FISMA report. It usually provides a lot of useful 
information, particularly the portion where the IGs conduct 
their evaluations of their agency's information security 
programs. One of the issues that we have found over the years 
and why we have been designating Federal information security 
as a high-risk area since 1987 is because of agencies'--I won't 
say ``inability,'' but their lack of meaningful success in 
securing their systems and meeting many of the requirements for 
securing their systems.
    Senator Coburn. Let me explain----
    Mr. Wilshusen. In your particular----
    Senator Coburn. Let me explain what that means----
    Mr. Wilshusen. Sure.
    Senator Coburn.--so everybody understands. Only eight 
Federal agencies, at this time, out of 22, meet the guidelines 
for securing their network.
    Mr. Wilshusen. And that's actually one of the statistics 
for assessing the risk----
    Senator Coburn. Right.
    Mr. Wilshusen.--which kind of gets to Mr. Kepler's point, 
in that it's one of the challenge areas for agencies. It's not 
an easy job, in terms of implementing effective security over 
time, because the environment is constantly changing, new 
technologies are being implemented into the computing 
environment, the threats are becoming more sophisticated, and 
business practices are changing.
    But, at the same time, it's important that agencies 
implement the appropriate processes to assess their risk, and 
then, based on that risk, select the appropriate controls to 
cost-effectively reduce those risks to an acceptable level, and 
then assure that those controls are effectively implemented, 
tested, and remain appropriate over time.
    If agencies don't assess their cyber risks appropriately at 
the very beginning and regularly thereafter, it has a cascading 
effect, in terms of the effectiveness of other controls.
    Senator Coburn. Plus, it wastes a ton of money. You know, 
in the Federal Government, we spend $64 billion a year on IT, 
and, essentially, 50 percent of it is wasted, because we don't 
assess risks, and we don't contract appropriately.
    Let me--in 2003, President Bush issued HSPD-7, which 
assigned several tasks to DHS pertaining to critical 
infrastructure and cybersecurity, including information sharing 
with the private sector--this was 2003; that's 10 years ago--
and compiling a list of critical infrastructure.
    The Executive order and the Presidential directive issued 
by the White House assigns DHS several tasks similar to those 
the agency was given in 2003. What's different?
    Mr. Wilshusen. I think there are a couple of differences 
between the Executive order and HSPD-7. One is that HSPD-7 
primarily focused on terrorist activities and counterterrorism; 
whereas, this particular Executive order is looking at a more 
broadbased threat factor, if you will, and to include 
resiliency and the like.
    The other big difference here is that NIST is responsible--
or has responsibility for creating the cybersecurity framework.
    Senator Coburn. Yes. Actually, they're responsible for 
creating the standards, correct?
    Mr. Wilshusen. Right. And----
    Senator Coburn. The voluntary standards that are going to 
be maybe not so voluntary after they're created.
    Mr. Wilshusen. Well, their label is a voluntary 
cybersecurity framework.
    Senator Coburn. Yes.
    Mr. Wilshusen. And I believe it's up to DHS and the sector-
specific agencies to develop a program to help encourage 
adoption of that framework.
    Senator Coburn. I'm over my time, Mr. Chairman, but I 
just----
    I would like for you to make recommendations to Senator 
Carper and I, if you would, on what you would see as the best 
oversight function that we could have in looking how the 
Presidential directive and the Executive order is carried out. 
You know, this is a complex area. None of us are computer 
engineers or electrical engineers. And having that guidance 
from you would be very helpful to this committee.
    Mr. Wilshusen. I'd be happy to talk to your staff to do 
that, Dr. Coburn.
    Senator Coburn. All right. Thank you.
    Chairman Carper. And I'd amend that request to ask that we 
share that information, as well, with our two compadres on my 
left, Senator Rockefeller and Senator Thune.
    All right, next in order--I think Senator Cowan is next in 
order, followed by the Senator from New Hampshire, Senator 
Ayotte.
    Senator Cowan. Thank you, Mr. Chairman.
    Gentlemen, thank you for your appearance and testimony 
today.
    My first question--actually, my first couple of questions 
are to you, Mr. Kepler. First, we thank you for coming, and 
hope you didn't mind me referring to your--you having a 
platinum system in place.
    Just a couple of things, and I wonder if you'd tell me if 
you agree. It's been said that 85 percent of our nation's 
critical infrastructure is owned by the private sector. You--
and, if that is the case, would you agree that, if the owners 
of that critical infrastructure fail to harden their systems 
and we are subject to a cyber attack, that disruption or 
destruction of those systems could carry catastrophic 
consequences, not just to the private industry, but to the 
government sectors that rely upon it? Do you agree with that?
    Mr. Kepler. Yes.
    Senator Cowan. And there has been a lot of talk and, I 
think, a lot of agreement, frankly, that there's a need for 
more and better information sharing, and the issues that are, 
necessarily, surrounding that. Do you think--are you satisfied, 
from your perspective--and you're someone who looks at these 
issues, not just for Dow, but I imagine you think about them 
for your industry, as a whole, or private industry--do you 
think, if we just have better information sharing and some of 
those protections, alone, we will have done enough to sort of 
ensure that, at least at a minimum level, we're doing enough, 
both in the government and private sector, to thwart cyber 
threats?
    Mr. Kepler. I think the information sharing is one that 
lags the most, so the reality is, I think, though--if you think 
about how you mitigate issue--a risk, in general, it's around 
applying technology, putting operating disciplines, which you 
could call ``standards,'' and management systems in place, and 
then having information sharing about what's going on 
externally, or competitive intelligence.
    I think, over the last 10 years, we've built up a fair 
amount of capability, and, really, the standards have evolved a 
lot, and the understanding of how to be responsive around those 
standards. And the industries that have developed operating 
discipline around this, I think, is pretty healthy.
    I think the key thing that's missing right now is the 
ability to share tactical information. We're getting attacked, 
and don't know who from, and we don't have the resources to 
work on that. I think the threat has changed in the last 5 
years, and--to come from outsources with well-resourced 
resources that need to be addressed.
    So, I think the information sharing is a key area. I think 
the management system around this--because we've got a lot of 
rules--I think the management system--I think government has to 
help step up and address.
    Senator Cowan. When you talk about the rules--actually, in 
your testimony, you talked about your concern about overly 
prescriptive legislation. In my prior job in State government, 
one of the things I had to do was to sort of oversee the 
regulatory process. I used to tell the team that the agency 
heads, before you regulate, hesitate, to think about the cost 
and the impact on businesses and others.
    As you think about the--when you say ``overly 
prescriptive,'' what, in particular, concerns you that you 
don't want to see in legislation, or you're concerned that 
legislation might do?
    Mr. Kepler. Well, I think, when you start looking at 
these--when you talk to companies like ours, and big companies 
in structure, you know, you go to some of these sectors, and 
there are 40,000 or 50,000 companies that you have to deal 
with, or community structures, if you're in water. And one size 
does not fit all in that. And you have to be able to assess the 
risk. So, while you have all the infrastructure, it's not all 
linked. And so, you have to prioritize this. And, to me, that's 
the key area that you have to work with the sectors on. If 
there's any area we need more area is--what enemy are we trying 
to fight, what problem are we trying to solve, and where are 
the highest risks in this activity to work on? That's a key 
area that I--needs to be addressed, or we'll be applying 
standards and structure to areas that probably have a low 
priority of risk in that approach.
    Senator Cowan. Do you have any viewpoint whether, if we 
just had a floor, a baseline that everyone--that everyone could 
look to or try to adhere to, that might better aid us to do--
or, to address the concerns?
    Mr. Kepler. Yes. And that's my point on--therefore, you 
have to have some commitment on--some base floor on the 
products that you provide people, and how they get configured, 
and then the responsibility and operating base of how you work 
on it. So, Dow can bring these resources in, and technologies 
in, and set them, but a small business that may be linked into 
this thing, or linked into a supply chain of a critical 
infrastructure, can't do that. And I think that's where some of 
this--the industries that supply those products do have to be 
involved, because the--on the smaller businesses, the same 
technologies that the consumers use.
    Senator Cowan. A question to you, in the first instance, 
Mr. Kepler, and then, Mr. Wilshusen--and maybe you can answer 
it, as well. And this--sort of picking up off of the Executive 
order that the President issued last month--and Mr. Gallagher 
spoke about, sort of, the collaborative effort between industry 
and government to come together and work together on some 
issues--I'm--I wonder if either of you have an opinion about 
how useful it might be to create a task force composed of 
government cybersecurity experts, security researchers, and 
tech vendors to contribute to a database of cyber threats that 
could be accessed by critical infrastructure industries, in 
realtime, or issue alerts. When you talk about information 
sharing, is that something you're thinking of, conceptually?
    Mr. Kepler. Well, conceptually, we have US-CERT, that tries 
to drive that, for private/public partnership. We have NIAC to 
look at the policy structures. We have the standard committees 
to work through.
    I think there's a cultural issue on information sharing, is 
that government does--and I--you know, government doesn't want 
to share it, and business is reluctant to share it. So, I think 
the legislation has to go at that cultural aspect and deal with 
the issues that become the excuses in their liability, on our 
side, that is important, right?--and their--you know, the IP 
protection, and those things.
    On government, there's a--from an enforcement point of 
view, you're really nervous about giving up your pursuit of the 
criminal. And government, by definition, is nervous about 
trying to manage secrets. So, we have to create an environment 
where we can share key information on the specific threats. 
That's, to me, the critical issue here, not the new 
organization structures. We have a lot of those.
    Mr. Wilshusen. And I would just add that there is 
precedence, to some extent, in that there is a database that's 
maintained by NIST. It's called the ``National Vulnerability 
Database.'' It's not a database of threats, but it is a 
database of vulnerabilities that include, for example, software 
defects, or defective software, and misconfigurations. That 
database is available to the public to review. And, indeed, 
many of the tools that are used to scan network devices may 
draw from that database to look for particular vulnerabilities 
and misconfigurations in systems.
    Senator Cowan. Thank you.
    And please forgive my indulgence, Mr. Chairman, for going 
over my time. Thank you.
    Chairman Carper. No, no, that's fine. Thank you for coming 
early and staying late----
    Senator Cowan. Thank you.
    Chairman Carper.--Senator Cowan.
    Senator Ayotte.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you, Mr. Chairman. I appreciate it.
    And I want to thank the witnesses for being here today on 
such an important issue.
    I serve on the Armed Services Committee, as well, and I was 
inquiring about our top manufacturer in New Hampshire, BAE 
Systems, just to get a sense of what they've invested in. Just 
as one company in our state, they've invested over $100 million 
in their cyber defenses, which, compared to Dow, is probably 
small, but, I think one thing that they brought to my attention 
is that they believed, through the interaction they have with 
the Pentagon, that they have a world class ability to share 
information. Now, they're a defense contractor, so you can 
understand why that would be a natural partnership there and 
that there was a very good collaborative model. While I'm new 
to this committee, and certainly want to understand the work 
done by others, one of the worries, I've had, in thinking about 
this, as I look at the GAO report that was issued, Mr. 
Wilshusen, and I appreciate the work that you did on this, is 
the information-sharing difficulties in DHS. And so, we've been 
talking about some of the concerns we have about DHS's 
capabilities. Are we trying to use any of the models or 
patterns from the Pentagon?
    And also, it worries me that we're going to have to 
replicate something that apparently, in the Pentagon, we're 
doing fairly effectively. And so, how do we take those lessons? 
And can DHS really get to a point where it is, frankly, as 
effective as some of the work being done at the Pentagon?
    Mr. Wilshusen. That's an excellent question. And, indeed, 
the pilot programs that you're referring to are called the DIB 
cyber pilot programs. I think they may have another name as 
well. And DIB being the Defense Industrial Base. Last year, GAO 
issued a report over those programs and made several 
recommendations to enhance them. And, as it so happens, we also 
plan to issue another report that will be coming out soon. The 
recently issued Executive order has a line in it under--I think 
it's under the information-sharing section--that asks DHS to 
look at those programs involving the DIB--the Defense cyber 
pilot programs--and expand them to the other critical 
infrastructure sectors. And so, that is one of the activities 
that is planned.
    Senator Ayotte. Do you think DHS will have the capability 
to do that? The Pentagon is obviously in a situation where 
they're dealing with the national security threats, but 
industries like Dow are dealing with this, a national security 
threat. So, what's your assessment on DHS's ability? I 
understand that there's a sort of command to do that in the 
Executive order, but how can we help them do that? What's your 
opinion on what the difficulties will be with that? I don't 
think any of us want to invest in replicating things that 
already exist in the government, particularly in the fiscal 
constraints we find ourselves in.
    Mr. Wilshusen. No, it's usually a good practice to learn 
from the efforts of others, to learn both the mistakes, what 
did not work, as well as what did work, and then apply those 
lessons as you perform your own. And so, certainly there is a 
lot of benefit for DHS to do this, and learn from that 
particular pilot program by DOD.
    In terms of DHS's capability to do that, well, I guess 
we'll actually find out, because I must say that I can't really 
give you a clear answer on that, because we haven't examined 
that particular issue. But its success in other programs, 
previously has been mixed. The department has made some 
progress in several areas, but, as GAO often reports, more 
needs to be done.
    Senator Ayotte. So, that worries me, and I hope----
    Mr. Wilshusen. Yes.
    Senator Ayotte.--that's something we talk about more in 
this committee, because this is such an important threat to our 
country that it can't be, ``We're just not sure,'' and, ``We 
don't know how this is going to work out,'' because, obviously, 
we need to all work together to make sure we can prevent the 
threats that are facing the country as well as those facing our 
businesses and our economic growth.
    And I would say, Mr. Kepler, I certainly am reviewing the 
Executive order, and want to understand it, but, in my prior 
life, I was an attorney general and thinking about liability 
protection for the private sector. How does any Executive order 
really fully get at the type of liability protection that the 
private sector needs, in light of the fact that, presumably, 
it's not just liability protection between the government and 
the industry that's being regulated, but it's also the 
liability protection to third parties.
    Mr. Kepler. Well, I think that's the challenge. And I think 
that's one--in my comments, I said that that's one area where I 
think legislation may be needed to address that.
    If you think about major things, like terrorism or 
whatever, I think there are some vehicles that you can use, 
with the SAFETY Act, but, if you're trying to look at--you 
know, I think there are a lot of issues also around 
intellectual property and legal things that are already 
defined. When you start looking at issues around espionage and 
nation state-sponsored commercial espionage, I don't know how--
you know, I think that is something you have to think through 
from a legislative point of view, not an Executive order point 
of view.
    Senator Ayotte. Well, the prior legislation failed in the 
Senate so I think all of us want to come to a resolution to 
find a bipartisan way forward to address these issues, but 
there certainly seemed to be some areas of difficulty. I know 
that the liability protection issue is one that Dr. Coburn has 
already talked about, and of the difficulties there. But, I'm 
of the view that, since we do a lot of comprehensive work 
around here, if there are certain areas that we can come to 
agreement on, then we should move those immediately, and then 
come back to the other areas that we have to address. So, I'm 
hoping that this committee, as we work together, will do that, 
and continue, as soon as we can get a piece that's important to 
industry and important to us, moving forward, to having that 
cooperation, that we will move it.
    So, that's my commentary on it. And I'm sure that my time 
is expired, but I appreciate that both of you are here today, 
and I look forward to following up with you and learning more 
about how we can effectively accomplish that.
    Chairman Carper. I thought those were good questions.
    Senator Ayotte. Thank you.
    Chairman Carper. I--we're going to have another round, if 
it's OK with you, maybe--I'd like to, maybe, do another round. 
It's not going to take but maybe 15 minutes. Does that work OK 
with your schedule?
    Mr. Kepler. Sure.
    Chairman Carper. We want to be mindful of your schedules.
    Mr. Kepler. No problem, Senator.
    Chairman Carper. Good. How about another two rounds?
    Mr. Kepler. Whatever you need.
    Chairman Carper. We'll start with one.
    One of the things I like to do at the end of the hearing is 
sometimes to ask witnesses what you've learned--what you've 
learned by listening to one another, from our questions and 
some of our statements, what maybe you've learned from the 
earlier panel. So, just be thinking about what--I mean, what 
are your take aways from this?
    The other thing I would ask you to share with us is what 
should be our take aways. And when I speak to a group, 
sometimes I like to tell them what I'm going to tell them, then 
I tell them, and then I tell them what I've told them. And so, 
you've had a chance to do at least part of that, and I'm going 
to ask you, before you leave, to just kind of give that little 
sum-up at the end, what should be some our key take aways.
    For me, one of the key takeaways has been--and I think it 
was our friend from NIST, Pat--I think he said something like, 
``When cybersecurity strategy is good business strategy, then 
we'll know that we've really gotten somewhere.'' And the--there 
has been a lot of back-and-forth on information sharing. And 
Senator Ayotte said she, in her previous life, was attorney 
general for her state. And I asked some of our staff, ``Why 
don't we do a better job at information sharing from the 
government side to the private sector?'' And someone used this 
as an example, said, ``If you're the FBI, and you're trying to 
bust a drug ring, and you know--you may let a deal go down, let 
it happen, just in an effort to move up the food chain and then 
go after the bigger catches.'' And I don't know if that's 
what's going on here, or not, but the--I--one of the messages--
for me, one of the take aways is, information flow has to be a 
two-way street. And so, I take that away.
    And on--in terms of the capability of DHS--Dr. Coburn's 
gone now, but he's--you know, I've been hosting a series of 
classified briefings, where we have DHS coming in, we have the 
FBI, we have the National Security Agency coming in. And both 
he and I have been impressed by the improved capabilities at 
DHS. This is not your grandfather's Oldsmobile, this is not 
where they were 10 years ago, 5 years ago. They're--they've 
gotten some good people, and they've enhanced their 
capabilities.
    I always like to say that the road to improvement is always 
under construction, so obviously they have more to do. 
Everything I do, I know I can do better. And certainly that's 
true for them.
    All right. With that having been said, what did you all 
learn? And, second, what are some good take aways that you 
would have us to be--just be reinforced with?
    Mr. Kepler. Well, I'd follow up your--just your first point 
to--or, last point--to comment that I do--when I look at the 
scope of DHS, and the challenge they have, it's daunting, and I 
appreciate the work they're doing. And I do agree that the 
competency of the organization has improved over the years and 
stuff.
    One of the challenges I would say is, we do keep changing 
the rules a little bit on the number of commissions and 
structures and groups and things. And so, we're--I'm pleading a 
little bit for, maybe, stabilization of that and really doing a 
little bit more oversight on the process, and learning from it.
    I think the things I learned--I think we came in feeling 
that the Executive order had--was in the right spirit of what 
we were trying to do. We certainly like the concepts of the 
information sharing. We were very big on standards, to begin 
with, and we've been that. And I'm very good to see how the 
Senate, here, is looking at embracing that, and the Executive 
order has embraced that, and I think they really listened well 
to the organization. So, I think the spirit of how we want to 
get there is there.
    If you ask me what the two take aways I'd you to leave 
with, I think is--this risk management, to me, and how we 
define that, is more important than the standards. I think the 
standards momentum is there, so we can, you know, put a stamp 
on it. But, I believe it's used effectively in government and 
in industry. So, the real issue is, are we really targeting 
what problem we want to solve? And I think that's really 
putting definition around ``risk management,'' if you will. So, 
how do we solve the problems? Who's our real threat? And really 
make sure form policy around that.
    Chairman Carper. Thanks, Mr. Kepler.
    Mr. Wilshusen.
    Mr. Wilshusen. Yes, I would say one of the take aways would 
be just to continue providing the oversight and emphasizing 
followthrough. One of the challenges in the past with the 
cybersecurity strategies and the different aspects of them has 
been seeing them all the way through and making sure that 
there's follow-up, that there are feedback loops. In terms of 
the agencies, making sure that what they're doing is the right 
thing to do. The keys for this particular committee is to 
provide the oversight that it has in the past, and I imagine 
will continue to do. And certainly, in our role as GAO, it's to 
continue to help agencies evaluate their progress, and make 
recommendations, where appropriate.
    Chairman Carper. Senator Thune?
    Senator Thune. Yes, just one last question, if I might, Mr. 
Chairman, for Mr. Kepler.
    And I'm interested in knowing what's the most common cyber 
attack that your company faces, and how that threat could best 
be alleviated.
    Mr. Kepler. Yes. If you look at the higher risk ones to--I 
mean, so you--these numbers sound bizarre, but when you look at 
the things that used to be a big deal, like viruses--there are 
still hundreds of thousands of those, and we can protect those 
pretty well. I think if you tell--you know, what we're 
challenged with the most is the threats from highly resourced 
organizations today that are--targeted us and persistent with 
us. And the concern is, because those are developed, that they 
end up going down and get learned, and they can migrate down 
into less sophisticated hands and stuff to work through.
    So, I think the fact that we have large organizations--and 
by--not by my--by my reading, those are some countries and 
organized criminal organizations--that's a big problem, and 
it's something that I think government needs to, you know, kind 
of step in and help business, and actually the country, work 
on.
    Senator Thune. IP theft?
    Mr. Kepler. You know, I think IP, in general, company to 
company, it's--the framework of government today manages that. 
It's this issue now of international and, I think, country-
supported IP theft, in doing that, as well as, you know, 
basically, just general intelligence gathering into companies 
that had never really happened to the extent we're seeing it 
now.
    Senator Thune. Thank you all very much. Appreciate it.
    Thank you, Mr. Chairman.
    Chairman Carper. You bet.
    One last question, if I could, for Mr. Kepler. What is your 
CEO's name? Andrew----
    Mr. Kepler. Liveris--Andrew Liveris.
    Chairman Carper. Liveris? Well, he came and spoke to a 
group of us, not long ago. Very impressive. I think he's--may 
hold a leadership position in the Business Roundtable. Is that 
true?
    Mr. Kepler. Yes, he does.
    Chairman Carper. And do you know what that is, by chance?
    Mr. Kepler. What his position is? I think he's chairing it, 
right now, sir.
    Chairman Carper. I think he is, as well. The--we appreciate 
very much, and need, the continued input from the Business 
Roundtable. We welcome the input from the Chamber of Commerce--
U.S. Chamber of Commerce, and other business groups, as well. 
But, we're very mindful of the contribution that Business 
Roundtable can make, and would ask that you pass along our 
thanks to your CEO and say we'd like to hear more of that, 
going forward.
    Well, it's been a good hearing. And, Senator Thune, whom I 
affectionately call ``Thuney,'' we are here to the bitter end, 
but it has not been bitter at all. Not even bittersweet. It has 
been good. And I--these are--this is a hard issue. Senator 
Thune and my staff have heard me say this before. This is not 
an easy issue for me to get my head around. And I--a couple of 
months ago, I felt like I almost reached the point where I knew 
enough to be dangerous. And after this hearing today, I know 
enough to be really dangerous, so--hopefully, really helpful.
    And we--it's a shared responsibility, here. It can't be the 
legislative side to--just on our own. It can't be just the 
executive branch. It just can't be the key stakeholders, 
including the business community. So, it's all of us, together, 
and--because we have a shared responsibility--and if we do this 
right, we're going to help our country a whole lot.
    And we--Senator Thune and I, our colleagues, Senator 
Rockefeller and Thune, others who serve on our committees, we 
want to do this right, and your help--testimony today has 
certainly helped in that regard.
    So, many thanks to you.
    And I understand that the hearing record is going to be 
open for another 14 years.
    [Laughter.]
    Chairman Carper. No, not really. Another 14 days, because 
we're on a short--we're on a short time frame here. Fourteen 
days for any additional questions or statements from our 
colleagues. If you get anything, then respond promptly; we'd be 
most grateful.
    Anything else for the record, Senator Thune?
    Senator Thune. No, sir.
    Chairman Carper. With that having been said, it's a wrap. 
This hearing is adjourned.
    Thank you.
    [Whereupon, at 5:05 p.m., the hearing was adjourned.]
                            A P P E N D I X

           Prepared Statement of the American Gas Association
    The American Gas Association (AGA) is pleased to submit this 
statement for the record for the U.S Senate Committee on Commerce, 
Science, and Transportation and Committee on Homeland Security and 
Governmental Affairs joint hearing on The Cybersecurity Partnership 
Between the Private Sector and Our Government: Protecting our National 
and Economic Security (March 7, 2013). In AGA's view, natural gas is 
the foundation fuel for a clean and secure energy future providing 
benefits for the economy, our environment, and our energy security. 
Alongside the economic and environmental opportunity natural gas offers 
our country comes great responsibility to protect its distribution 
pipeline systems from cyber attacks.
    Technological advances over the last decade have made natural gas 
utilities more cost-effective, safer, and better able to serve our 
customers via web-based programs and tools. Unfortunately, the 
opportunity cost of a more connected, more efficient industry is that 
we have become an attractive target for increasingly sophisticated 
cyber terrorists and cyber thieves. This said, America's investor-owned 
natural gas utilities are meeting the threat daily via skilled 
personnel, robust cybersecurity system protections, an industry 
commitment to security, and a successful ongoing cybersecurity 
partnership with the Federal Government.
    AGA, founded in 1918, represents more than 200 local energy 
companies that deliver clean natural gas throughout the United States. 
There are more than 71 million residential, commercial and industrial 
natural gas customers in the U.S., of which 92 percent--more than 65 
million customers--receive their gas from AGA members. AGA is an 
advocate for local natural gas utility companies and provides a broad 
range of programs and services for member natural gas pipelines, 
marketers, gatherers, international gas companies and industry 
associates. Today, natural gas meets almost one-fourth of the United 
States' energy needs.
Government-Private Partnerships and Cybersecurity Management: A 
        Process that Works for Natural Gas Utilities
    America's natural gas delivery system is the safest, most reliable 
energy delivery system in the nation. This said, industry operators 
recognize there are inherent vulnerabilities with employing web-based 
software and hardware applications for both industrial control systems 
and business operating systems. Because of this, gas utilities apply 
myriad cyber standards, guidelines, and related regulations in their 
cybersecurity portfolios and participate in an array of government-
sponsored and industry-sponsored cybersecurity initiatives. However, 
the most important overall cybersecurity mechanism is the existing 
cybersecurity partnership between the government intelligence community 
and industry operators. This two-way information sharing provides for 
an exchange of vital cybersecurity information within a flexible 
framework which allows all stakeholders to be proactive and adapt 
quickly to dynamic cybersecurity risks.
    Background: The Homeland Security Act of 2002 provides the basis 
for Department of Homeland Security (DHS) responsibilities in 
protecting the Nation's critical infrastructure and key resources 
(CIKR). The Act assigns DHS the responsibility for developing a 
comprehensive national plan for securing CIKR. This plan, known as the 
National Infrastructure Protection Plan (NIPP), identifies 18 critical 
infrastructure sectors within which natural gas transportation is a 
subsector of the Energy and Transportation Sectors. The NIPP states 
that more than 80 percent of the country's energy infrastructure is 
owned by the private sector, and the Federal Government has a statutory 
responsibility to safeguard critical infrastructure. For this reason, 
information-sharing amongst industry operators and the government 
intelligence community is critical to cyber infrastructure protection.
    Process: Natural gas utilities are working with government at every 
level to detect and mitigate cyber attacks. In particular, the natural 
gas transportation subsector works specifically with the DHS Industrial 
Control Systems Cyber Emergency Response Team (ICS-CERT) to reinforce 
two-way sharing of cybersecurity awareness, detection, and mitigation 
programs. This process calls on operators to submit suspicious cyber 
activity reports to ICS-CERT, while ICS-CERT, in turn, advises 
operators of noted cyber vulnerabilities, mitigation strategies, and 
forensic analyses. This open communication has proven over the years to 
be an effective, uncomplicated mechanism that bolsters the industry's 
overall cybersecurity posture, while advancing the mission of ICS-CERT. 
In simple terms, the government intelligence community understands 
cyber vulnerabilities; natural gas utilities understand their 
operations; and the two come together in a constructive partnership to 
protect targeted critical infrastructure.
    AGA-Government Cybersecurity Partnerships: AGA works closely with 
the DHS Transportation Security Administration (TSA), Pipeline Security 
Division within a government-private industry partnership framework for 
cybersecurity information sharing. The Aviation and Transportation 
Security Act of 2001 gives the TSA Pipeline Security Division 
regulatory authority over pipeline security for both physical security 
and cybersecurity. The TSA Pipeline Security Division has over the past 
decade chosen to partner with pipeline operators in an environment of 
guidance rather than regulation/compliance. Partnering has benefitted 
all stakeholders because it allows government and pipeline owner/
operators to exchange valuable cybersecurity information typically not 
shared in a compliance-driven environment.
    AGA also strongly encourages industry participation in DHS-led 
training programs, workshops, and system evaluation programs, available 
via our partnership with the ICS-CERT and TSA Pipeline Security 
Division, as well as relevant cybersecurity programs operated by other 
agencies. Moreover, DHS officials regularly meet with industry groups, 
such as the AGA board of directors, as well as individual member 
companies specifically to review and assess ongoing cyberthreats. 
Bottom line, as cybersecurity threats evolve and related risks to gas 
industry operations change, our long-standing public-private 
partnership with DHS allows natural gas utilities to successfully 
collaborate with the government on overall cybersecurity in a fashion 
that benefits both parties. The following is a sample list of 
government-natural gas industry cybersecurity partnerships:

  <bullet> DHS Classified and Unclassified Cyber Security Briefings. 
        Industry operators participate in DHS-sponsored classified and 
        unclassified briefings to receive threat and risk information 
        and analytics. These briefings are in the form of monthly 
        teleconferences and semi-annual face-to-face meetings between 
        the private sector and government intelligence community 
        analysts. The briefings provide information on the state of the 
        subsector in reference to emerging threats, security 
        incidences, and trends. Additionally, AGA is leading the 
        collaborative effort between the government intelligence 
        community and private industry to improve on timely, credible, 
        and actionable information sharing.

  <bullet> DHS Control Systems Security Program. DHS offers various 
        opportunities to enhance industry operator knowledge on control 
        system cybersecurity. Industry operators participate in DHS 
        ICS-CERT training, online forums, recommended practices, 
        advisories, and interactive live assistance focused 
        specifically on control system cybersecurity. Industry 
        operators also receive DHS United States Computer Emergency 
        Readiness Team (US-CERT) monthly activity summaries and secured 
        portal advisory communications, submit incident reports for 
        analysis, and engage in the Industrial Control Systems Joint 
        Working Group for information exchange.

  <bullet> Oil & Natural Gas Sector Coordinating Council (ONG SCC) 
        Cyber Security Working Group. Industry operators participate in 
        this DHS-sponsored forum for effective coordination of oil and 
        natural gas cybersecurity strategies and activities, policy, 
        and communication across the sector to support the Nation's 
        homeland security mission. The ONG SCC provides a venue for 
        operators to mutually plan, implement, and execute sufficient 
        and necessary sector-wide security programs, procedures and 
        processes; exchange information; and assess accomplishments and 
        progress toward protecting the sector's critical 
        infrastructure.

  <bullet> TSA Cyber Security CARMA Program. Sponsored by TSA, this 
        program is intended to develop a nationally-scoped cyber risk 
        management framework to help industry operators identify where 
        internal risk management activities align with industry-wide 
        risk management activities. AGA co-chairs this collaborative 
        effort and facilitates operator participation and contribution.

  <bullet> Coordination of Federal Government Risk Assessment Programs. 
        AGA is proactively coordinating meetings of the Department of 
        Energy, Federal Regulatory Energy Commission, TSA, and ICS-CERT 
        in an effort to encourage all government entities to align 
        their various cybersecurity risk assessment programs. The 
        objective is to compare/contrast the programs and identify 
        where synergies may be made.

    AGA-Industry-Government Cybersecurity Guidelines: Partnership 
between the private sector and the government is critical to address 
cybersecurity threats to our Nation's critical infrastructure. As such, 
AGA and industry operators also collaborate with government partners to 
produce effective cybersecurity practices and guidelines. Below are a 
few examples:

  <bullet> DHS Transportation Security Administration (TSA), Pipeline 
        Security Guidelines. Guidelines developed through the 
        collaborative effort of government and pipeline asset owners to 
        be used by natural gas and hazardous liquid transmission 
        pipeline companies, natural gas distribution companies, and 
        liquefied natural gas facility operators as a framework for the 
        protection of critical and non-critical pipeline 
        infrastructure. AGA contributed as subject matter experts, in 
        particular to the cybersecurity chapter.

  <bullet> DHS Control Systems Security Program, Cyber Security 
        Evaluation Tool (CSET). A desktop software tool that guides 
        users through a step-by-step process for assessing the 
        cybersecurity posture of their industrial control system and 
        enterprise information technology networks. AGA participated in 
        the development, testing, and distribution of this material and 
        contributes to continual improvements to this resource.

  <bullet> Department of Energy (DOE), Roadmap to Achieve Energy 
        Delivery Systems Cybersecurity. A strategic framework to 
        improve cybersecurity within the energy sector through a 
        collaborative vision of industry, vendors, academia, and 
        government stakeholders. This vision is supported by goals and 
        time-based milestones for achievement over the next decade. AGA 
        has been a contributor to this resource since its inception in 
        2006 with its preliminary release as DOE, Roadmap to Secure 
        Control Systems in the Energy Sector.

  <bullet> Interstate Natural Gas Association of America (INGAA), 
        Control System Cyber Security Guidelines for the Natural Gas 
        Pipeline Industry. A set of guidelines designed to assist 
        operators of natural gas pipelines in managing control systems 
        cybersecurity requirements. Aligns with TSA Pipeline Security 
        Guidelines and other guidelines/standards commonly used across 
        the oil and natural gas industries. AGA contributed to the 
        review and comment phase and promotes its availability as a 
        valuable resource to operators and government.

  <bullet> AGA and INGAA, Security Practices Guidelines, Natural Gas 
        Industry Transmission and Distribution. Guidelines that provide 
        an overview of the recommended physical security and 
        cybersecurity practices and procedures for the transmission and 
        distribution segments of the natural gas industry. AGA and the 
        Interstate Natural Gas Association of America lead the 
        initiative to develop this guidance for natural gas pipeline 
        and utility operators.
Non-Standardization of Cybersecurity Practices is Paramount
    In the recent past, concerns over increasing cyber attacks--
successful or not--on critical infrastructure have led to legislative 
efforts to create a set of top-down cybersecurity regulations. AGA 
remains concerned that prescriptive cybersecurity regulations, while 
well-intentioned, will have little practical impact on cybersecurity 
and, in fact, will hinder implementation of robust cybersecurity 
programs. First and foremost, prescriptive cybersecurity regulations 
would fundamentally transform the productive cybersecurity relationship 
natural gas utilities have with the TSA Pipeline Security Division from 
a successful partnership to a more standard regulator-regulated mode, 
forcing companies to focus more resources on compliance activities than 
on cybersecurity itself. Also, from a practical perspective, it is 
unlikely that any set of cybersecurity regulations will be dynamic 
enough to help companies fight constantly changing and increasingly 
sophisticated threats.
    Across the natural gas industry, cybersecurity effectiveness is 
maximized through the diversity of individual company cybersecurity 
approaches, e.g., Defense in Depth strategies and customized detection 
and mitigation systems appropriate for individual company networks. 
Furthermore, because gas utility control system operations vary amongst 
operators, companies adhere to cyber standards, guidelines and related 
regulations most relevant to their specific network functions and 
vulnerabilities. Companies also turn lessons learned from government-
private industry cybersecurity information sharing partnerships into 
actions designed to protect their specific systems. In sum, as 
cybersecurity risks and threats change, so do vulnerabilities. Ongoing 
implementation of new and diverse cybersecurity tools and procedures, 
based on unique individual company requirements, helps companies adapt 
to a dynamic cyberthreat environment and bolsters the overall gas 
utility industry cybersecurity posture.
The Cybersecurity Executive Order Considered
    The Administration's Executive Order (EO), Improving Critical 
Infrastructure Cybersecurity, is a data collection exercise, standards 
setting program, and outline for future legislative and regulatory 
action. In sum, the EO directs the government to: (1) identify all 
critical infrastructure entities, (2) prepare ``voluntary'' 
cybersecurity standards for identified critical infrastructure, (3) 
develop incentives designed to entice entities to adopt the 
cybersecurity standards, and (4) tasks agencies with existing 
cybersecurity authorities to determine whether their current 
regulations are sufficient or if new, more prescriptive, cybersecurity 
regulation is necessary.
    Clearly, Congress will be a not-so-silent partner in implementing 
this EO, particularly if agencies with cybersecurity responsibilities, 
having found current programs inadequate, lack the authority necessary 
to further regulate cybersecurity requirements in their sector. In 
addition, while the EO does seek to strengthen the public-private 
cybersecurity information sharing partnership, liability and 
information security protections necessary for critical infrastructure 
owners and operators to fully participate will require new statutory 
authority.
    Overall, the EO is simply the beginning of a long march to improve 
national cybersecurity. AGA is hopeful, and will work to ensure, that 
throughout this policy process gas utility industry cybersecurity 
concerns will be addressed. To that end, below are a few of our 
specific concerns with the EO.
    Identifying Critical Infrastructure. The executive order confines 
itself largely to ``critical infrastructure'', a categorization that 
undoubtedly will include natural gas utilities. Critical infrastructure 
is defined in Section 2 of the EO as ``systems and assets, whether 
physical or virtual, so vital to the United States that the incapacity 
or destruction of such systems and assets would have a debilitating 
impact on security, national economic security, national public health 
and safety, or any combination of those matters.'' Note that the EO 
does not define many terms included in the definition (``debilitating 
impact'', ``economic uncertainty'', etc.), potentially opening an 
ongoing debate over what systems may be considered critical or not 
critical. In addition, AGA strongly suggests that the identification 
process include the active and informed participation of critical 
infrastructure owner/operators from the start rather than after the 
assignment of ``critical'' has been determined by the government. By 
doing this, the government avoids placing the owner/operator in a 
defensive position with the burden to demonstrate non-criticality. 
Further, any list must be secured with appropriate information 
protection mechanisms.
    Cybersecurity Information Sharing Program. Section 4 of the EO 
creates a cybersecurity information sharing program, directing DHS, the 
Department of Justice, and the Office of the Director of National 
Intelligence to set up cyber threat information sharing processes with 
targeted private sector entities. Without question, improved 
information sharing can and will benefit critical infrastructure 
cybersecurity. However, for industry to fully engage in an information 
sharing program, information protection mechanisms (safe harbors) and 
liability protections must be afforded to owners/operators who 
participate in the program. Without such protections, companies may be 
unwilling to participate because of the possibility of information 
leaks as well as due to competitive concerns and legal liability 
pressures.
    NIST ``Cybersecurity Framework''. Section 7 of the EO directs the 
National Institutes of Standards and Technology (NIST) to develop, via 
an open review process, a ``Cybersecurity Framework'' designed to 
improve critical infrastructure cybersecurity. The Framework will 
utilize risk and performance based standards/best practices; technology 
neutral applications; voluntary consensus standards and industry best 
practices; and cross-sector security standards applicable to all 
critical infrastructure. Ultimately, NIST's goal is to create a 
framework that is ``prioritized, flexible, repeatable, performance-
based, and cost-effective'' to help critical infrastructure owner/
operators manage cyber risk. Good intentions notwithstanding, questions 
remain, including:

  <bullet> Given the complexity of the subject, will NIST be able to 
        meet notice and comment timelines?

  <bullet> Will the final Framework be flexible enough to address every 
        critical infrastructure sector?

  <bullet> How much influence will critical infrastructure sectors have 
        in developing the Framework?

  <bullet> Will the Framework morph into mandatory standards?

    Industry Adoption of Cybersecurity Framework. Section 8 of the EO 
directs DHS to create a ``voluntary'' program to spur critical 
infrastructure entities to adopt the NIST Framework. Specifically, DHS 
will work with other agencies to review the Framework and develop 
implementation guidance to address sector-specific operating 
environments. More importantly, DHS will work with the Departments of 
Commerce and Treasury to report on existing incentives that might spur 
industry participation in the voluntary program as well as any 
additional incentives (i.e., liability protections) that would require 
new statutory authority. Sector agencies will also report annually on 
which critical infrastructure owner/operators participate in the 
program. Overall, just how ``voluntary'' this program ends up becoming 
is an open question. As AGA and other critical infrastructure 
industries have argued, voluntary government programs often morph into 
de facto mandatory compliance programs because companies feel compelled 
to participate rather than risk opening themselves up to litigation for 
not engaging in a program that has the imprimatur of the Federal 
Government.
    Agency Adoption of NIST Cybersecurity Framework. Section 10 of the 
EO notes that once the NIST Framework has been preliminarily drafted 
agencies with cybersecurity regulatory responsibilities will review 
their existing authorities to determine whether they are sufficient 
given the cyberthreat landscape, and whether they can implement the 
NIST Framework via regulation. If agencies determine that their current 
cybersecurity regulatory requirements are insufficient then they shall 
propose new ``actions'' to mitigate cyber risks. This section clearly 
pushes sector agencies to create new cybersecurity regulations. These 
new requirements would, at a minimum, be based upon the NIST 
Cybersecurity Framework; however, there is plenty of suggestion in 
Section 10 that agencies move beyond the framework, or seek the 
authority to do so. We are hopeful this will not lead to regulation for 
regulations sake. For example, despite having the statutory authority 
necessary, TSA Pipeline Security Division has chosen not to issue 
cybersecurity regulations for natural gas utilities in large part 
because of the successful security partnership we have collectively 
developed.
The Case for Cybersecurity Legislation
    Despite our concerns about prescriptive cybersecurity standards, 
AGA does believe that there is a role for cybersecurity legislation, 
particularly as it relates to improving public-private cybersecurity 
information sharing and related liability protections.
    Information Sharing. To help counter cyber attacks and protect 
networks against future incursions, critical infrastructure needs 
government to help them identify, block and/or eliminate cyberthreats 
as rapidly and reliably as possible. From a functional perspective, 
this will require expediting security clearances for critical 
infrastructure personnel as well as streamlining the process by which 
actionable threat intelligence is shared with private industry. 
Harnessing the cybersecurity capabilities of the government 
intelligence community on behalf of private sector networks will go a 
long way towards overall network security. The recently introduced H.R. 
624, The Cyber Intelligence Sharing and Protection Act (CISPA) begins 
to flesh out this process by establishing a cybersecurity partnership 
between critical infrastructure and the intelligence community. 
However, there is certainly a role the Department of Homeland Security 
can play, as a sector specific agency, in distributing cyberthreat 
information, interpreting potential threat impacts, and working with 
critical infrastructure entities to keep their networks safe. This 
would particularly be the case for those industries, like natural gas 
utilities, that already have a cybersecurity partnership with TSA.
    Liability Protection, SAFETY Act. Another avenue for legislation 
surrounds offering liability protection for companies with robust 
cybersecurity programs--standards, products, processes, etc. The 
Administration's recent executive order (EO) on cybersecurity 
underscores this need. The EO directs sector agencies, the intelligence 
and law enforcement community to establish a cybersecurity information 
sharing partnership; tasks the National Institute of Standards and 
Technology with establishing a quasi-regulatory set of cybersecurity 
standards (a ``cybersecurity framework''); and orders DHS to 
incentivize critical infrastructure to adhere to the NIST standards. 
What the EO cannot do is provide liability protections for critical 
infrastructure entities that make the effort to participate in a 
public-private cybersecurity program, regardless of whether it is 
created via EO or some future law.
    AGA supports employing the SAFETY Act as an appropriate avenue for 
providing companies that participate in a government-private industry 
cybersecurity partnership with liability coverage from the impacts of 
cyberterrorism. SAFETY Act applicability in this area seems plain:

  <bullet> The SAFETY Act exists in current law, and a related office 
        at DHS has been reviewing and approving applications for 
        liability coverage in the event of an act of terrorism or cyber 
        attack for over a decade. This office utilizes an existing 
        review and approval process which would allow for immediate 
        granting of liability protections from cyber attacks.

  <bullet> Because the SAFETY Act can apply to a variety of areas 
        ranging from cybersecurity standards (cyber best practices, 
        etc.), to procurement practices and related equipment (SCADA, 
        software, firewalls, etc.) companies can layer their liability 
        protection.

  <bullet> We are aware of no other existing statute that offers 
        similar liability protections. Moreover, we do not see the need 
        to write new law to address liability protections from cyber 
        incidents when the SAFETY Act is already applicable.

    This said, there are some areas where we believe the SAFETY Act 
could be a little stronger as it applies to cyber matters. First, and 
foremost, the statute could be expanded to make specific reference to 
liability protections from ``cyber'' events (cyber attacks, cyber 
terrorism, etc.) and more specific reference to coverage for 
cybersecurity equipment, policies, information sharing programs, and 
procedures. While there is coverage under the Act currently for cyber 
attacks, specifically identifying ``cyber attacks'' as a trigger for 
liability protections would strengthen the overall concept.
The Natural Gas Utility Cybersecurity Posture
    AGA's policy priorities for cybersecurity include preserving our 
current cybersecurity partnership with the Transportation Security 
Administration, Pipeline Security Division, enhancing government-
private industry cybersecurity information sharing, opposing burdensome 
or counterproductive cybersecurity regulation, and supporting robust 
liability protections for entities that are serious about protecting 
their networks. If ultimately achieved, these items will only bolster 
an already solid industry cybersecurity commitment.
    America's natural gas utilities are cognizant of enduring cyber 
threats and the continued need for vigilance through cybersecurity 
protection, detection, and mitigation mechanisms. Industry operators 
apply numerous cyber standards, guidelines, and related regulations in 
their cybersecurity portfolios and participate in a variety of 
government-sponsored cybersecurity initiatives. There is no single 
solution for absolute system protection. However, through a combination 
of cybersecurity processes and timely and credible information-sharing 
amongst the government intelligence community and industry operators, 
America's natural gas delivery system remains protected, safe and 
reliable, and will remain so well into the future.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                         Hon. Janet Napolitano
    Question. The Executive Order requires agencies to incorporate 
privacy and civil liberties safeguards into their activities. Yet the 
fact that a Federal Government-private sector cyber information-sharing 
program must be streamlined and rapid in order to be effective poses 
unique privacy challenges. Can you provide concrete examples of how DHS 
and other agencies will implement these safeguards even as they 
increase information sharing with the private sector? The Fair 
Information Practice Principles of an individual's access to collected 
data and the preservation of the integrity of that data would seem to 
be particularly difficult to ensure in the pursuit of sophisticated 
cyber threats. How will the need for a better flow of information, 
sometimes including classified information, be balanced with these 
principles? Do you believe that current law adequately protects privacy 
rights in cyberspace, particularly if information-sharing between the 
government and private sector is increased? Do you believe that cyber 
legislation focusing solely on the issue of information sharing that 
has been previously proposed in Congress, such as the Cyber Information 
Sharing and Protection Act (CISPA), adequately address these privacy 
and civil liberties concerns?
    Answer. In recognition of the privacy and civil liberties concerns 
associated with the efforts called for in Executive Order (EO) 13636, 
the Administration directed Departments and Agencies to assess 
activities required by EO 13636 for potential privacy and civil 
liberties risks. In developing this and other documents, the 
Administration sought input from stakeholders of all viewpoints in 
industry, government, and the advocacy community. Their input has been 
vital in crafting an order that incorporates the best ideas and lessons 
learned from public and private sector efforts while ensuring that our 
information sharing incorporates rigorous protections for individual 
privacy, confidentiality, and civil liberties. Indeed, as we perform 
all of our cyber-related work, we are mindful of the need to protect 
privacy, and civil liberties. The Department has implemented strong 
privacy and civil rights and civil liberties standards into all its 
cybersecurity programs and initiatives from the outset.
    Rather than simply attempting to balance information sharing with 
privacy concerns, Departments and Agencies will use the Fair 
Information Practice Principles (FIPPs) as an analytical framework to 
assess privacy risks and integrate privacy protections into their 
cybersecurity programs. The FIPPs help agencies recognize the 
importance of data minimization, that is, that agencies should only 
collect information that is relevant and necessary to accomplish agency 
missions. Not only does this ensure privacy, but it also facilitates 
more effective protection of critical cybersecurity infrastructure. A 
concrete example of how DHS implements the FIPPs is by conducting 
Privacy Impact Assessments (PIAs) on the Department's cyber systems and 
programs. DHS published the Enhanced Cybersecurity Services (ECS) PIA 
in January of this year and will continue to update or conduct PIAs on 
cyber operations on an ongoing basis. The ECS PIA describes the 
operational processes and privacy and security oversight required to 
share unclassified and classified cyber threat indicators with 
companies that provide internet, network and communications services to 
enable those companies to enhance their service to protect U.S. 
Critical Infrastructure entities.
    In addition, the Federal Government will ensure that privacy and 
civil liberties safeguards are incorporated into cyber activities 
through the work of the recently formed Assessments Working Group (WG) 
under the Integrated Task Force (ITF), which leads the Administration's 
implementation efforts of the requirements laid out in the EO and 
Presidential Policy Directive-21 (PPD-21). The WG is an interagency 
body whose participants represent Senior Agency Officials for Privacy 
and Civil Liberties. The WG is responsible for providing support to 
Departments and Agencies as they conduct the privacy and civil 
liberties assessments required by Section 5 of EO 13636. The WG will 
serve as a forum for sharing approaches to conducting these 
assessments. Separately, the DHS Privacy Office and Office for Civil 
Rights and Civil Liberties (CRCL) will conduct assessments of DHS 
activities undertaken pursuant to the EO, and will compile other 
Departments' and Agencies' assessments for inclusion in an annual 
report. In compiling the report, the Privacy Office and Office for 
Civil Rights and Civil Liberties (CRCL) will consult with the Privacy 
and Civil Liberties Oversight Board and coordinate with the Office of 
Management and Budget, consistent with the requirements set forth in EO 
13636.
    In addition, the DHS Privacy Office and Office for Civil Rights and 
Civil Liberties has hosted a series of five meetings for privacy and 
civil liberties advocates that began in April 2013 to provide 
additional transparency into the operation of the ITF Working Groups.
    It is important to note that the Executive order does not grant new 
regulatory or other authority to increase voluntary cooperation with 
the private sector or to establish additional incentives for 
participation in the Voluntary Critical Infrastructure Cybersecurity 
Program established in the EO. New approaches to cybersecurity are 
urgently needed, and we are committed to working with Congress for 
passage of a comprehensive suite of legislation.
    The Administration's legislative priorities for the 113th Congress 
build upon the President's 2011 Cybersecurity Legislative Proposal and 
take into account two years of public and congressional discourse about 
how best to improve the Nation's cybersecurity. Congress should enact 
legislation to incorporate privacy and civil liberties safeguards into 
all aspects of cybersecurity; strengthen our critical infrastructure's 
cybersecurity by further increasing responsible information sharing and 
promoting the establishment and adoption of standards for critical 
infrastructure; giving law enforcement additional tools to fight crime 
in the digital age; and creating a National Data Breach Reporting 
requirement.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Kelly Ayotte to 
                         Hon. Janet Napolitano
    Question 1. The issue of cyber security is far too important not to 
find common ground and move forward with legislation that would make us 
safer today. Some like to blame different associations or trade groups 
for the inability to get legislation through both bodies of Congress, 
but I would argue that Republicans and Democrats agree on a vast 
majority of the issues being debated. Why can't we pass what we all 
agree on, such as information sharing and then roll up our sleeves and 
see if we can find consensus on the issues where there may not be as 
much common ground? Too much is at stake to have an all-or-nothing 
mentality.
    Answer. Both sides of the aisle are united in their recognition 
that cybersecurity must be strengthened. While the Administration has 
taken significant steps to protect against evolving cyber threats, we 
must acknowledge that the current threat outpaces current authorities. 
In the current landscape, DHS must execute its cybersecurity mission 
under an amalgam of existing statutory and executive authorities that 
have failed to keep up with the responsibilities. Cybersecurity 
activities have made clear that certain laws that govern cybersecurity 
activities must be updated.
    In February 2013, President Obama issued Executive Order 13636 on 
Improving Critical Infrastructure Cybersecurity as well as Presidential 
Policy Directive 21 on Critical Infrastructure Security and Resilience, 
which will strengthen the security and resilience of critical 
infrastructure through an updated and overarching national framework 
that acknowledges the increased role of cybersecurity in securing 
physical assets. These directives create a foundation for legislative 
action by implementing concepts set forth in the President's 2009 
Cyberspace Policy Review, and policies drawn from the recommendations 
of the House Republican Cybersecurity Task Force and the bipartisan 
Commission on Cybersecurity for the 44th Presidency.
    It is important to note that the Executive order directs Federal 
agencies to work within current authorities and increase voluntary 
cooperation with the private sector to provide better protection for 
computer systems critical to our national and economic security. It 
does not grant new regulatory authority or establish additional 
incentives for participation in a voluntary program. New approaches to 
cybersecurity are urgently needed, and we are committed to working with 
Congress for passage of a comprehensive suite of legislation.
    The Administration's legislative priorities for the 113th Congress 
build upon the President's 2011 Cybersecurity Legislative Proposal and 
take into account two years of public and congressional discourse about 
how best to improve the Nation's cybersecurity. Congress should enact 
legislation to incorporate privacy, confidentiality, and civil 
liberties safeguards into all aspects of cybersecurity; strengthen our 
critical infrastructure's cybersecurity by further increasing 
information sharing and promoting the establishment and adoption of 
standards for critical infrastructure; give law enforcement additional 
tools to fight crime in the digital age; and create a National Data 
Breach Reporting requirement.

    Question 2. If the Federal Government deems a business as covered 
critical infrastructure, but that business disputes whether or not it 
should be covered, what is the appeal process? Do businesses have any 
recourse or is DHS judge and jury in this instance?
    Answer. Under Executive Order (EO) 13636, private sector 
participation in cybersecurity matters with the Department of Homeland 
Security (DHS) is carried out on a voluntary basis and supports more 
efficient sharing of cyber threat information. The EO directs the 
National Institute of Standards and Technology to develop a 
Cybersecurity Framework to identify cybersecurity practices among 
critical infrastructure sectors and directs DHS to develop a Voluntary 
Program to encourage adoption of the Framework. While the intent of the 
EO is to offer additional cybersecurity capabilities to assist owners 
and operators of critical infrastructure, with the expectation that 
accepting this assistance will be in the firms' best interest, EO 13636 
creates no new legal obligation for businesses to adopt any 
cybersecurity measures.
    Because the vast majority of U.S. critical infrastructure is owned 
and operated by private companies, reducing the risk to these vital 
systems requires a strong partnership between government and industry. 
To implement EO 13636, DHS engaged in a consultative process with 
public and private sector partners to identify critical infrastructure 
that if impacted by a cybersecurity incident could reasonably cause 
catastrophic impacts to our national security, economic security, 
public health and safety. Specifically, EO 13636 requires consultation 
with the Critical Infrastructure Partnership Advisory Council; Sector 
Coordinating Councils; critical infrastructure owners and operators; 
Sector Specific Agencies; other relevant agencies; independent 
regulatory agencies; state, local, territorial, and tribal governments; 
universities; and outside experts.
    DHS will confidentially notify owners and operators of critical 
infrastructure identified under this process and ensure identified 
owners and operators are provided the basis for the determination. The 
Department is also required to establish an administrative appeals 
process through which owners and operators of critical infrastructure 
may submit relevant information and request reconsideration of their 
identification as ``critical infrastructure of greatest risk.''

    Question 3. Earlier this month in a Senate Armed Services hearing, 
Gen. James Mattis, the Commander of U.S. Central Command testified that 
with the increasing role of our adversaries in cyberspace, it only adds 
more urgency to expand our presence, capabilities and authorities to 
maintain an advantage in cyberspace. Threat networks, including those 
posed by Iran and China, are adjusting opportunistically. What role do 
you envision DHS playing to destabilize cyber activities that lead to, 
among other things, transfer of illicit arms, espionage and aid 
transferred to support malign actors seeking to undermine our security? 
What forums exist and what forums are you considering using to put more 
urgency and high level attention into the DHS-CYBERCOM cyber security 
dialogue?
    Answer. The United States confronts a dangerous combination of 
known and unknown vulnerabilities in cyberspace and strong and rapidly 
expanding adversary capabilities. Successful response to dynamic cyber 
threats requires a whole of government approach leveraging homeland 
security, law enforcement, and military authorities and capabilities, 
which respectively promote domestic preparedness, criminal deterrence 
and investigation, and national defense. While each agency operates 
within the parameters of its authorities, the U.S. Government's 
response to cyber incidents of consequence is coordinated among the 
Department of Homeland Security (DHS), Department of Justice (DOJ), and 
the Department of Defense (DOD) such that ``a call to one is a call to 
all.''
    DHS is responsible for coordinating the Federal Government response 
to significant cyber or physical incidents affecting critical 
infrastructure, consistent with statutory authorities. The Department 
is the largest law enforcement agency in the Federal Government, with 
personnel stationed in every state and in more than 75 countries around 
the world. To combat cyber crime, DHS relies upon the skills and 
resources of the United States Secret Service (USSS), U.S. Immigration 
and Customs Enforcement (ICE), U.S. Coast Guard, and U.S. Customs and 
Border Protection (CBP) and works in cooperation with partner 
organizations, including international partners, to investigate and 
prosecute cyber criminals and works in cooperation with partner 
organizations, including international partners, to investigate and 
prosecute cyber criminals. (Pursuant to section 1030 of the Title 18 of 
the United States Code, the Federal Bureau of Investigation has primary 
authority to investigate cyber crimes with a national security, 
counterintelligence, or espionage nexus.)
    Additionally, there are several key ways in which DHS leverages the 
capabilities of the DOD. DHS is able to draw upon specific classified 
cyber threat intelligence that can be utilized in enhancing the 
protection of Federal networks and private critical infrastructure 
networks under cooperative partnerships. The DHS-DOD relationship also 
includes a Memorandum of Agreement for exchanges of personnel as well 
as shared technical expertise. I meet regularly with Director Mueller 
and General Alexander to coordinate and align operational strategies.
    DHS has administrative security authorities that allow it to defend 
government networks, to share and receive threat information with 
private, State, local and tribal entities, and to coordinate with our 
intelligence community and law enforcement agency partners and to 
leverage government cybersecurity expertise and render technical 
assistance when needed.
    Synchronization among DHS, DOJ, and DOD ensures that all of 
government's capabilities are brought to bear against cyber threats and 
enhances government's ability to share timely and actionable 
cybersecurity information with a variety of partners, especially the 
private sector.

    Question 4. A new report from the Pentagon's Defense Science Board 
on cyber threats has raised some grave concerns. Among its findings, 
our cyber capabilities at the Pentagon are ``fragmented'' and the 
Defense Department is not prepared to defend against this threat.'' It 
goes on to say that the Pentagon cannot be confident that its military 
computer systems are not compromised because some use components made 
in countries with high-end cyber-capabilities such as China and Russia. 
Do you share the concerns of this Pentagon Report?
    Answer. The Department of Homeland Security (DHS) has reviewed the 
report and values this contribution provided by the Defense Science 
Board. We agree that the cyber threat is serious, that public and 
private networks in all countries are built on inherently insecure 
architectures, and that the United States should lead the way by taking 
positive action to increase the security and confidence in the 
information technology systems we depend on. We have reviewed the 
recommendations and findings of the report and are working to apply 
lessons learned to our own mission to protect Federal Civilian 
Executive branch networks. Additionally, DHS, along with interagency 
partners, is aggressively implementing the National Strategy for Global 
Supply Chain Security of January 2012, which seeks to protect the 
welfare and interests of the American people and secure our Nation's 
economic prosperity by promoting the secure movement of goods and 
fostering a resilient supply chain.

    Question 5. Do you feel countries like China and Russia are ahead 
of the U.S. on the technology scale when it comes to cyber? How 
confident are you that the computer systems used by your agency are not 
vulnerable since so many are made overseas?
    Answer. We would be happy to provide a threat briefing in a 
classified setting.

    Question 6. What is DHS's working relationship and division of 
labor between Cyber Command and DHS?
    Answer. Ensuring the Nation's cybersecurity is a shared 
responsibility. Successful response to dynamic cyber threats requires a 
whole of government approach leveraging homeland security, law 
enforcement, and military authorities and capabilities, which 
respectively promote domestic preparedness, criminal deterrence and 
investigation, and national defense. While each agency operates within 
the parameters of its authorities, the U.S. Government's response to 
cyber incidents of consequence is coordinated among DHS, the Department 
of Justice (DOJ), and Department of Defense (DOD) such that ``a call to 
one is a call to all.''
    As with all threats to the United States, our allies, and our 
interests in other domains, the DOD has the mission to defend the 
Nation against foreign attacks. Its national security mission demands 
that it defend, deter, and take decisive action in cyberspace to defend 
our national interests. DHS is responsible for securing unclassified 
Federal civilian government networks and working with owners and 
operators of critical infrastructure to secure their networks through 
risk assessment, mitigation, and incident response capabilities.
    While each department has its own separate role, there is a high 
level of cooperation on cybersecurity activities including the U.S. 
Cyber Command, DHS/NCCIC, and NSA's Threat Operations Center. 
Collaboration between these designated `cyber centers' has been 
maturing since the approval of HSPD-23/NSPD-54 in 2007. To further 
cooperation between DOD and DHS, a memorandum of agreement was signed 
in October 2010 that formalized coordination processes, embeds DOD 
cybersecurity analysts within DHS and puts DHS leaders and analysts 
inside the National Security Agency to foster operational coordination. 
(This agreement was codified in the National Defense Authorization Act 
for Fiscal Year 2012, P.L. 112-81, Sec. 1090.) Additionally, I meet 
regularly with General Alexander to coordinate and align operational 
strategies.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Dan Coats to 
                         Hon. Janet Napolitano
    Question 1. The President's Executive Order focuses on threats to 
the Nation's critical infrastructure, and yet numerous open source 
reports indicate state sponsored industrial and economic espionage 
against American businesses is an equal if not greater threat to 
America's national and economic security. For example, last year 
General Keith Alexander spoke at an AEI event and called industrial 
cyberespionage and intellectual property theft ``the greatest transfer 
of wealth in our Nation's history.'' He estimated the costs to the 
American economy to be $388 billion, and a 2011 report from the Office 
of National Counter-Intelligence Executive estimated the costs to the 
American economy to be in the $400 billion range, with Chinese actors 
as the world's most active perpetrators of industrial cyberespionage. 
As you also know, the cybersecurity firm Mandiant released a report 
this year documenting the problem of Chinese economic/industrial 
espionage, specifically looking at the ``advanced persistent threat'' 
(APT) from one of the Chinese People's Liberation Army (PLA) 
cyberattack units. How would you compare the threat to our economic 
interests to the threat to critical infrastructure?
    Answer. The Department of Homeland Security (DHS) continues to be 
concerned about the effects of cyber-enabled theft of intellectual 
property, trade secrets and commercial data, and works daily with 
interagency partners and the private sector to address the threat. 
Additionally, while the consequences of wide-scale intellectual 
property theft may be different than those from a destructive or 
disruptive cyber attack to critical infrastructure, techniques that 
adversaries may use to steal sensitive business information also expose 
vulnerabilities that could be used to destroy or disrupt critical 
systems and services. Both are very real threats of potentially high 
consequence, and we take them very seriously. In fact the things we 
must do to address them both are quite similar.
    To combat cyber crime, DHS relies upon the skills and resources of 
the United States Secret Service (USSS), U.S. Immigration and Customs 
Enforcement (ICE), U.S. Coast Guard (USCG), and U.S. Customs and Border 
Protection (CBP) and works in cooperation with partner organizations to 
investigate cyber criminals. Since 2009, DHS has prevented $10 billion 
in potential losses through cyber crime investigations and arrested 
more than 5,000 individuals for their participation in cyber crime 
activities. The Department leverages the 31 USSS Electronic Crimes Task 
Forces (ECTF), which combine the resources of academia, the private 
sector, and local, state and Federal law enforcement agencies to combat 
computer-based threats to our financial payment systems and critical 
infrastructure. The Department is also a partner in the National Cyber 
Investigative Joint Task Force, which serves as the national focal 
point for U.S. Government coordination, integration, and sharing of 
information relating to all domestic national security cyber 
investigations sharing across the interagency. To further these 
efforts, the Administration issued its Strategy on Mitigating the Theft 
of U.S. Trade Secrets in February of this year. DHS will act vigorously 
to support the Strategy's efforts to combat the theft of U.S. trade 
secrets--especially in cases where trade secrets are targeted through 
illicit cyber activity by criminal hackers.
    In addition, DHS works with its interagency partners to distribute 
relevant technical threat data to industry partners enabling them to 
take action to prevent and mitigate potential network intrusions and 
cyber-enabled theft. The DHS Enhanced Cybersecurity Services (ECS) 
program is one of many efforts to increase this sharing of technical 
threat data. Under ECS, DHS provides classified and sensitive threat 
information to qualified cybersecurity providers, who then utilize this 
information to offer enhanced cybersecurity services to many businesses 
that qualify as critical infrastructure entities. However, just as with 
addressing threats to physical critical infrastructure, we must have 
two-way and real-time information exchange among government agencies, 
network owners and operators, and others in order to more fully 
understand what malicious cyber activity is occurring and how to best 
address it. We look forward to working with Congress to find ways to 
further increase this critical information sharing relationship and 
incentivize the adoption of cybersecurity best practices by critical 
infrastructure partners.

    Question 2. A GAO report released last month found that 
cybersecurity incidents at Federal agencies were on the rise. And while 
there is an uptick in these incidents, challenges remain in how DHS is 
carrying out responsibilities in sharing information among Federal 
agencies and key private sector entities such as critical 
infrastructure owners. The GAO report also found that DHS is not 
``developing a timely analysis and warning capability,'' citing that 
the Inspector General at DHS recommended that DHS establish a 
``consolidated, multiple-classification-level portal to share incident 
response related information'' which DHS says will not be ready until 
2018. The report also found that Federal Information Security 
Management Act compliance is inadequate, with only 8 of 22 agencies 
being in compliance with FISMA standards in 2011 (down from 13 out of 
24 agencies in 2010) and that 9 agencies ``had not fully developed 
required policies for monitoring security on a continuous basis.'' 
Since, according to GAO and various agency Inspectors General, the 
Federal Government has demonstrated it is unable to meet its 
requirements under FISMA, what confidences should we have that it is 
prepared to regulate and oversee private sector operations of critical 
infrastructure?
    Answer. Significant progress has been made in improving information 
sharing among the Department of Homeland Security's (DHS) Office of 
Cybersecurity and Communication, Federal agencies, and other partners 
and constituents. DHS provided documentation of its improved public-
private cybersecurity information sharing activities to Government 
Accountability Office (GAO) in August 2011, promptly answered 
subsequent questions, and are awaiting GAO's closure of the associated 
recommendations under GAO's report on Key Private and Public Cyber 
Expectations Need to be Consistently Addressed. Additionally, GAO 
closed all ten recommendations under the Cyber Analysis and Warning 
report.
    Protecting critical infrastructure against growing and evolving 
cyber threats requires a layered approach. DHS is committed to ensuring 
cyberspace is supported by a secure and resilient infrastructure that 
enables open communication, innovation, and prosperity while protecting 
privacy, confidentiality, and civil rights and civil liberties. The 
Department has operational responsibilities for securing unclassified 
Federal civilian government networks and working with owners and 
operators of critical infrastructure to secure their networks through 
cyber threat analysis, risk assessment, mitigation, and incident 
response capabilities. DHS is also responsible for coordinating the 
national response to significant cyber incidents and for creating and 
maintaining a common operational picture for cyberspace across the 
government.
    In September 2012, DHS finalized the Strategic National Risk 
Assessment (SNSRA) Report for Communications in coordination with 
public and private sector partners and is currently working with 
industry to develop plans for mitigating risks identified in the SNSRA, 
which will determine the path forward in developing outcome-oriented 
performance measures for cyber protection activities related to the 
Nation's core and access communications networks. In addition, in 
February 2013, the President issued Executive Order 13636 on Improving 
Critical Infrastructure Cybersecurity as well as Presidential Policy 
Directive 21 on Critical Infrastructure Security and Resilience, which 
will strengthen the security and resilience of critical infrastructure 
through an updated and overarching national framework that acknowledges 
the increased role of cybersecurity in securing physical assets. 
Executive Order 13636 expands the voluntary DHS Enhanced Cybersecurity 
Service program, which promotes cyber threat information sharing 
between government and the private sector. This engagement helps 
critical infrastructure entities protect themselves against cyber 
threats to the systems upon which so many Americans rely.
    DHS actively collaborates with public and private sector partners 
every day to improve the security and resilience of critical 
infrastructure while responding to and mitigating the impacts of 
attempted disruptions to the Nation's critical cyber and communications 
networks and to reduce adverse impacts on critical network systems. 
Such partnerships, combined with existing DHS critical infrastructure 
cybersecurity programs, assure that DHS will have the relationships and 
expertise to implement an oversight and compliance regime. Examples of 
existing programs include the Cyber Information Sharing, and 
Collaboration Program, which enables regular and trusted sharing of 
actionable cybersecurity threat indicators that those owners and 
operators can immediately use for computer network defense activities. 
Additionally, DHS has long served as the Sector Specific Agency for 
both the Information Technology and Communications sectors. This 
trusted partnership has enabled further collaborative initiatives such 
as the Information Technology Sector Risk Assessment, the Cybersecurity 
Evaluation Program, which conducts voluntary cybersecurity assessments 
across all critical infrastructure sectors, and the Critical 
Infrastructure-Cyber Security program that leads efforts with public 
and private sector partners to promote an assured and resilient U.S. 
cyber infrastructure.
    DHS also conducts daily operational, information sharing, incident 
response, and technical assistance through the National Cybersecurity 
and Communications Integration Center (NCCIC) and its components. Every 
day, partners from private sector critical infrastructures, Information 
Sharing and Analysis Centers, Federal cybersecurity centers, and 
international governments collaborate on cybersecurity response and 
information sharing through the NCCIC. DHS directly supports Federal 
civilian departments and agencies in developing capabilities that will 
improve their cybersecurity posture in accordance with the Federal 
Information Security Management Act (FISMA). To protect Federal 
civilian agency networks, our National Protection and Programs 
Directorate (NPPD) is deploying technology to detect and block 
intrusions through the National Cybersecurity Protection System and its 
EINSTEIN protective capabilities, while providing guidance on what 
agencies need to do to protect themselves and measuring implementation 
of those efforts. Under current authorities though, DHS can only 
monitor, recommend security posture improvements, and report on Federal 
agencies' compliance with FISMA. As the GAO report notes, the current 
law should be updated to give DHS the statutory authority it needs to 
fulfill the responsibilities it has been given.
    NPPD is also developing a Continuous Monitoring as a Service 
(CMaaS) capability. Through an automated and continuously updated 
analytical process, the deployed .gov agency sensors will provide data 
to a centralized dashboard. Cyber risk related data will be updated and 
displayed daily for management and technical staff review that will 
provide insight into network vulnerabilities to more readily prioritize 
for the purposes of ongoing mitigation. When combined, the overall 
results from Departments and Agencies will contribute toward improving 
the agency-specific, as well as the Federal Executive Branch overall 
cyber risk posture. This capability will support compliance with 
Administration policy, be consistent with guidelines set forth by the 
National Institute of Standards and Technology (NIST), and enable 
Federal agencies to move from compliance-driven risk management to 
data-driven risk management. These activities will provide 
organizations with information necessary to support risk response 
decisions, security status information, and ongoing insight into 
effectiveness of security controls.
    DHS partnered with the General Services Administration (GSA) to 
award a blanket purchase agreement (BPA) under which CDM tools and 
services can be provided to government entities. The BPA, with an 
anticipated $6-billion ceiling for the five years (one-year contract 
with four one-year options), is open to all Federal civilian and 
defense organizations, as well as state and local government entities. 
The significant size of the CDM contract was designed to compatibly 
support not only Federal civilian network protection assigned to DHS, 
but the large body of cybersecurity requirements for any Federal custom 
and cloud application over the life of the contract which are funded 
separately by each department and agency.
    Congress provided funding in the DHS Appropriations Act, 2013 (P.L. 
113-6) to implement Continuous Diagnostics and Mitigation (CDM) across 
civilian Executive Branch agencies in order increase our ability to 
identify and track threats, find vulnerabilities, mitigate the worst 
issues first and report on progress in doing so. CDM and FISMA 
legislative reforms that provide clear statutory authorities for 
carrying out the DHS mission would have the following benefits:

  <bullet> Improved security posture leading to improved regulatory 
        compliance

  <bullet> Standard security configurations across all Federal 
        Executive Branch civilian department and agency critical 
        network infrastructure

  <bullet> Improved communication and collaboration methods across 
        diverse stakeholder groups

  <bullet> Improved situational awareness creates synergy amongst the 
        Federal cybersecurity workforce and improves communication and 
        information sharing within the Federal enterprise

  <bullet> Increased efficiency and security posture through 
        collaboration and streamlining

    In addition, DHS works with critical infrastructure stakeholders in 
the private sector through the Industrial Control Systems Cyber 
Emergency Response Team (ICS-CERT). These relationships are maintained 
by ICS-CERT through cybersecurity incident analysis and onsite 
assistance, training opportunities in control systems security 
development, and the Industrial Control Systems Joint Working Group 
(ICSJWG).

    Question 3. The Executive Order focuses solely on government-to-
private-sector information sharing. Many believe, and I agree, that 
better private-to-government and private-to-private information sharing 
protocols need to be implemented, and I question how we can get there 
without better liability protections. What is your plan to encourage 
better private-to-government and private-to-private information 
sharing? How will the Framework incentivize private sector partnership 
without these carrots? Is it possible that private companies may 
withhold participation in the Framework until such incentives are 
provided through legislation?
    Answer. While Executive Order (EO) 13636 on Critical Infrastructure 
Cybersecurity works to increase information sharing from the government 
to the private sector, the Department of Homeland Security (DHS) is 
focused on expanding information sharing relationships both within the 
government and among the private sector through adherence to three 
goals:

  <bullet> Build trust and credibility among critical infrastructure 
        owners/operators;

  <bullet> Build sharing relationships where no sharing is currently 
        occurring; and

  <bullet> Incorporate individual owners/operators in the sharing 
        environment and align their cybersecurity and risk management 
        requirements with existing and emerging data flows being 
        developed or optimized.

    For example, through the Cyber Information Sharing and 
Collaboration Program (CISCP), DHS has entered into Cooperative 
Research and Development Agreements with critical infrastructure owners 
and operators that enable regular and trusted sharing of actionable 
cybersecurity threat indicators that are immediately used for computer 
network defense activities. Additionally, DHS has long served as the 
Sector Specific Agency for both the Information Technology and 
Communications sectors (as well as eight other sectors). This trusted 
partnership with private sector and Federal partners has enabled 
further collaborative initiatives such as the Information Technology 
Sector Risk Assessment, the Cybersecurity Evaluation Program, which 
conducts voluntary cybersecurity assessments across all critical 
infrastructure sectors, and the Critical Infrastructure-Cyber Security 
program that leads efforts with public and private sector partners to 
promote an assured and resilient U.S. cyber infrastructure.
    The Department also has established close working relationships 
with industry through partnerships like the Protected Critical 
Infrastructure Information (PCII) Program, which enhances voluntary 
information sharing between infrastructure owners and operators and the 
government. Furthermore, DHS conducts daily operational, information 
sharing, incident response, and technical assistance through the 
National Cybersecurity and Communications Integration Center (NCCIC) 
and its components: the United States Computer Emergency Readiness 
Team, the Industrial Control Systems Cyber Emergency Response Team, and 
the National Coordinating Center for Communications. Presently, the DHS 
Science and Technology Directorate (S&T) has ongoing or proposed 
cooperative activities in the area of cyber security research and 
development (R&D) to promote the benefits of networked technology 
globally, and a secure, reliable, and interoperable cyberspace.
    Information Sharing and Analysis Centers (ISACs) are key partners 
in these efforts because they, along with similar not-for-profit and 
commercial entities, are able to serve as trusted providers of data 
from DHS to their members/customers and to other ISACs and like 
organizations. In turn, they serve as aggregators as well as 
anonymizers of their relevant member/customer cybersecurity threat data 
and provide threat data back to one another without attribution to the 
source of the data. DHS is supportive of and regularly coordinates with 
these partners as one way to promote private to private information 
sharing.
    The key incentive for all participants in this type of data flow is 
the potential for generating increased, actionable situational 
awareness where the individual participants benefit from the 
experiences of the whole. The ability to achieve visibility of threats 
that are exploiting other sectors or organizations before that 
particular threat or a variant of that threat manifests in your 
networks or systems is a benefit available to all participants. We 
currently have more than 35 companies, ISACs, and like organizations 
who are participating in data sharing in this fashion, with more than 
50 companies in negotiations to join that program effort, and we do not 
feel we need to offer specific incentives to join in these types of 
partnerships with the Government.
    In response to the EO the DHS and the Departments of Commerce and 
Treasury provided recommendations to the President, through the 
Assistant to the President for Homeland Security and Counterterrorism 
and the Assistant to the President for Economic Affairs, identifying 
potential incentives that could be considered as we move forward in 
this space. Since the agencies submitted their reports, the White House 
has completed the interagency review process and determined a path 
forward. Existing programs and authorities are currently under review 
to determine how we and other Departments can enable more private-to-
private and private to government information sharing. As mentioned 
previously, we have successful models with some ISACs and the CISCP and 
are looking to expand on that basis and since Congress has previously 
granted authorities that may be able to be utilized to provide 
liability protection and address other legal concerns. We do know the 
administration is looking at a package of incentives outside 
information sharing for companies that adopt the framework; however, 
private sector response to development efforts for the framework has 
been largely positive, and we anticipate that many companies will adopt 
it without an accompanying incentives package.

    Question 4. As Secretary of Homeland Security, you were an advocate 
for the administration's cybersecurity legislation. And last August, 
when the U.S. Senate considered the Cybersecurity Act of 2012, you 
urged its passage. I agree with statements you made last year on the 
shared responsibility and urgency of improving cyber security. Do you 
still agree that cyber security is a shared responsibility that 
includes both the public and private sector? What is the role of the 
Information Technology (IT) sector in this shared responsibility and 
why did you support a carve-out for the IT sector?
    Answer. Yes. Cybersecurity is a shared responsibility that includes 
efforts from both the public and private sectors. Industry and the 
government have a long history of working together to protect the 
physical security of many critical assets that reside in private hands, 
from airports and seaports to national broadcast systems and nuclear 
power plants. There is no reason we cannot work together in the same 
way through a shared responsibility to protect critical infrastructure 
cyber systems upon which so much of our economic well-being, national 
security, and daily lives depend.
    The statement in EO 13636 regarding IT products and services 
reflects our consistent philosophy that cybersecurity standards must be 
technology neutral, and that the government should not dictate what IT 
components critical infrastructure owners and operators use in their 
systems. Furthermore, classifying any product or service as critical 
infrastructure simply because it is used by critical infrastructure 
would dilute our efforts to identify the entities whose incapacitation 
by cyber incident could cause catastrophic economic or national 
security consequences. We are closely engaged with the IT sector to 
ensure that critical infrastructure owners and operators across all 
sectors have the market choices to secure their systems.

    Question 5. Without additional statutory authority and 
congressional direction, the information sharing program is little more 
than directing executive departments and agencies to expedite the 
sharing of existing information. More importantly, the Executive order 
focuses only on the sharing of information from the government to the 
private sector. How do you intend to increase the sharing of 
information from industry to the government, and within and among 
industries?
    Answer. Through the Critical Infrastructure Information Sharing, 
Analysis, and Collaboration Program, DHS has entered into Cooperative 
Research and Development Agreements with critical infrastructure owners 
and operators that enable regular and trusted sharing of actionable 
cybersecurity threat indicators that are immediately used for computer 
network defense activities. Additionally, DHS has long served as the 
Sector Specific Agency for both the Information Technology and 
Communications sectors. This trusted partnership with private sector 
and Federal partners has enabled further collaborative initiatives such 
as the Information Technology Sector Risk Assessment, the Cybersecurity 
Evaluation Program, which conducts voluntary cybersecurity assessments 
across all critical infrastructure sectors, and the Critical 
Infrastructure-Cyber Security program that leads efforts with public 
and private sector partners to promote an assured and resilient U.S. 
cyber infrastructure.
    It is important to note that the Executive order directs Federal 
agencies to work within current authorities and increase voluntary 
cooperation with the private sector to provide better protection for 
computer systems critical to our national and economic security. It 
does not grant new regulatory authority or establish additional 
incentives for participation in a voluntary program. We continue to 
believe that a suite of legislation is necessary to implement the full 
range of steps needed to build a strong public-private partnership, and 
we will continue to work with Congress to achieve this.
    The Department also has established close working relationships 
with industry through partnerships like the Protected Critical 
Infrastructure Information (PCII) Program, which enhances voluntary 
information sharing between infrastructure owners and operators and the 
government. Furthermore, DHS conducts daily operational, information 
sharing, incident response, and technical assistance through the 
National Cybersecurity and Communications Integration Center (NCCIC) 
and its components: the United States Computer Emergency Readiness 
Team, the Industrial Control Systems Cyber Emergency Response Team, and 
the National Coordinating Center for Communications. Every day partners 
from private sector critical infrastructures, Information Sharing and 
Analysis Centers, Federal cybersecurity centers, and international 
governments collaborate on cybersecurity response and information 
sharing through the NCCIC. These activities take place voluntarily, and 
in recognition of the fact that DHS' unique positioning as the hub for 
cybersecurity and critical infrastructure security and resilience makes 
it the most effective and trusted point of coordination and 
collaboration for all of those stakeholders.
    Additionally, the DHS Science and Technology Directorate (S&T) has 
formalized 13 international bilateral agreements that allow for 
cooperative activities in the area of cyber security research and 
development (R&D) to promote the benefits of networked technology 
globally, and a secure, reliable, and interoperable cyberspace.

    Question 6. The definition of critical infrastructure in the 
President's Executive Order (EO) is very broad: ``systems and assets, 
whether physical or virtual, so vital to the U.S. that the incapacity 
or destruction of such systems and assets would have a debilitating 
impact on security, national economic security, national public health 
or safety, or any combination of those matters.'' It is hard to imagine 
any industrial sectors that would be excluded from such a definition. 
How do you balance security with practicality in implementing this 
definition?
    Answer. The term ``critical infrastructure'' is statutorily defined 
and this language has since been the basis for critical infrastructure 
protection activities, including Executive Order (EO) 13636. The 
Department of Homeland Security (DHS) has conducted broad engagement 
with critical infrastructure owners and operators over the past ten 
years that has enhanced the security and resilience of our Nation's 
infrastructure.
    Under Section 9 of EO 13636, the Department will identify a list of 
critical infrastructure whose incapacitation from a cyber incident 
would have catastrophic public health and safety, economic or national 
security consequences. This is a higher threshold than debilitating 
consequences and will focus on a small subset of U.S. infrastructure, 
not entire sectors.
    This is a criticality-based approach, and will result in limited 
Federal resources being focused on critical infrastructure, the failure 
of which would pose the greatest hazards.

    Question 7. Section 10 of the Executive order directs all sector-
specific agencies to make the Framework mandatory for their respective 
sectors of industry. Do you believe that the veiled threat of mandatory 
standards with few, if any, strong incentives is the right formula for 
a successful public-private partnership?
    Answer. With today's physical and cyber infrastructure more 
inextricably linked, critical infrastructure and emergency response 
functions are inseparable from the information technology systems that 
support them. The government's role in this effort is to share 
information and encourage enhanced security and resilience, while 
identifying and addressing gaps not filled by the market-place. While 
some companies have strong cybersecurity policies in place, others 
still need to implement improved cybersecurity practices. The framework 
will be developed collaboratively with industry and will incorporate 
existing international standards, practices, and procedures wherever 
possible.
    Section 10 of EO 13636 refers to ``Agencies with responsibility for 
regulating the security of critical infrastructure,'' which in general 
are not sector-specific agencies (SSAs). Not generally having 
regulatory authority, the SSAs are better able than regulators to 
engage in partnership with industrial sectors. Moreover, EO 13636 only 
directs existing regulators under current authorities to examine ways 
to increase their sector's cybersecurity; any mandatory participation 
here would occur only where regulators already have the authority to 
impose security requirements on their respected regulated entities. The 
aim is not to compel across-the-board participation, even if such 
authorities did exist. Even then, EO 13636 does not dictate a ``one-
size fits all'' approach, but rather promotes collaboration to 
encourage innovation and recognize differing needs and challenges 
within and among critical infrastructure sectors. Specifically, section 
8(d) of the EO requires the Secretaries of Homeland Security, Treasury 
and Commerce to each make recommendations on a set of incentives 
designed to promote participation in the voluntary cybersecurity 
framework. The Department of Homeland Security (DHS) is working 
collaboratively with industry as well as staff from Treasury and 
Commerce to further develop these recommendations, and the incentives 
found in this report will also inform the larger nation-wide 
conversation. While DHS can make recommendations, only Congress has the 
authority to provide strong incentives and agree with or implement any 
recommendations put forward from the three Incentives Reports.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ron Johnson to 
                         Hon. Janet Napolitano
    Question 1. The Government Accountability Office (GAO) issued a 
report in February 2013 entitled, ``National Strategy, Roles, and 
Responsibilities Need to be Better Defined and More Effectively 
Implemented.'' In this report GAO found that only eight of 22 of 
agencies were in compliance with risk management requirements under the 
Federal Information Security Management (FISMA) standards in 2011, down 
from 13 out of 24 in 2010. Yet the Federal Government reported 782 
percent more cyber incidents to the U.S. Computer Emergency Readiness 
Team in 2012 than it did in 2006. What is DHS doing to achieve greater 
compliance with FISMA standards from Federal agencies? How does the 
increase in cyber incidents against the Federal Government, combined 
with the decrease in compliance of Federal agencies with FISMA, impact 
the cybersecurity posture of the U.S. Government?
    Answer. The Department of Homeland Security's (DHS) role in the 
implementation of the Federal Information Security Management Act of 
2002 (FISMA) is delineated by Office of Management and Budget (OMB) 
guidance. Under current authorities, DHS can only monitor, recommend 
security posture improvements, and report on Federal agencies' 
compliance with FISMA. As the Government Accountability Office (GAO) 
report notes, the current law should be updated to give DHS the 
statutory authority it needs to fulfill the responsibilities it has 
been given. The Administration's May 2011 legislative proposal to 
Congress included provisions that would address this issue. The 
Administration continues to support legislation that would update 
Federal agency network security laws, and codify DHS's cybersecurity 
responsibilities.
    While FISMA did not envision the scope of today's emerging threats 
and cybersecurity challenges, DHS is pursuing a number of initiatives 
such as Continuous Diagnostics and Mitigation (CDM), Trusted Internet 
Connections, and the Einstein programs to strengthen cyber security 
defenses, visibility and situational awareness.
    In collaboration with the National Security Staff (NSS) and OMB, 
DHS uses its expanded CyberStat program to perform intense, focused 
reviews with the 24 Chief Financial Officers Act agencies to identify 
and mitigate challenges to agencies' FISMA implementation. This 
includes a plan of action and milestones, submitted by the agencies and 
accepted by NSS, OMB, and DHS, outlining the approach to correct 
identified deficiencies.
    Congress provided funding in the DHS Appropriations Act, 2013 (P.L. 
113-6) to implement Continuous Diagnostics and Mitigation (CDM) across 
civilian Executive Branch agencies in order to increase our ability to 
identify and track threats, find vulnerabilities, mitigate issues and 
report on progress. Earlier appropriations initiated other DHS security 
programs.
    DHS continues to encourage Congress to pursue legislation that 
would result in:

  <bullet> Improved security posture leading to improved regulatory 
        compliance;

  <bullet> Standardized security configurations across critical 
        infrastructure;

  <bullet> Improved communication and collaboration methods across 
        diverse stakeholder groups;

  <bullet> Improved situational awareness, which creates synergy among 
        elements of the cybersecurity workforce; improves communication 
        and facilitates information sharing; and

  <bullet> Increased efficiency and security posture through 
        collaboration and streamlining.

    Question 2. GAO found that DHS is not successfully detecting, 
responding to, or mitigating cyber incidents. Specifically, GAO raised 
concerns with how DHS shares information among Federal agencies and the 
private sector. The DHS OIG recommended that DHS establish a 
``consolidated, multiple-classification-level portal to share incident 
response related information,'' but DHS will not have this portal ready 
until 2018. How will not having this capability until 2018 impact DHS' 
role in sharing cyber threat information, as directed in the Executive 
order?
    Answer. GAO-13-187 highlights important challenges facing Federal 
agencies, including DHS, in executing the cyber mission. The report 
also highlights the significant and important progress DHS and other 
agencies have made in advancing this mission.
    As a result of the progress DHS has made in information sharing and 
analysis, GAO closed each of the 10 recommendations under its Cyber 
Analysis and Warning report. Furthermore, DHS provided GAO with all 
documentation requested to close the remaining recommendations under 
GAO's report titled Key Private and Public Cyber Expectations Need to 
be Consistently Addressed. The National Cybersecurity Protection 
System's information-sharing and collaboration environment will address 
the recommendation to establish a consolidated multi-classification 
information-sharing capability. Funding for this activity is included 
in the President's Fiscal Year 2013 budget request. While continuing 
the development of a comprehensive information sharing capability is 
important, DHS maintains existing capabilities that allow for 
information exchange with private sector partners at the classified and 
unclassified levels facilitating DHS' role in sharing cyber threat 
information, as directed in the Executive order.
    The delay in implementation may impact the frequency and timeliness 
with which DHS is able to exchange classified cyber information with 
partners. Processes leveraged as a workaround until the portal reaches 
FOC may be cumbersome to analysts and reduce the amount of time 
available to conduct strategic analysis across classified and 
unclassified domains. As a result, partners may find other sources for 
similar information, which could result in a decrease in their 
willingness to engage in the Department's various information sharing 
initiatives.
    Existing NCPS Information Sharing capabilities will be improved and 
new capabilities will be brought online as the Information Sharing 
environment matures. The NCPS Information Sharing CONOPs identifies 
multiple information sharing capabilities. A capability roadmap has 
been developed that identifies dependencies and specifies how these 
capabilities will be acquired and implemented. Initial Operating 
Capability for this set of capabilities is targeted for FY 2015. Full 
Operating Capability, which includes integration of capabilities and 
automation of processes across multiple security fabrics, will occur in 
FY 2018.

    Question 3. GAO found that the Federal Government's strategy for 
addressing international cyber security challenges is not sufficient or 
outcome oriented. GAO also recommended that the White House 
Cybersecurity Coordinator develop an overarching Federal cybersecurity 
strategy. GAO indicates that such a strategy would hold Federal 
agencies accountable for making improvements in their own house, and 
would address international cybersecurity challenges. Do you agree with 
the White House that an overarching Federal cybersecurity strategy is 
unnecessary? Why or why not?
    Answer. The Department of Homeland Security (DHS) executes a whole-
of-government and whole-of-nation approach to cybersecurity. In support 
of this, DHS has aligned its cybersecurity goals, initiatives, and 
objectives to be consistent with the Administration's priorities for 
protecting our Nation's critical information infrastructure and 
building a safer and more secure cyber ecosystem. For instance, DHS 
worked closely with Federal departments and agencies in developing the 
Blueprint for a Secure Cyber Future: The Cybersecurity Strategy for the 
Homeland Security Enterprise (Blueprint). The Blueprint leverages the 
Comprehensive National Cybersecurity Initiative, the President's 2010 
National Security Strategy, the Department of Defense's Strategy for 
Operating in Cyberspace, and the President's International Strategy for 
Cyberspace. Together, these documents take a whole-of-government 
approach and reinforce the need for holistic thinking about the many 
opportunities and challenges the Nation faces in cyberspace.

    Question 4. In Mr. Gallagher's testimony he pointed out the 
difference between ``standards'' and ``regulations.'' Do you agree with 
Mr. Gallagher that there is a difference between standards and 
regulations?
    Answer. Yes, the Department of Homeland Security agrees that there 
is a difference between standards and regulations. Regulations are 
mandatory and binding on regulated parties as required by a particular 
authority. Executive Order (EO) 13636 does not give any Federal entity 
new authority to impose regulations or mandates on critical 
infrastructure owners and operators. One of the many goals of this EO 
and Presidential Policy Directive 21 (PPD 21) is to better streamline 
the government's interactions with critical infrastructure owners and 
operators and state, local, tribal, and territorial partners.
    The EO directs the National Institute of Standards and Technology 
(NIST) to work with stakeholders to develop a voluntary framework for 
reducing cyber risks to critical infrastructure. The Framework will be 
created using standards, guidelines, and best practices that promote 
the protection of information and information systems supporting 
critical infrastructure operations. Standards are voluntary 
recommendations established by consensus and are recognized by a 
standardization body. NIST will ask stakeholders to identify existing 
cybersecurity standards, guidelines, frameworks, and best practices 
that are applicable to increase the security of critical infrastructure 
sectors and other interested entities. Regulators of critical 
infrastructure operations are encouraged to share their insight and 
help identify existing standards already developed by industry through 
consensus. Those activities would support the development of the 
framework and prove useful in identifying any gaps in current practices 
given the current and projected cyber risks. Entities that are 
unregulated--or where regulators determine that they do not have the 
ability under existing law to regulate for cybersecurity--will be 
encouraged to voluntarily adopt the framework.

    Question 5. Mr. Gallagher stated in his that any approach to 
cybersecurity should not ``dictate solutions to industry, but rather 
facilitate(s) industry coming together to develop solutions.'' Do you 
agree that any approach to a Cybersecurity Framework should not 
``dictate'' solutions to industry but rather ``facilitate industry 
coming together to develop solutions?'' What potential disadvantage 
would there be to government dictating a solution to industry rather 
than facilitating it?
    Answer. Yes, the Department agrees that any approach to the 
Cybersecurity Framework should ``facilitate industry coming together to 
develop solutions.''
    The Framework will not dictate ``one-size fits all'' technological 
solutions. Instead, it will promote a collaborative approach to 
encourage innovation and recognize differing needs and challenges 
within and among critical infrastructure sectors. The Government 
believes that companies driving cybersecurity innovations can help 
shape best practices across critical infrastructure, in part because of 
the changing nature and dynamic of risk across cyber and critical 
infrastructure. Companies looking to strengthen their security would 
have the flexibility to decide how best to do so using innovative 
products and services available in the marketplace and choosing which 
components of the Framework would apply to their business. Companies 
that are cyber leaders will be looked to as models for implementing 
best practices and driving the creation and implementation of a 
Cybersecurity Framework itself.

    Question 6. GAO found that Federal cyber strategies lack clear 
goals, performance measures, defined costs and resources, established 
roles and responsibilities, and do not coordinate with other national 
strategies. Yet the EO directs DHS to use a ``risk-based'' approach to 
identify ``critical infrastructure'' within 150 days. The EO also 
directs DHS to develop performance measures associated with the 
Cybersecurity Framework NIST is charged with developing. If Federal 
cyber strategies lack goals and performance measures, what experience 
does it have to draw on to develop performance measures for the private 
sector, as directed in the EO?
    Answer. The Department's Blueprint for a Secure Cyber Future has 
specific goals and performance measures associated with it. That said, 
Section 7(d) of Executive Order (EO) 13636 directs the Department of 
Homeland Security (DHS) to provide ``performance goals''--not 
performance measures--in connection with the Cybersecurity Framework 
that is being prepared by the National Institute of Standards and 
Technology (NIST). Critical infrastructure owners and operators that 
adopt the goals would then develop their own measures and targets since 
each sector and sub-sector has unique characteristics and each owner/
operator is in the best position to tailor the performance goals to its 
business model. Separately, NIST's Cybersecurity Framework will include 
guidance for measuring the performance of an entity as it implements 
the framework. NIST has considerable experience developing similar 
guidance through its special publications, and the draft Framework is 
being developed through extensive consultation with industry. Further, 
they are able to influence the effort through their direct engagement 
and input.

    Question 7. Why do you believe Federal cyber strategies have failed 
to include clear goals, performance measures, defined costs and 
resources, established roles and responsibilities, and to coordinate 
with other national strategies?
    Answer. Legacy Federal cyber strategies were developed by different 
agencies at different points in time. However, beginning with the 
Comprehensive National Cybersecurity Initiative in 2008, which was 
followed by the Administration's Cyberspace Policy Review in 2009, 
Federal cyber strategies have increasingly been developed through 
interagency processes and with the attributes identified above. For 
example, DHS helped lead development of ``Trustworthy Cyberspace: 
Strategic Plan for the Federal Cybersecurity Research and Development 
Program.'' In another example, DHS's Blueprint for a Secure Cyber 
Future contains goals against which the Department's cybersecurity 
programs align performance measures, milestones, resources, roles and 
responsibilities. Future year budget requests and performance measures 
for emerging programs are developed in alignment with the Blueprint. In 
addition to the Blueprint, the Administration's international cyber 
strategy, and the Department of Defense's cybersecurity strategy 
provide the architecture of ongoing initiatives upon which EO 13636 and 
Presidential Policy Directive (PPD) 21 are being implemented. With the 
issuance of EO 13636 and PPD-21, the Administration is providing an 
opportunity for the Department, other Federal, state and local 
agencies, and the private sector to discuss and prioritize 
cybersecurity measures to improve critical infrastructure cybersecurity 
and ensure overall critical infrastructure security and resilience. 
These actions direct the Department to create performance goals, 
consider resourcing, and work with and update national strategies, 
which will also outline roles and responsibilities for these efforts.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Kelly Ayotte to 
                       Hon. Patrick D. Gallagher
    Question. I've recently read that some CIOs would have higher 
comfort levels managing cyber security with cloud computing because 
vendors such as Google and salesforce.com have vastly more resources to 
protect against cyber threats than smaller companies do. Do you believe 
and Executive Order or a cyber bill would limit a company's ability to 
farm out their cyber security needs? Can you address in more detail 
your thoughts on cloud computing as it relates to cybersecurity?
    Answer. Cloud computing is a powerful option that, when implemented 
correctly, allows businesses to use information technology services to 
meet their business needs while protecting their assets. Cloud 
computing can provide cybersecurity capabilities that organizations 
might find more cost-effective and often allow more resources to 
provide cybersecurity than the organizations might be able to provide 
themselves. This is generally a measurement of each side's 
cybersecurity capability, the services offered by the Cloud provider, 
the cost to provide those services, and the level of needed assurance 
and visibility of those services by the customer.
    The Executive Order requires that ``the Cybersecurity Framework 
will provide guidance that is technology neutral''. As such, the 
Framework will not limit or put constraints on a company's ability to 
use a Cloud service provider to meet their needs. The Framework will 
not require or limit a specific architecture or implementation model.
    Under its responsibilities in the Federal Information Security 
Management Act (FISMA), NIST has published several public cybersecurity 
guides and recommendations on the cybersecurity capabilities of cloud 
technologies, as well as guidance on cybersecurity considerations when 
using cloud service providers. NIST also works jointly with other 
agencies in the Federal Risk and Authorization Management Program 
(FedRAMP), a government-wide program that provides a standardized 
approach to security assessment, authorization, and continuous 
monitoring for cloud products and services.
    More detailed information on the NIST work in cloud computing and 
cybersecurity can be found at the below links:

        www.fedramp.gov

        www.nist.gov/itl/cloud/

        http://www.nist.gov/itl/cloud/publications.cfm
                                 ______
                                 
      Response to Written Question Submitted by Hon. Dan Coats to 
                       Hon. Patrick D. Gallagher
    Question. NIST is tasked with developing the framework outlined in 
the EO, which I think is appropriate given NIST's technical expertise. 
Does NIST have the capacity to develop this framework utilizing its 
existing resources?
    Answer. Yes. Given that NIST's philosophy is that industry should 
lead the development of the Framework, NIST's role with the Framework 
will be primarily to convene and provide technical expertise, instead 
of developing new standards and solutions. This ``bottom-up'' approach 
allows NIST to leverage existing resources, and is similar to its work 
with industry to address national priorities in a range of topics, 
ranging from smart grid and electronic health records to atomic clocks, 
advanced nanomaterials, and computer chips.
    Going forward, our process will continue to be an open one--using 
an approach to enhance cybersecurity across the sectors through 
industry consensus. NIST's process will be focused on developing the 
Framework in such a manner that the standards and practices can apply 
to the range of sectors, with a full range of operational and business 
needs. That will allow for increased engagement and flexibility, both 
for the standards and practices that comprise the framework and for the 
evolving nature of the threat.
    In addition to existing resources, in the Administration's FY14 
Budget request NIST has an increase of $2M for cybersecurity standards 
that will support the framework being developed under the Executive 
Order on Improving Critical Infrastructure Cybersecurity.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ron Johnson to 
                       Hon. Patrick D. Gallagher
    Question 1. I was pleased to read in your testimony that the 
Cybersecurity Framework NIST is charged with developing will be ``NIST-
coordinated and industry-led.'' How can we ensure that the best 
practices and standards industry already has and is developing are 
utilized in this Framework?
    Answer. Through a request for information (RFI), NIST asked 
stakeholders a series of questions about existing standards, practices, 
and frameworks. NIST received 244 responses to the RFI including 
responses from individuals, industry groups and associations (to show 
consensus) and organizations (to be able to provide additional detail 
on particular responses). NIST will also be hosting a series of 
workshops to gather more information and develop the Framework, to 
ensure that those existing standards and best practices are 
incorporated, and where potential gaps might exist. The first will be 
held at Carnegie Mellon Campus in Pittsburgh on May 29-31, followed by 
additional workshops around the country on the weeks of July 15 and 
September 9. The draft Framework will also be posted for another round 
of comment by October 10. In between each workshop NIST will publically 
present findings to ensure additional collaboration.

    Question 2. What can be done to ensure that the voluntary program 
DHS is charged with developing for participation in this Framework does 
not turn into a mandatory regulatory structure?
    Answer. The Executive Order (E.O. 13636--Improving Critical 
Infrastructure Cybersecurity) states that the program established by 
the Department of Homeland Security in coordination with Sector-
Specific Agencies shall be voluntary. NIST plans on discussing issues 
relating to long-term public-private governance to ensure that the 
framework stays flexible and effective in the dynamic environment of 
threats and new technologies. The EO encourages voluntary participation 
and adoption and provides for harmonization among existing regulatory 
requirements.

    Question 3. Your testimony states that any approach to 
cybersecurity should not ``dictate solutions to industry, but rather 
facilitate(s) industry coming together to develop solutions.'' Do you 
believe that mandatory regulations in a future Cybersecurity Framework 
equate to the government dictating a solution to industry?
    Answer. Some sectors--but not all--of our most critical 
infrastructure already fall under cybersecurity regulation. The RFI 
issued by NIST asked a variety of questions about those regulated 
sectors, to ensure that the Framework would be applicable for parts of 
industry. In addition, the executive order itself calls for a review of 
existing cybersecurity regulation. For those sectors, regulatory 
agencies will use the Cybersecurity Framework to assess whether 
existing requirements are sufficient to protect against cyber attack. 
If existing regulations are insufficient or ineffective, then agencies 
must propose new, cost-effective actions based upon the Cybersecurity 
Framework. Regulatory agencies will use their existing process to 
consult with their regulated companies to develop and propose any new 
regulations, allowing for a collaborative process.

    Question 4. You state in your testimony that standards are 
``agreed-upon best practices against which we can benchmark 
performance. Thus, these are NOT regulations.'' Can you tell us more 
about the difference between standards and regulations? Why do you make 
such a point of clarifying that standards are NOT regulations?
    Answer. Standards are developed in a consensus process with 
stakeholders and are voluntary. Technical regulations are set by an 
authority and are mandatory. My testimony makes that distinction in 
order to specify that the process under the Executive order will build 
on the existing solutions that are already used throughout industry, 
instead of generating regulations. The Executive Order specifies that 
the Framework must meet the requirements of the National Institute of 
Standards and Technology Act, as amended (15 U.S.C. 271 et seq.), the 
National Technology Transfer and Advancement Act of 1995 (Public Law 
104-113), and OMB Circular A-119, as revised--all laws and policy that 
dictate how the Federal Government uses standards and participates in 
standards development.

    Question 5. What downside is there to turning industry standards 
into mandatory regulations in a Cybersecurity Framework?
    Answer. Having industry standards as a part of the Cybersecurity 
Framework would not turn them into mandatory regulations. The 
development of the Framework will be done in such a way to encourage 
adoption of existing standards--focusing on practices that will enhance 
the security of organizations that easily fit in their current business 
practices. We expect the Framework to have tools that will satisfy 
different regulatory and legal requirements with an ``implement once, 
comply many'' mentality. This would lower regulatory compliance costs 
while allowing organization to focus on risk management.

    Question 6. Given your experience, how can the International 
Organization for Standardization be leveraged to develop voluntary 
standards for what will be deemed cyber critical infrastructure?
    Answer. The International Organization for Standardization is one 
of many industry led, consensus based, transparent Standards 
Development Organizations (SDOs) that operation in a multinational 
environment. This type of SDO is essential for large scale, global 
adoption where both our critical infrastructures and those that supply 
them with critical IT and equipment operate in a global market.
    NIST will work with the stakeholders in a public-private 
partnership on the development of the framework and will identify both 
when and where the framework or components of the framework are ready 
for further development as international standards.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                            David E. Kepler
    Question 1. I think it's important to recognize the proactive steps 
industry has undertaken to invest in cyber security and independently 
develop programs and best practices to protect their networks, 
operations and customers. Do you believe privately-held critical 
infrastructure companies have a responsibility to secure themselves and 
their customers from cyber threats to the maximum extent possible?
    Answer. Yes, cybersecurity risk is important and should be managed 
by all companies. Companies are limited by the amount of cyber 
intelligence that government shares, quality and security of IT 
products, and services provided by the telecommunication sector. These 
should be an area of emphasis for any new cyber security legislation.

    Question 2. I appreciate the efforts Dow and the American Chemistry 
Council have made. Are other major critical infrastructure sectors and 
companies making similar investments in implementing cyber security 
procedures and promoting best practices among their employees?
    Answer. We do not have direct exposure to the initiatives of other 
sectors.

    Question 3. Dow Chemical is, of course, a major company with 
substantial resources to devote to this problem. Do all critical 
infrastructure sectors and companies have the same level of resources 
to devote to cyber security?
    Answer. We are unable to comment on this.

    Question 4. Do all critical infrastructure sectors and companies 
share the same deep knowledge and appreciation of the seriousness of 
cyber security threats as you and your company?
    Answer. We have participated in some industry forums where other 
sectors have shared their approach to address cyber security. It seems 
to be an important risk for American companies.

    Question 5. If not all critical infrastructure sectors and 
companies share the same will and capability to address this threat, 
does the Federal Government have a responsibility to do something to 
direct or assist measures to protect that critical infrastructure?
    Answer. We do support legislation that promotes information sharing 
and provides liability protection. In addition to that, legislation 
should address the accountability of IT and telecommunication suppliers 
to produce secure products and be unified in providing services that 
companies can rely on for threat response. Government, IT industry and 
telecommunications are the backbone of the internet.

    Question 6. Are there inter-sector efforts among private critical 
infrastructure providers to help one another develop cyber security 
procedures and best practices? It would seem that all sectors and 
companies ought to be able to agree on some investments in this area 
that are necessary and wise.
    Answer. ACC has been promoting information sharing among chemical 
companies and has defined cyber security expectations for companies 
that are part of ACC and the Responsible Care program. We do not 
actively collaborate with other sectors.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Dan Coats to 
                            David E. Kepler
    Question 1. The EO, as I read it, focuses solely on government-to-
private-sector information sharing. My sense is that better private-to-
government and private-to-private information sharing protocols need to 
be implemented, and I question how we can get there without better 
liability protections. What would you need for better private-to-
government and private-to-private information sharing?
    Answer. Experience would indicate that most of the critical 
infrastructure sectors have good private-to-private information sharing 
protocols that have been developed in their industry groups. However, 
cross industry, regional and national private-to-private information 
sharing could be improved. The following capabilities would help 
improve information sharing:

  <bullet> A well-established protocol on how information will be 
        recorded and stored.

  <bullet> Clarity on which individuals can receive information.

  <bullet> Relief from liability for information sharing, provided a 
        proper management system is in place, and liability protection 
        for the private sector as a result of a cyber-attack, as 
        afforded under the Support Anti-terrorism by Fostering 
        Effective Technologies (SAFETY) Act of 2002.

  <bullet> Protocol on managing anti-trust and FOIA requests.

    Question 2. Expertise in cybersecurity is a formula (expertise = 
technical capability + cyber threat information). Where do you turn for 
expertise now and how might that change under the President's Executive 
Order? Do you feel private sector cybersecurity is lacking technical 
capability or cyber threat information?
    Answer. There has been significant investment in technical skills, 
expertise and technologies in the chemical industry and at Dow, 
specifically. We find this to be true in most large companies and 
critical infrastructure industries. There has also been strong 
engagement in standard setting. We benchmark and share information with 
our industry, across industries, with government agencies and with IT 
and security suppliers. It is not clear to us that this is changing 
with the Executive order.
    The one area we think the Executive order falls short is how it 
will address the information technology community. Effective cyber 
information sharing policy should be comprehensive in its coverage of 
all relevant industry parties including the IT sector.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                            David E. Kepler
    Question 1. The National Infrastructure Advisory Council (NIAC) 
provides the President and Secretary Napolitano with advice on the 
security of the critical infrastructure sectors and their information 
systems. Based on your experience at the council, are you aware of 
current programs or efforts that could be leveraged to combat cyber 
threats, rather than setting up a completely new framework and set of 
standards?
    Answer. Cybersecurity policies were set back in 2003 for the 
nation, with the National Strategy to Secure Cyberspace, and many 
programs such as NIPP and CFATS in the chemical sector to address 
cybersecurity. In addition, there are standards already in place that 
industry is engaged in and implementing, such as ISO 27002 and ISA/IEC 
62443 for industrial automation. We would encourage the Administration 
to engage with industry sectors to build on the systems in place rather 
than starting from scratch.

    Question 2. Dow is one of the largest manufacturers of chemicals in 
the world and a multinational corporation that has its own 
cybersecurity standards and protections in place. Dow has also invested 
significantly in its own infrastructure to combat cyber threats. Now 
the Federal Government is setting up a framework with standards and 
best practices. This is after there was legislation in the last 
Congress that would have taken the role of government a step further. 
As a company with cybersecurity protections in place, with a vested 
interest in protecting your networks and assets, what do you feel is 
the proper role of government with regards to cybersecurity?
    Answer. The role of government is to set effective national 
security policy. The focus of an Executive Order or legislation should 
be:

  <bullet> Manage government networks according to its own standards.

  <bullet> Ensure that the information technology suppliers are working 
        with the communication suppliers and government to harden basic 
        Internet security.

  <bullet> Create an environment to safely share information between 
        the government and private sector.

  <bullet> Aggressive pursuit and prosecution of cyber criminals 
        (including international crime).

    Question 3. Your testimony states that Dow has concerns with the 
Executive order's current approach of a voluntary program for critical 
infrastructure industries to adopt cybersecurity standards. Is there a 
concern that government defined standards or selected standards could 
miss the specific challenges faced by the chemical industry? Dow 
operates in a dynamic environment and cyber threats are always changing 
and take on different forms. Why it is important for the voluntary 
standards to be flexible? Could a static government requirement inhibit 
your ability to respond to threats?
    Answer. The industry already works under standards and protocols, 
such as ISO 27002 and ISA/IEC 62443 for industrial automation, as well 
as the Responsible Care Security Code, that are not only voluntary but 
are required to maintain membership in the American Chemistry Council.
    There is a concern that there will be documentation and publication 
of any industry or company within critical infrastructure if they 
choose not to volunteer to a standard. There will be legitimate debate 
on specific risks and why a variance should be applied or how it should 
be applied. For example, cyber standards without imbedding and 
understanding the physical standards and other mitigations do not show 
the complete mitigation effort.
    Effectively, setting pseudo regulations may stifle superior 
cybersecurity systems by impeding quick response or system specific 
security.

    Question 4. There has been criticism in Congress directed at the 
private sector for not doing enough to combat cyber threats. Yet the 
GAO just found a disturbing trend that Federal agencies are failing to 
comply with Federal Information Security Management standards, and that 
DHS has not adequately met its responsibilities. Is Dow alarmed that 
some of the very agencies that may require more of the company with 
respect to cybersecurity have been found to be lacking in their own 
cyber standards and practices?
    Answer. Yes, a key point is that government should play a more 
constructive role in setting an example of securing their own networks, 
sharing information, as well as setting standards for the IT suppliers 
to help them rather than revisiting critical infrastructure compliance.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ron Johnson to 
                            David E. Kepler
    Question 1. How is Dow Chemical, and the chemical industry in 
general, currently hampered from sharing information among peers and 
with the government?
    Answer. We need legislation that covers liability protection for 
sharing threat or attack information with the government and antitrust 
relief to share with industry peers.

    Question 2. How important is it to your industry for Congress to 
pass information sharing legislation?
    Answer. It is very important for the industry that government 
shares more information on cyber security threats and best practices. 
We fully rely on the government's capabilities. The private sector does 
not have the resources or expertise to support cyber intelligence 
activities.

    Question 3. Would you prefer for Congress to attempt to pass a 
comprehensive piece of cybersecurity legislation or to attempt to 
address the low-hanging fruit in a piecemeal fashion?
    Answer. We do support a ``piecemeal, low-hang fruit approach'' like 
addressing information sharing. In addition to that, legislation should 
address the accountability of IT and telecommunication suppliers to 
produce secure products and be unified in providing services that 
companies can rely on for threat response. Government, IT industry and 
telecommunications are the backbone of the internet.

    Question 4. Mr. Gallagher's testimony stated that any approach to 
cybersecurity should not ``dictate solutions to industry, but rather 
facilitate(s) industry coming together to develop solutions.'' Do you 
believe that mandatory regulations would equate to the government 
dictating a solution to industry?
    Answer. Yes, the industry sector does not need prescriptive 
solutions. All solutions should be risk-based considering the 
characteristics and the dynamics of different industries. We agree that 
any approach to cyber security should create an environment where 
government, IT industry, the telecommunications sector and other 
industries can collaborate to elevate the overall security of the 
country.

    Question 5. You stated in your testimony that Dow adheres to a set 
of policies and standards from organizations including NIST and 
established industry standards set forth by the International 
Organization for Standardization (ISO). Given your experience, how can 
the ISO be leveraged to develop voluntary standards for what will be 
deemed cyber critical infrastructure?
    Answer. We believe that companies, especially critical 
infrastructure companies, should implement cyber security programs that 
comply with accepted industry practices like ISO 27001. Some of the 
companies are multinational, and ISO 27001 standards allow global 
implementations.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ron Johnson to 
                          Gregory C. Wilshusen
    Question 1. The Government Accountability Office (GAO) issued a 
report in February 2013 entitled, ``National Strategy, Roles, and 
Responsibilities Need to be Better Defined and More Effectively 
Implemented.'' In this report GAO found that only eight of 22 of 
agencies were in compliance with risk management requirements under the 
Federal Information Security Management (FISMA) standards in 2011, down 
from 13 out of 24 in 2010. Yet the Federal Government reported 782 
percent more cyber incidents to the U.S. Computer Emergency Readiness 
Team in 2012 than it did in 2006. How does the increase in cyber 
incidents against the Federal Government, combined with the decrease in 
compliance of Federal agencies with FISMA, impact the cybersecurity 
posture of the U.S. Government?
    Answer. Threats to systems supporting critical infrastructure and 
Federal operations are evolving and growing, and the increasing risks 
are demonstrated by the dramatic increase in reports of security 
incidents. However, several factors make it difficult to directly 
correlate the number of reported incidents with the overall 
cybersecurity posture of the U.S. Government. For example, according to 
the United States computer emergency readiness team (US-CERT), the 
growth in the total number of reported incidents is attributable, at 
least in part, to agencies improving their detection and reporting of 
security incidents on their networks. Further, having better detected 
incidents, it is possible that agencies are also better implementing 
appropriate responsive and preventative countermeasures. We have 
ongoing work to assess agencies' incident response and handling 
procedures. As we reported, agencies are still challenged in 
implementing several aspects of their information security programs, 
including risk management. To help address shortcomings in risk 
management, the administration has set a cross-agency priority goal to 
improve continuous monitoring. Continuous monitoring is the process of 
maintaining an ongoing awareness of information security, 
vulnerabilities, and threats to support organizational risk management 
decisions. Federal agencies are to achieve 95 percent implementation of 
a continuous monitoring program by 2014. According to the Office of 
Management and Budget (OMB), in Fiscal Year 2011, implementation of 
automated continuous monitoring capabilities rose from 56 percent of 
total assets in Fiscal Year 2010 to 78 percent of total assets in 
Fiscal Year 2011, although, as we reported, agency inspectors general 
cited weaknesses in continuous monitoring at a number of agencies. 
While the mixed results of agency FISMA implementation statistics do 
not clearly indicate whether the government's cybersecurity posture is 
deteriorating as a result of an increase in reported incidents, the 
overall need for agencies to improve their cybersecurity programs is 
clear.

    Question 2. On February 12, 2013, the White House issued an 
Executive Order (EO) entitled ``Improving Critical Infrastructure 
Cybersecurity.'' In this EO, the White House directs the National 
Institute for Standards and Technology to develop a Framework to reduce 
cyber risks to critical infrastructure. At the March 7 hearing, Mr. 
Gallagher stated that any such framework will be NIST-coordinated but 
industry-led in order to draw on standards and best practices from 
industry. He went on to say that any approach should not dictate 
solutions to industry but rather facilitate industry identifying 
solutions. How important is it for the development of the Cybersecurity 
Framework to be ``industry-led?'' Why?
    Answer. The Executive Order states that the Director of the 
National Institute of Standards and Technology (NIST) will lead the 
development of the Cybersecurity Framework, and the NIST Director is 
accountable for publishing a final version of the framework by February 
12, 2014. However, Mr. Gallagher, as noted, interpreted NIST's role to 
be one of coordinating an industry-led effort. This interpretation is 
consistent with the executive order's direction that the cybersecurity 
framework incorporate voluntary consensus standards and industry best 
practices to the fullest extent possible and employ a consultative 
process whereby the advice of critical infrastructure owners, among 
others, is considered. We believe the extent to which industry 
participates in developing the framework will likely influence the 
extent to which the framework is adopted by infrastructure owners and 
operators and has a positive effect in enhancing the security of the 
Nation's critical infrastructure.

    Question 3. What are potential downfalls of having a solution be 
dictated from the government to industry?
    Answer. Collaboration and the use of a consultative process are 
critical to the success of the effort to develop and facilitate 
adoption of the Cybersecurity Framework by critical infrastructure 
owners and operators. A solution dictated from the government to 
industry could pose risks that burdensome implementation costs could be 
imposed on industry, the technical aspects of the solution might be 
less practical or effective than other options, and industry would be 
reluctant to implement the framework. For these reasons, the standards-
setting process in the United States, as elsewhere in the world, relies 
on principles of consensus, transparency, balance, due process, and 
openness to ensure that any framework of standards is as inclusive as 
possible.

    Question 4. What issues, both generally and specifically, in your 
view should Congress perform oversight of over the next year as this 
Framework is developed?
    Answer. The executive order specifies several activities that can 
provide a basis for overseeing the development and implementation of 
the framework. Within the next year, the emphasis will be on developing 
the framework. Congress can focus on overseeing NIST's implementation 
of the consultative process to ensure that industry is heavily 
involved. This oversight could include reviewing the preliminary 
version of the framework, which is due 240 days after the order was 
issued. In addition, recommendations regarding a set of incentives for 
promoting participation in the program are to be made within 120 days 
of the order's issuance. Further, within 150 days, the Secretary of 
Homeland Security is to identify critical infrastructure at greatest 
risk, using a consultative approach. Congressional oversight can 
include reviewing these activities to ensure that the requirements 
specified in the order are met.

    Question 5. GAO found that Federal cyber strategies lack clear 
goals, performance measures, defined costs and resources, established 
roles and responsibilities, and do not coordinate with other national 
strategies. This failure to coordinate strategies raises concerns over 
how effective the Administration can be in implementing the new 
responsibilities laid out in the Executive order. The EO directs DHS to 
use a ``risk-based'' approach to identify ``critical infrastructure'' 
within 150 days. The EO also directs DHS to develop performance 
measures associated with the Cybersecurity Framework NIST is charged 
with developing. If the government is having a hard time developing 
performance measures for itself, how will this impact the government's 
ability to develop performance measures for the private security? How 
involved should industry be in this process?
    Answer. Without a proven track record for developing performance 
measures, the Federal Government will need to engage the private sector 
to help develop private sector performance measures. While the 
government has generally not included performance metrics in its 
national strategy documents, it has developed metrics for measuring the 
implementation of security controls by Federal agencies. For example, 
the Department of Homeland Security (DHS) has developed the metrics 
used in the Cyberscope reporting tool, which captures data on security 
control implementation at agencies, although it generally did not 
include a metric that addresses performance targets which would allow 
agencies to track progress over time. Our report on information 
security performance measures demonstrated that leading organizations 
used compliance, effectiveness of controls, and program impact 
performance metrics for monitoring their information security 
posture.\1\
---------------------------------------------------------------------------
    \1\ GAO, Information Security: Concerted Effort Needed to Improve 
Federal Performance Measures, GAO-09-617 (Washington, D.C.: Sept. 14, 
2009).
---------------------------------------------------------------------------
    Developing useful performance measures for the private sector's 
implementation of the Cybersecurity Framework, like the development of 
the framework itself, relies on collaboration with the private sector. 
Federal policy, including Presidential Policy Directive 21, Executive 
Order 13636, and the National Infrastructure Protection Plan (NIPP), 
establishes a cyber protection approach for the Nation's critical 
infrastructure sectors that focuses on the development of public-
private partnerships. The NIPP sets forth a risk management framework 
and details the roles and responsibilities of DHS, sector-specific 
agencies, and other federal, state, regional, local, tribal, 
territorial, and private sector partners, including how they should use 
risk management principles to prioritize protection activities within 
and across sectors.\2\ Further, the NIPP recommends that outcome-
oriented metrics be established that are specific and clear as to what 
they are measuring, practical or feasible in that needed data are 
available, built on objectively measureable data, and aligned with 
sector priorities. Direct input from the private sector will be 
critically important in ensuring that these criteria are met.
---------------------------------------------------------------------------
    \2\ Presidential Policy Directive 21 directed the Secretary of 
Homeland Security to update the National Infrastructure Protection Plan 
by October 2013.
---------------------------------------------------------------------------

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
